<html>
<title> - KEMPTHORNE NOMINATION</title>
<body><pre>[Senate Hearing 109-507]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-507
 
                         KEMPTHORNE NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

 TO CONSIDER THE NOMINATION OF DIRK KEMPTHORNE TO BE SECRETARY OF THE 
                       DEPARTMENT OF THE INTERIOR

                               __________

                              MAY 4, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-971                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     6
Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     7
Allen, Hon. George, U.S. Senator from Virginia...................    16
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Bunning, Hon. Jim, U.S. Senator from Kentucky....................     9
Burr, Hon. Richard M., U.S. Senator from North Carolina..........    13
Burns, Hon. Conrad R., U.S. Senator from Montana.................    15
Cantwell, Hon. Maria, U.S. Senator from Washington...............    12
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Crapo, Hon. Michael D., U.S. Senator from Idaho..................     2
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Dorgan, Hon. Byron L., U.S. Senator from North Dakota............     7
Kempthorne, Hon. Dirk, Nominee to be Secretary of the Interior...    19
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............    10
Martinez, Hon. Mel, U.S. Senator from Florida....................    18
Menendez, Hon. Robert, U.S. Senator from New Jersey..............    17
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     8
Salazar, Hon. Ken, U.S. Senator from Colorado....................    13
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    10
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     5
Wyden, Hon. Ron, U.S. Senator from Oregon........................     9

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    53

                              Appendix II

Additional material submitted for the record.....................    99


                         KEMPTHORNE NOMINATION

                              ----------                              


                         THURSDAY, MAY 4, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order. Good 
morning, everyone.
    We are here this morning to consider the nomination of 
Idaho Governor Dirk Kempthorne to be Secretary of the 
Department of the Interior. Before we begin, our colleagues, 
Senator Craig of this committee and Senator Crapo, have asked 
to make a few remarks. Senator Craig, would you please proceed? 
And then, Senator Crapo, would you follow.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much for 
allowing us to introduce our Governor.
    Let me start with this quote, ``This is the way the Federal 
land management should work. Cooperation, not confrontation, 
should be the hallmark of conservation efforts.'' That is a 
quote from our Governor, Dirk Kempthorne. In a nutshell, this 
quote by Governor Kempthorne summarizes his approach to 
difficult issues and demonstrates, in my opinion, that he is a 
leader.
    Mr. Chairman and members of the committee, it is my honor 
and privilege to introduce my friend and colleague of long 
standing, Governor Dirk Kempthorne. Governor Kempthorne is the 
best person for the position of Secretary of the Interior. He 
is a problem solver, a leader, and has demonstrated that he is 
a good steward of the land. Idaho is the perfect training 
ground for the issues Dirk will deal with as the Secretary of 
the Interior.
    From management of public lands to energy development to 
endangered species, Idaho has it all. As a public servant 
whether it was mayor, U.S. Senator or Governor, Dirk has 
demonstrated he can bring opposing groups to the table to solve 
problems. Letters of support from far and wide have come in. 
Mr. Chairman, you have 40 Governors who have signed a letter in 
support of this nominee, Democrat and Republican. We are joined 
today by the chairman of the Coeur d'Alene Tribe of Idaho, 
Chief Allan. Gentlemen, Chief Allan's support states this about 
Dirk Kempthorne, that he has immersed himself in issues related 
to public lands and natural resources. Has provided him, the 
chief says, with a foundation of experience to be our next 
Secretary of the Interior.
    Last, I would like to share what President Bill Clinton 
said as he signed the Kempthorne Safe Drinking Water bill, some 
years back. ``Senator Kempthorne,'' he said, ``thank you, 
especially for your effort on this issue. I know how long and 
hard you have worked on it. This legislation represents a real 
triumph because it demonstrates what we can achieve, here in 
Washington and in this country, when we turn away from 
partisanship and embrace shared values.'' So it is with great 
pride that I introduce to you, my fellow committee members, the 
Governor of the State of Idaho and President George W. Bush's 
nominee to be our next Secretary of the Interior, Governor Dirk 
Kempthorne. Thank you all.
    The Chairman. Thank you very much, Senator.
    Senator Crapo.

       STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Chairman Domenici, 
Ranking Member Bingaman, and members of the committee.
    It is my pleasure to be here to introduce to you my good 
friend and our Governor, Dirk Kempthorne. He is the President's 
nominee to be the new Secretary of the Interior. As some of you 
know from your service together, Dirk is a man of many 
accomplishments and is a man of the highest character and 
integrity. I have known Dirk since the 1980's, when we both 
serviced the public in Idaho. Dirk was then the mayor of the 
city of Boise and I served in the Idaho State Senate. In fact, 
we came to Congress together, Dirk as a Senator and I as a 
Congressman. I sort of owe my current job to him, as I won his 
seat when he left the Senate to go back to the State of Idaho 
to become our Governor.
    As we all know, Dirk has dedicated his life to public 
service. From his time in the Idaho Department of Lands, as 
mayor, as Senator, and as Governor, he has always been 
recognized by those from all sides of all issues for his unique 
character and his ability as a leader. He combines a thorough 
understanding of policy with the consensus-building abilities 
required to see that the right policies are carried out through 
legislation and executive action. These qualities will serve 
the Nation well as he takes on the many challenges facing the 
Department of the Interior in the 21st century.
    The diversity of his public service, especially as mayor 
and Governor, helped teach Dirk the real value of federalism, 
one that recognizes that the Government closest to the people 
is to do the most, and often with the fewest resources. I like 
to think that his service as mayor taught him the lessons that 
ultimately led to his leadership in enacting the Unfunded 
Mandates Act during his time in the Senate.
    A further reflection of that approach is his pioneering 
work on the Endangered Species Act issues. In the Senate, Dirk 
preceded me as chairman of the Subcommittee on Fisheries, 
Wildlife and Water in the Committee on Environment and Public 
Works, with jurisdiction over species conservation. In that 
capacity, he lead a bipartisan effort to update and improve our 
Nation's laws to better protect and promote the recovery of 
endangered and threatened species while recognizing the funding 
challenges and the need to protect people in the process.
    As Governor, Dirk has kept up his beacon call and has 
launched a successful public education initiative through both 
the National Governors Association and the Western Governors' 
Association on the importance of ESA issues. Dirk has become a 
respected national authority on resource issues and a promoter 
of collaborative decisionmaking to solve environmental 
conflicts.
    As Governor, he also forged a strong working relationship 
with the five Native American tribes that reside in Idaho. As 
Senator Craig has indicated, the chairman of one of those 
tribes is here today in support. Dirk recognizes the complexity 
of our trustee relationships with our Nation's tribes and has 
continuously sought to work corporately on matters that affect 
both the State and Native Americans. As chief steward of the 
State for the past 8 years, Dirk has been a vigorous champion 
of innovation in environmental and natural resource sciences. 
Through his leadership, the State has taken a leading role in 
applying scientific and technological innovation and research 
to the complex world of environmental and natural resource 
management. Dirk has also worked to advance the environmental 
mission of the Department of Energy's Idaho National 
Laboratory.
    I know many of you have worked with Dirk over the years and 
I am confident that you found him to be an effective leader and 
a valuable colleague. Mr. Chairman, I whole-heartedly support 
Dirk Kempthorne's nomination as Secretary of Department of the 
Interior. There is no question in my mind that he will make a 
superlative Secretary and be one of whom we can be proud. 
Chairman Domenici, again I thank you for providing me the 
opportunity to speak on behalf of Dirk's nomination. I urge you 
and the committee to swiftly and favorably report his 
nomination to the full Senate. I look forward to working with 
you and Dirk and others in Congress on the pressing natural 
resource issues facing our Nation today. Thank you.
    The Chairman. Thank you very much, Senator. Now, before the 
two of you Senators leave, do any Senators up here at the dais 
have a question of either of the two Senators who have spoken 
on behalf of Senator Kempthorne? Anybody desire to speak or ask 
a question of Larry Craig or Mike Crapo?
    You are excused, Senators. Thank you very much for your 
testimony.
    Now, Governor, it comes time, a pleasant time before a 
hearing when we permit you, if you have members of your family 
present, to introduce them so that they can share with you in 
this event. If they are with you, would you please introduce 
them to us.
    Mr. Kempthorne. Yes, Mr. Chairman, thank you very much.
    It is a great joy and pleasure for me to introduce to this 
committee my wife, Patricia, of 28 years. Twenty-nine this 
year. And our daughter, Heather, and our son, Jeff.
    The Chairman. We are delighted that you came and joined in. 
We remember when you were with us before, when you left us to 
go home and I assume you made this big decision to come back. 
You have smiles on your faces, so it must be with joy that you 
made that decision. At least I say that to you as his wife. We 
hope it is going to be a joyful time here. Thank you for 
joining us.
    Now, we are going to proceed with the hearing. I welcome 
you back to the Senate and to this committee, Dirk. I want to 
thank you for your willingness to undertake the 
responsibilities of this magnitude in this administration. 
Everyone around here--and in particular the members of this 
committee--knows the importance of the issues that you will 
receive if you are confirmed: Issues important to our energy 
policy, our parks, our memorials, our national treasures of all 
types, our western water policy, and on and on. I think I speak 
for everyone here, certainly everyone on this side of the dais 
that we could not be more pleased to have someone with the 
experience that you have willing to take the helm of the 
Department of the Interior.
    That confidence in you has also been reflected in numerous 
letters of support that we have received, one of which I want 
to note and ensure its inclusion in the record. This letter, 
fellow Senators, is the letter of support of 40 Republican and 
Democratic Governors. That is a tremendous vote of confidence 
and an indication of the caliber of expertise and judgment and 
willingness to work together and the ability to work together 
that you would bring to this Department.
    It is my hope that we can get you quickly confirmed to this 
position. The Department needs to have an experienced 
Secretary, one who can take the helm running and do that as 
soon as possible. Major decisions that must be made are on 
hold. Many more will be coming down the pike in the next few 
months. I don't say that in any way to frighten you. You are 
fully aware of it or you wouldn't have taken this job. There 
are a load of decisions to be made, some ready and some waiting 
just waiting to come across your desk.
    We can't afford to leave the department without permanent 
leadership, so this chairman will do everything that he can to 
get you in the place the President has asked you to be as soon 
as possible. But we all know this is a process, a process that 
the Constitution provides, and it may take some time, that is 
the prerogative of the U.S. Senate.
    Now, with that, I am going to yield to Senator Bingaman, 
who may want to make opening remarks, and then I am going to 
yield in due course to any other Senator who would like to 
comment. I would only ask, please, if other Senators desire to 
comment, unless they have something extraordinary, would you 
please make the comments as brief as possible. Senator 
Bingaman, this does not apply to you. Senator.
    [Laughter.]

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you, Mr. Chairman. I assure you I 
have nothing extraordinary to say here, but I appreciate the 
chance to welcome Governor Kempthorne back to the Senate, and 
to make a couple of obvious points that I am sure he is aware 
of. We have a great deal of debate and discussion going on here 
in Washington, here in the Congress and in the administration 
about the soaring price of gas and what is needed to deal with 
our energy needs. That is an important issue, as I believe you 
said, Mr. Chairman, for the Secretary of the Interior. The 
Department of the Interior manages the lands and waters that 
generate a third of our domestic energy, so it is a significant 
issue, but obviously, the Secretary of the Interior is not the 
Secretary of Energy. The Secretary of the Interior's job is a 
different job and I would sum it up--and I think this is 
consistent with what Senator Craig was saying in his comments. 
I would say the Secretary of the Interior's job is that of 
steward and chief, perhaps, of our Nation's lands and natural 
resources. I think, more clearly, to be the faithful steward of 
the parks, the monuments, the wildlife refuges, the wilderness 
areas, the public lands, the wild and scenic rivers, to protect 
historic sites that have been designated by the Congress and 
natural areas that have been designated, and to leave those 
unimpaired for future generations to enjoy.
    There has been criticism of the Department of the Interior 
in the last several years. In particular, that there has been 
too much emphasis on commercial exploitation of the resources 
and not enough on stewardship of the resources. I just cite 
that as an issue that you are clearly going to have to grapple 
with and make decisions on. If confirmed, Governor Kempthorne 
will have the opportunity to put his own imprint on these 
policies and actions of the Department. It is my great hope 
that in this new position you will be able to work to repair 
the lines of communication with this committee, which I don't 
think have been all that they should have been in recent years, 
and restore the balance--and ensure the balance, I should say, 
between development and conservation, which is appropriate, 
and, of course, review policies of the Department to be sure 
that this important role of being the steward of our national 
resources is given the priority it deserves.
    Thank you again for the chance to speak, Mr. Chairman.
    The Chairman. Thank you, Senator Bingaman.
    Now we are going to proceed on our side. Senator Thomas of 
Wyoming, would you like to comment, please.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Yes, thank you, Mr. Chairman. I will be 
very brief. I want to tell the Governor how pleased we are to 
have him here and look forward very much to it. Wyoming, of 
course, is a State where over half of our land is owned by the 
Federal Government and managed by Interior agencies. Seventy 
percent of the sub-surface minerals are managed and run by the 
Government, so this is very important to us. We have a number 
of conflicts going on out there now, with respect to wolf 
management and some of those things that need to be resolved. 
We can do this and we certainly look forward to it.
    So, I am very pleased that you are here. I am very pleased 
that you have had the experience of working in the West in 
public land States with the kinds of things that we are all 
faced with, and certainly we look forward to working with you. 
I invite you to come to Wyoming and get acquainted a little 
more closely with our issues. Thank you for being here. Thank 
you for being able to take this on. We look forward to working 
with you. Thank you.
    [The prepared statement of Senator Thomas follows:]

   Prepared Statement of Hon. Craig Thomas, U.S. Senator From Wyoming

    I would like to welcome Governor Kempthorne to the hearing today. 
This nomination is very important to my state as well as the nation, 
and I appreciate you being here today.
    The Department of the Interior is the next-door neighbor to nearly 
everyone in Wyoming. Just over half of our land is owned by the federal 
government. When you look at subsurface mineral ownership the federal 
share jumps to 70%. The vast majority of that federal land is managed 
by Department of the Interior agencies, including the Bureau of Land 
Management (BLM), National Park Service, Bureau of Indian Affairs, Fish 
and Wildlife Service, and Bureau of Reclamation. Wyoming is home to two 
of the nation's most spectacular National Parks--Yellowstone and Grand 
Teton. It is also home to the third largest Indian reservation--the 
Wind River Reservation.
    Obviously the people of Wyoming are very concerned with how their 
neighbor, the Department of the Interior, manages their land. Our 
National Parks are special places that need special protections and 
attention. Our reservation is also unique, and the people who live 
there have many needs. Interior's management the land influences almost 
every sector of our economy, from coal and oil and gas development, to 
agriculture, to tourism and recreation.
    I understand that some of Interior's management decisions are 
controversial.
    For example, the listing of the wolf continues to be a contentious 
issue in the West. The wolf population in the northern Rocky Mountains 
is ready to delist, however, the State of Wyoming and the Department of 
the Interior remain at odds over the management and delisting of 
wolves. As the Governor of Idaho, you understand this issue from the 
states' perspective, and I am hopeful that perspective and your 
experiences will lead to an agreeable resolution. Continued conflict is 
not good for the Department or Wyoming. One of the problems, and the 
source of much of the conflict, has been getting Interior officials 
with decision-making authority to come to the Wyoming. As a result, 
public trust and confidence in Interior remains low in Wyoming.
    Another issue is oil and gas development in Wyoming. Interior's 
role in the current energy boom being felt in Wyoming is clear, as much 
of the development and production involves Interior owned mineral and 
Interior-issued permits. Energy production is important to Wyoming and 
the nation. The people of my state are doing their part to help meet 
the nation's appetite for energy. Development is needed, but at the 
same time we must remember that there are costs to the land and the 
people who live there.
    Governor Kempthorne, I would like to invite you to come to Wyoming 
after you are confirmed to meet with people on the ground to talk about 
the many issues your agency is facing. I would like a commitment from 
you today that you will visit my state. It will be important to get out 
of Washington and meet and talk with the residents, employees, and 
officials who are impacted by these issues. As a Governor, you know how 
critical it is to be a hands-on leader willing to go out in the field 
to talk to the people. I truly believe that your success depends on it.

    The Chairman. Thank you very much, Senator.
    On the Democrat side, Senator Akaka.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I am so 
pleased to see my good friend and colleague, Governor of Idaho 
Dirk Kempthorne. I want to say hello to you and welcome and 
also to Patricia and the family here.
    I would like to take this opportunity to thank you for 
being here today. I know you so well and know that you have the 
experience--great experience as a public servant, in your State 
as well as here in the Senate. When you are confirmed, I know 
your wisdom will help our country, as being steward of our 
country's land and natural resources. As guardian of the 
national parks and our most sacred historic sites, as well as 
much of this fish and wildlife, it will be your job to protect 
these valuable resources for our children and our children's 
children. So, it is very important to me and to our country. I 
look forward to working with you. My questions--I just want to 
tell you that I have an important issue to mention to you and 
hopefully will have your commitment. I look forward to hearing 
you and your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Back on our side, Senator Alexander.

        STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. Governor 
Kempthorne, we welcome you. You should be a terrific Secretary 
of the Interior. The three areas that I am most interested in 
we have already talked about. I will mention them in a total of 
about 60 seconds here.
    One is your interest in the State side of the Land and 
Water Conservation Fund. Senator Salazar and I and many others 
have worked on that and look forward to working with you on 
that. Second is the revision of the management policies in the 
Department. We have talked about that. Senator Thomas and his 
subcommittee have held hearings on that. We will be holding 
more. That is very important to a number of us here. Third is 
you have an important decision to be making on the so-called 
``Road to Nowhere'' through the Great Smoky Mountain National 
Park, which if it were built would take 75 years of funding 
from the park road budget and build three bridges the size of 
the Brooklyn Bridge through the wilderness area. I hope you 
will decide that is a bad idea and instead compensate Swain 
County, which has been recommended by the Governors of North 
Carolina, Tennessee and me. But we will talk about those 
issues. I look forward to working with you. I thank you for 
being willing to serve.
    The Chairman. Thank you very much, Senator.
    Senator Dorgan.

        STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR 
                       FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, first of all, let me confess 
to liking Dirk Kempthorne. He and I and many on this committee 
have worked together in the Senate, and I am pleased to support 
his nomination.
    I want to mention two things very quickly. One, Senator 
McCain and I and others in our role in the Indian Affairs 
Committee have worked very hard to try to begin to resolve the 
Cobell case, the systematic mismanagement of Indian trust funds 
over many, many years. This is a very big issue, a very 
important issue. I have talked to you about it previously, 
Governor Kempthorne. I hope it will be a priority for you, as 
it is for us, to see if we can finally resolve this.
    Second and last point, it has been since February of last 
year that there has been an Assistant Secretary for Indian 
Affairs. We really need to have someone appointed to be 
Assistant Secretary for Indian Affairs. It has traditionally 
been a Native American. My hope is that you would also see that 
as a priority and that as your choice. I hope we can move 
quickly. There are just so many pressing issues: The crisis and 
health care, housing and education on Indian reservations.
    I look forward to working with you. While we might disagree 
from time to time, I feel very strongly that Senator--and now 
Governor--Kempthorne is the kind of person that will work with 
all of us on issues and try to find the right result. So, thank 
you very much.
    The Chairman. Senator, on that vacancy, you can rest 
assured that I am working on it also. I think it is shameful. 
We have to find someone and we have to do that. This may be the 
catalyst to get it done. It is very important that we find 
somebody.
    On our side, please. The Senator from Alaska.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Good morning, 
Governor Kempthorne, nice to have you here. And again I also 
thank you for your willingness to serve. I enjoyed the 
conversation that we had several weeks back for me to share 
some of Alaska's concerns that are perhaps not new to you, but 
just again a reminder. And I don't want to quibble with my 
colleague here from Wyoming about which State might have a 
greater interest in this position of Secretary of the Interior, 
but I think it is fair to say that we in the Western States 
look very, very carefully at this position because you are our 
Federal landlord. I guess if I would have to pick a Federal 
landlord, I am certainly much more comfortable with one who has 
been managing lands in the West and who understands so many of 
our issues. I look forward to working with you on that.
    As you know, we are approaching our 50th anniversary of 
statehood. We would really like to think that some of the 
promises made to us on statehood would be complete when it 
comes to our conveyances of the lands. We have not yet 
completed the conveyances of the 104 million acres that were 
promised to Alaska under our Statehood Act. Our native 
corporation still has not received the full 44 million acres of 
land and there are far too many applicants for our native 
allotments under the Act of 1906 that are still waiting to 
receive the lands that they are entitled to.
    When we look at those lands designed as wilderness, we have 
half, one full half of all the federally designated wilderness 
is in the State of Alaska. We have 57 million acres. When you 
add the land that is managed as wilderness, it is 76 million 
acres total. It is about 16% of our State, of Alaska's entire 
landmass, which is managed as wilderness. A lot of people don't 
recognize this, but again, that puts your responsibility in the 
Department of the Interior right up there in terms of those 
that we look to for assistance. When we recognized that \2/3\ 
of the total acres managed by the National Park Service are 
located in the State of Alaska--84% of the acres managed by the 
Fish and Wildlife Service are in Alaska. I can go on and give 
the statistics and once again impress how big and how important 
Alaska is, but our relationship with the Department of the 
Interior is exceptionally key.
    I look forward to your visit this summer, so that we can 
walk through some of these acres and again impress upon you the 
importance of your position, your role as our landlord. I look 
forward to working with you in many, many capacities and again 
for your willingness to serve.
    Thank you, Mr. Chairman.
    The Chairman. The distinguished Senator from the State of 
Oregon.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. Governor, you and I 
go back a long way and I have always enjoyed working with you. 
I am going to be asking you about a number of topics this 
morning over the course of our discussion. I am particularly 
concerned about the fate of a law that Senator Craig and I 
wrote. It is called the Secure Rural Schools and Communities 
Self-Determination Act. And what the administration proposes to 
do is to sell off hundreds of thousands of acres of our public 
lands, while at the same time turning off the lights in much of 
rural America. We are not going to be able to pay for our 
schools and law enforcement and other services if the 
administration is successful in cutting this program back 60%, 
as has been proposed, while at the same time selling off 
America's treasures.
    And what Senator Craig and I did 6 years ago, for the first 
time in decades, was break the polarization in the debate over 
natural resources. We have something that works, and yet the 
administration wants to abandon it, sell off America's 
treasures, and whack our rural schools and communities. It was 
a bipartisan effort between Senator Craig and I. I will be 
asking you about that and other topics, but I want you to know 
as we go into these hearings that I very much enjoyed our 
working relationship in the past and I will look forward to 
continuing that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    The Senator from Kentucky.

          STATEMENT OF HON. JIM BUNNING, U.S. SENATOR 
                         FROM KENTUCKY

    Senator Bunning. Thank you, Mr. Chairman. Welcome, Dirk. I 
want you to know up front that I am going to be 100% behind 
your nomination. Rather than talk about legislation, I want to 
thank you for saving my life and my wife's life in Boise. When 
the University of Louisville came up to play Boise State, it 
was 9 degrees. If I hadn't gotten in a--not your box, but some 
enclosure in the second half, I would not have made it to the 
end of the game.
    [Laughter.]
    Senator Bunning. And I want to thank you for that. You will 
do the same job at the Department of the Interior. Save what we 
have of natural resources and do the things that are necessary. 
Thank you for being here. I thank you for your willingness to 
serve.
    The Chairman. Thank you very much, Senator.
    Who is next? You are next, Senator Landrieu.

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. Governor, I want 
to extend my sincere appreciation for the quality of your 
public service and the extent of your public service, and I 
look forward to working through your nomination and the process 
that we have started.
    As you know, the State of Louisiana--in the meeting that we 
had, and you were very gracious to come and visit with us on 
the subject--plays host to about 30% of the Nation's oil and 
gas production. Since I think a picture speaks a thousand words 
and we just got this new picture developed, this is what the 
State of Louisiana's pipeline system looks like. That keeps the 
oil and gas flowing into the country and keeps a lot of the 
lights on, most of the lights around the Nation.
    Mr. Secretary, as you know, we had two monster storms hit 
this coast. We are losing the equivalent of 33 football fields 
a day. We have lost over a million square miles of wetlands, 
and if we don't act immediately to correct this situation, we 
will lose one of the greatest treasures in the United States of 
America, which is the last coastal wetland in the United 
States. This wetland contributes more to oil and gas production 
in the country than any place, including Alaska or the West. 
The only solution that we have been able to come up with is a 
revenue sharing or coastal impact assistance that will help not 
just Louisiana but the gulf coast States. My questions through 
this hearing and through your nomination will be about what 
your position is regarding leading the effort for equity and 
for common sense when it comes to energy production and 
responsibility to our environment as we proceed forward. Thank 
you.
    The Chairman. Thank you very much.
    Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Dirk, welcome. You are a good neighbor to 
Oregon and a good friend of mine. I look forward 
enthusiastically to voting in the affirmative when your 
confirmation comes to the floor. I want to echo what Senator 
Wyden said, about how important these county payments are to 
States like Oregon and Idaho, Washington State, Montana, even 
Mississippi.
    I also want to link with the past, which is related to much 
of the stewardship you are about to assume. The Department of 
the Interior is responsible for the management of probably 
about 25% of the State of Oregon. The Forest Service takes 
another 25%. Our State, like many of my colleagues', is more 
than half owned by the Federal Government. Your Department, 
specifically under the BLM, manages 2 million forested acres in 
western Oregon known as the O&C lands. By statute, these lands 
are to be managed for the permanent timber production for the 
benefit of those counties there. They have received in the past 
not just family-waged jobs, but 25% of the value of the timber 
production, known as timber receipts.
    This all went away in the 1990's. The spotted owl was 
listed under the Endangered Species Act. We were told that it 
was listed because of overharvesting. I won't comment on 
whether it was overharvested or not. I suspect it was 
overharvested, but the linkage was made between harvest and the 
survival of the spotted owl.
    But 16 years later, we have learned that the real threat to 
the spotted owl is the barred owl. The barred owl is bigger 
than the spotted owl. It competes with it for territory. It 
eats it when it can. And it is driving down its numbers and the 
barred owl numbers are increasing. The barred owl is not native 
to the Pacific Northwest, it is from the Midwest, but it is 
flourishing there at the expense of the spotted owl.
    The Chairman. Isn't that amazing?
    Senator Craig. Yes.
    Senator Smith. But in the meantime, these communities have 
suffered devastating losses to their livelihood, to their 
survival. And the U.S. Fish and Wildlife Service, under your 
jurisdiction, is responsible for the recovery of the spotted 
owl. And yet, 16 years later we still don't have a recovery 
plan for the spotted owl. We need you to have one. We need it 
fast, because until we have a path to return to the old ways, 
Senator Wyden and I and many of our other colleagues are going 
to fight with all the tools available for us to preserve some 
safety net. When the Federal Government owns you and makes 
commitments and then it changes the deal, the change comes with 
a cost, and we face it in human terms every time we go home. We 
need a plan. We need a recovery plan for the owl.
    We also need to add some common sense management to the 
recovery of these enormous wildfires that we have that have 
consumed approaching a million acres of spotted owl habitat, 
left unattended just to nature to take its course after these 
catastrophic fires that burn hotter than anything that we have 
known in natural history because of the overgrowth, the 
blowdown, the snowdown. The volatility of these fires will 
leave these places moonscapes for a century or more. We need 
something better than that as the answer.
    I hope you will review the status of the whole issue of the 
owl. People are counting on you. I look forward to working with 
you to find a defensible recovery strategy. I applaud the 
Bureau of Reclamation for the way they have worked on the 
burning issue of water in eastern Oregon, and places like 
Klamath Falls in southern Oregon. I hope we will see a 
continuation of that collaborative effort. They have done an 
outstanding job. Thank you, Mr. Chairman. Thank you, Dirk--Mr. 
Secretary, almost.
    The Chairman. Thank you very much. Senator Cantwell.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Governor, Mr. 
Chairman, I was going to just enter a statement for the record, 
but seeing where we are going with time, I think I will make a 
few comments about questions that I want to ask you, because we 
need to get to a vote. First of all, welcome. I know you do 
understand regional issues in the Northwest, having grown up in 
Spokane and serving as a steward of the region as Governor and 
working with our Governor in Washington State. I plan to ask 
you about the National Park System, something that we are very 
proud of in the Northwest and a key component of Washington 
State's $200 million outdoor recreation industry. I would like 
to ask you about your predecessors' policies, particularly as 
they relate to the parks and the ongoing rewrite of the Park 
Service's management policies. I want to be clear with you on 
my concerns about this new rewrite as it relates to increased 
use of snowmobiles, ATVs, and jet skis. I'd like to know your 
feelings about the original charter and mission of the Park 
Service and how you view that and view the conflicts in the 
rewrite.
    I guess when you have friends on the committee you get an 
advance of the questions that are going to be asked, so that is 
what I think some of my colleagues have been doing and I am 
going to continue that.
    Royalty relief is a big issue for the Secretary of the 
Interior. I am very concerned that the Department of the 
Interior's estimates are that taxpayers will lose about $9.5 
billion in royalty relief and yet the GAO has come up with a 
much larger number. So, why is there a discrepancy and how 
aggressive will you be as Secretary of the Interior in pursuing 
this issue?
    My colleague from Louisiana just talked about the issues 
that have faced that region related to dealing with coastal 
erosion.
    One of the things that I have been most proud of as a 
Washingtonian is the work that the long-time Senator from 
Washington State, Scoop Jackson, did in the creation of the 
Land and Water Conservation Fund in 1965. I am very concerned 
about the administration's short-sighting of the state-side 
grant program of the Land and Water Conservation Fund. I would 
like to know where you are with that, because I don't think it 
is a program that deserves to be eliminated in the budget.
    Last, obviously my colleagues have talked about the Bureau 
of Indian Affairs, but I want to get your sense of that agency, 
an agency that has long, I believe, been underserved. The BIA 
is in need of better oversight and management to require more 
efficiency to get back on the right track. I want to hear your 
ideas on that. I hope that we will get time to get back to 
questions, but again I appreciate your interest in serving in 
this position and certainly your service to the Northwest 
region. Thank you.
    The Chairman. Thank you very much. I would appreciate it if 
you would keep the remarks a little bit shorter. Senator, I 
understand what you are doing and I compliment your wisdom.
    Now we are going to have the distinguished Senator, Senator 
Burr.

        STATEMENT OF HON. RICHARD M. BURR, U.S. SENATOR 
                      FROM NORTH CAROLINA

    Senator Burr. I thank the Chairman. I won't take it 
personally that he has reminded Senators of time as he yielded 
it to me. Governor, welcome and make no mistake about it, I 
enthusiastically support and will do everything to expedite 
your nomination. I thank your family for their unbelievable 
commitment to a number of years of public service.
    North Carolina is made up of 10% Federal lands, over two 
million acres. It is important to us. My support does not go 
without questions, and we will get into those, but I think that 
Senator Landrieu very eloquently talked about two devastating 
storms in Louisiana, the fact that those storms did things that 
no part of a an imagination could have ever envisioned. The 
reality is that North Carolina relies on an infrastructure that 
is driven off of tourism. Our Outer Banks receive over a 
million visitors a year. In the middle of our Outer Banks is a 
wildlife refugee. It is one that Fish and Wildlife is in charge 
of.
    Our responsibility and the country's responsibility is to 
make sure that if, in fact, there is ever an emergency, that we 
can evacuate people, something we learned over and over last 
year. We take that very seriously in North Carolina. To remove 
visitors from our Outer Banks is absolutely essential, but to 
do that, it means that we have to address the infrastructure 
needs and the deterioration. We are faced with that right now. 
You know about this, and we will talk about some questions.
    The number one thing I hear when I come home is, is there 
any common sense in Washington? When I see decisions like I am 
faced with, I have to question the same thing. I heard Senator 
Crapo describe you very eloquently. He said that you recognize 
the need to respect funding and to protect the people. That is 
what we are faced with in North Carolina, the need to respect 
how much it is going to cost to fulfill the infrastructure 
needs to take care of the security of the people that are 
there.
    A 17-mile bridge has been proposed in the Outer Banks of 
North Carolina, the second longest bridge, behind Lake 
Pontchartrain in Louisiana. I have visions of the Lake 
Pontchartrain bridge after the devastating hurricane. That 
happens not very regularly in Louisiana, but it happens every 
year in North Carolina. Not on the magnitude that we have seen, 
but we get a tremendous amount of practice. I am not sure 
whether common sense plays a part of that decision, much less a 
$900 million bridge versus a $300 million option. I will ask 
you some questions about it later on. I want you to know that 
this is something that I will stay engaged in and I feel very 
confident that you will engage in and that we can go home and 
say common sense does exist in Washington, DC. Thank you, 
Governor.
    The Chairman. Thank you very much, Senator.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Chairman, and thank 
you very much, Governor Kempthorne, for being here and for your 
willingness to serve. Thank you to your family as well, because 
I know the sacrifice that goes into the kind of service that 
you are providing. You and I had a great meeting less than 30 
days ago. I won't review all of the issues, but we talked about 
the National Park Service Management Policy, bark beetle 
infestation, the fire emergencies that we are facing in the 
West, public land sales, payment the lieu of taxes, the Land 
and Water Conservation Fund, BLM leasing policies, oil shale 
development in Colorado, and the Endangered Species Act. So, 
that gives you a sense of the portfolio of it. I hope to be 
able to work with you in your position as Secretary of the 
Interior.
    I want to just make two brief comments. One, with respect 
to parks, for the life--after multiple hearings here, including 
Senator Thomas and others, I still have no way of understanding 
why it is that the National Park Service has decided to change 
its policy of ``do no harm.'' That is something that I want to 
work with you on. I want you to revisit that issue.
    Second, the Land and Water Conservation Fund, Senator 
Alexander has been a leader in this effort, along with others 
on this committee. I know that in June, I think, of 2001, you 
issued a press release supporting the $450 million funding to 
the Land and Water Conservation Fund. That is going to be a 
subject that I hope we get to revisit here as we move forward 
with some of the energy proposals that we are dealing with 
today. I look forward to working with you on that very, very 
important program that you know has benefited Idaho and 
benefited every one of the 50 States of the Nation. Thank you.
    [The prepared statements of Senators Salazar and Burns 
follow:]

   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado

    Thank you, Mr. Chairman and Ranking Member Bingaman.
    Welcome, Governor Kempthorne. Congratulations on your nomination as 
the Secretary of the Department of Interior. I am confident that you, 
as a westerner, a former senator and the current governor of the great 
state of Idaho, understand the importance to my State of Colorado of 
the issues managed daily by the Interior Department.
    The Department of the Interior manages over eight million surface 
acres of public land and over five million subsurface acres in 
Colorado. These lands include four National Parks, seven National 
Wildlife Refuges, vast Bureau of Land Management holdings, and numerous 
National Monuments, Recreation Areas, and Historic Trails.
    Millions of Coloradans visit the National Parks, hike the Historic 
Trails, hunt on BLM lands, or heat their homes with natural gas 
extracted from land covered by a BLM lease.
    There are dozens of important issues facing Colorado, relative to 
the Department of Interior's management of public lands in my state, 
for which you will have responsibility if confirmed. I look forward to 
working with you on each and every one of those issues.
    I will mention briefly just a few examples, and I look forward to 
asking you further about these later.
    Governor, over the past five years under Secretary Norton there has 
been a distinct shift in management emphasis of our federal lands 
within the Department of the Interior from one of stewardship and 
conservation of lands managed by the Park Service, Fish and Wildlife 
Service and Bureau of Land Management, to an emphasis on development--
principally energy development--and on other commercial uses. This 
shift to the commercial exploitation of our public lands over all other 
uses is apparent in both the articulated policies of the Administration 
as well as in the budget proposals sent to Congress. For example, the 
FY 2007 Interior budget includes over $467 million for energy 
development, while the amounts for important conservation, operations, 
research and maintenance programs of the National Park Service, Fish 
and Wildlife Service, USGS and BLM have been cut dramatically.
    I am in favor of balanced development of energy resources on our 
public lands. And I believe our National Parks and other conservation 
lands must be managed so they can be enjoyed by the public. But I think 
if is fair to say the overall management direction of the Department 
lacks the right balance between the conservation and protection of 
natural resources and the development and commercial exploitation of 
those resources.
    Nowhere is this trend more apparent than in the oil and gas fields 
in the Rocky Mountains. Many of Colorado's rural counties are 
experiencing rapid growth in energy production on BLM lands. These 
communities understand that we must move our country toward energy 
independence, but they are also very concerned about the serious 
impacts that this stepped-up development is having on their land, water 
and infrastructure. They want to contribute to expanded domestic energy 
production while still preserving their natural heritage and a quality 
of life that attracts residents, visitors, and businesses. If you are 
confirmed, I hope I can count on you to provide BLM with all of the 
resources it needs not only to issue drilling permits, but also to 
conduct vigorous oversight when producers are drilling on public lands 
in these counties. Our rural communities deserve high standards and 
safeguards if they are to help carry us toward energy independence.
    Most important, BLM is charged with leasing millions of acres of 
minerals that lie under private lands, and I look forward to working 
with you and the Department to find ways to work more cooperatively 
with those surface owners--including providing notification to each 
surface owner before parcels are leased and making sure that the rights 
of surface owners are addressed.
    In Garfield County, where much of the oil and gas and oil shale 
activity is located, a group of citizens and communities came together 
and created a innovative development plan with Antero Resources, an oil 
and gas company that has a number of leases on private property in that 
county. This plan, while not legally binding, provides a framework for 
responsible development. The goal is to create a working relationship 
built on trust and goodwill between the community and industry whereby 
each entity accepts a level of responsibility and holds its partner 
accountable. I believe this plan provides a blue print for how BLM 
might work more effectively with surface owners. I would be glad to 
provide you and your staff with a copy of the plan.
    Recreation and tourism is also a growing segment of the economic 
base in Colorado's rural counties. I am therefore very troubled by the 
Department's proposed revisions to the National Park Service management 
policies--policies which were updated just five years ago to make them 
consistent with legal developments at that time. The 2001 policies 
reaffirmed the commitment of previous management policies and the 1916 
Organic Act to protect park resources above all else. The proposed 
revisions to the NPS management policies, however--especially when 
combined with cuts to the National Park Service's maintenance and 
construction'' budget--threaten to exacerbate the deferred maintenance 
backlog in the Parks and to erode the integrity of our entire National 
Park system.
    Finally, the President's FY07 budget proposes--for the second year 
in a row--to eliminate the Land and Water Conservation Fund stateside 
grants program, which provides matching funds for Great Outdoor 
Colorado (GOCO)'s parks, recreation, and open space projects. The 
elimination of a broadly supported and highly effective program would 
limit recreation options for all Coloradans and will hurt rural 
communities that want to protect open spaces and parks for future 
generations. We discussed the LWCF stateside grant program when you and 
I met last month, and I was reassured when you told me you would work 
with me to restore full funding to this important program.
    Governor, I hope in your testimony today you will reaffirm your 
continuing commitment to good stewardship and protection of America's 
public lands.
    Thank you, Mr. Chairman.

                                 ______
                                 
   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana

    Thank you, Mr. Chairman, for the opportunity to address the 
Committee this morning. I welcome Governor Kempthorne to this hearing 
and look forward to our discussion today.
    Montanans are affected very deeply by decisions regarding federal 
land, because they are the ones trying to make a living on the land, 
live next to it, or use it for recreation. As a former colleague of 
ours and Governor of Idaho, Governor Kempthorne fully understands the 
decisions we make will have significant impact at the local level.
    Right now everyone is talking about the high price of oil, 
gasoline, and natural gas. Our public lands can play a large role in 
moving our country towards energy independence. I trust Governor 
Kempthorne will work with Secretary Bodman and Congress to make sure we 
are making wise use of our public lands. We have the resources 
available and we need to be able to access them.
    During his time as a Senator and Governor, he has faced many 
contentious issues head-on and has proven that he is able to bridge the 
gap and help people come to the table even if they do not always see 
eye to eye. There will be challenges ahead that will require common 
sense and educated answers, and I am confident Dirk Kempthorne is the 
right person to lead the Department of Interior in that effort.
    There is one specific issue in Montana I would like to bring to 
your attention. In April, we visited about the looming emergency facing 
the St. Mary Canal and Diversion Facilities and my intent to introduce 
legislation to rehabilitate the project. I again invite you to come to 
Montana and see the facilities for yourself.
    I am here today to offer Governor Kempthorne my wholehearted 
support in his nomination to be the 49th Secretary of the Interior. As 
a member of this committee and as Chairman of the Senate Interior 
Appropriations Subcommittee, I look forward to working closely with him 
as the next Secretary of the Interior.

    The Chairman. Thank you very much, Senator.
    Senator Allen.

         STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. Governor, it is 
good to see you again. I welcome you and your family back to 
the Senate. Hopefully, you will move back to Virginia as well.
    Senator Bunning was thanking you for saving his life. I 
have a special affection for Idaho, not for saving my life, but 
they called me up from working on a ranch near Onanmuck on BLM 
land and they had cattle up near Carey and had to work the 
round-up up there. Hopefully, you won't have to go like those 
cattle being herded, culling the cows from the calves, branding 
them, turning bulls into steers, and all the rest, as you go 
through this.
    Let me just briefly mention something--and this is a very 
important job. You just listen, Mr. Chairman, to all the 
different comments how important this position is. For 
Virginia, we are not like Western States that are run by the 
Federal Government, in all respects, you have Forestry land and 
some national parks.
    One measure that is coming up has to do with the founding 
of America's representative democracy at Jamestown, the 400th 
anniversary of the founding of the Jamestown settlement, the 
oldest permanent English settlement in the New World will be 
next year. It is not as old as Santa Fe and the Spaniards, but 
the longest, oldest and the first permanent English settlement 
in North America.
    John Smith had these fascinating voyages and mapping of the 
Chesapeake Bay and its tributaries. We have worked together--
Senator Warner, myself, Senators Sarbanes and Mikulski in 
Maryland, Senator Biden in Delaware, as well as those in 
Pennsylvania--to have a recognition not just of the Jamestown 
commemoration--the President has been very helpful in that 
commission--but we also want to establish a Captain John Smith 
Chesapeake National Historic Trail recognizing these 
exploratory voyages in the Chesapeake Bay and its tributaries. 
Chairman Thomas will soon have a hearing on the bill later this 
month and I look forward to working with my colleagues and the 
Bush administration to pass this important legislation. Next 
year is the 400th anniversary. The sooner we can get this 
accomplished, the better the preparation and planning will be 
for the 400th anniversary of the founding of Jamestown, which 
is indeed the cradle of American democracy.
    So, I thank you. I think your experience as a Senator and a 
Governor uniquely prepare you for this very important position 
for America. I look forward to working with you and your swift 
confirmation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator. Our last 
Senator, Senator Menendez.

        STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR 
                        FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Governor, welcome. Congratulations on your nomination and 
on your service over a long period of time.
    While I know my colleagues from Western States are intently 
interested on who the Secretary of the Interior Department is, 
I can tell you as the only Northeastern member of this 
committee that we are intensely interested in who the Interior 
Secretary is as well. By virtue of that, let me just tick off a 
few things, some of which I hope to pursue in requesting of 
others that may not have time to, but that are incredibly 
important to our region.
    New Jersey's economy, the second largest part of our 
economy is tourism, $22 billion, 10% of all of our jobs. I am 
concerned about both the Departments, and I believe that some 
of the positions that you have taken as it relates to drilling 
off the Outer Continental Shelf--that is a critical question 
for us in New Jersey and several of the coastal States along 
the Northeast and the East--that is something I hope to pursue 
with you. It is a vital issue.
    Even in some of the most densely populated parts of the 
country, conservation is incredibly important. We have the 
highlands that have been preserved under Federal law. We look 
forward to the assistance to make sure that that is fully 
achieved. I spoke to you about the Great Falls of Patterson, 
the second largest waterfall that is East of the Mississippi, 
which is in pursuit of being listed under the National Park 
Service. Senator Salazar mentioned the Land and Water 
Conservation Fund for those of us in our State on the state-
side program. It is over $700 million in need, so we are also 
interested in the Land and Water Conservation Fund. We are very 
interested in the National Park Service's Management Policies 
and a shift away from what we perceive as conservation to 
usage, and real concerns about the significant cuts as it 
relates to maintenance that are critical to being able to 
fulfill the opportunity to achieve having Americans enjoy the 
National Parks.
    Last, I hope that you will help us liberate Lady Liberty. 
The reality is that, not withstanding a whole host of security 
measures that we have, we should not buckle into the fear of 
terrorism when we already have security measures, we should let 
Americans travel to the top of Lady Liberty and let us see that 
beacon of light that is seen throughout the world.
    Finally, the National Park Service has delayed over 2 years 
in putting forth a plan on Ellis Island, a gateway to millions 
of Americans in this country, that we could work with a private 
sector entities that are willing to help restore it before we 
lose all of that section of Ellis Island that is virtually 
crumbling. We cannot get the Park Service, after 2 years of 
saying that they will come up with a plan, to be able to move 
forward with that plan and to help a non-profit private sector 
help us achieve the restoration of Ellis Island. It is a 
tremendous historical monument to our country and its history. 
So, we are from the northeast and we do care who the Interior 
Secretary is, and we look forward to working with you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    We have a Senator that has arrived from the State of 
Florida. Mr. Senator, would you like to make a few comments?
    Senator Martinez. Yes, sir. I would love an opportunity.
    The Chairman. Please, do so.

         STATEMENT OF HON. MEL MARTINEZ, U.S. SENATOR 
                          FROM FLORIDA

    Senator Martinez. Thank you. Governor, great to see you 
here today. I very much look forward to your confirmation. I am 
someone who very much identifies with where you sit today, 
having been there not so very long ago myself. I have great 
respect for the President and the process by which he selects 
his cabinet. I know in the past he has exercised brilliant 
judgment and I presume he did that as well today. But I also 
want to tell you how excited I was by our meeting and very 
positive opportunity we had to talk about issues of importance 
to my State. I think you are going to make a great Secretary. I 
look forward to working with you on those issues that are so 
important to our State of Florida.
    Much as the Senator from New Jersey mentioned, Florida is 
very concerned about protecting our shoreline, making sure that 
our tourism industry continues to be vital and vibrant, that we 
do what we can for exploration and big bad area 181, where I 
know we will probably resolve those issues before too long. But 
the hope is that we can preserve a strong buffer around our 
State that will be secure from any exploration.
    Beyond that, of great concern, of course, is our 
Everglades, our huge national park, an area where I hope you 
can come and visit us sometime because I know it is vastly 
different from where you come from. I hope that we can take you 
on an airboat ride and introduce you to a few alligators and 
other native species. It is a real wonder and a great place. We 
are in the process of a very aggressive restoration program to 
bring it back to where it should have been. It is a great, 
important project not only to Floridians from a standpoint of 
what this park represents, but also in terms of water 
management. Very important issues as it relates to that.
    Also, is our concern about the sale of public lands. You 
know Florida is a fast-growing State. We value our Ocala 
National Forest. We want to make sure that all that is Ocala 
National Forest continues to be there for generations to come. 
The thought of any sales of public lands, frankly, does not 
meet with a lot of support in my State. We don't have the 
vastness of parklands that they do in the West. There are 
different issues in Florida. And while others may make 
different decisions about what is best for their State, I 
certainly believe quite strongly that we should not engage in 
that in the State of Florida.
    I look forward to working with you. I look forward to your 
swift confirmation. I know the Department needs your leadership 
and I know that on all of these issues that we discussed, you 
expresses a real willingness to stay in touch, to be 
communicating with us on them and to be a partner and a friend. 
So, I look forward to working with you. I commend you for your 
willingness to serve in this capacity. I know you will have a 
very exciting time and wish you the very best.
    The Chairman. Thank you very much, Senator. Now, I guess 
the time has come that we proceed. We have to now swear you in. 
The rules of the committee, which apply to all nominees, 
require that they be sworn in, in connection with their 
testimony. Would you please rise and raise your right hand. Do 
you solemnly swear that the testimony you are about to give to 
the Senate Committee on Energy and Natural Resources shall be 
the truth, the whole truth, and nothing but the truth?
    Mr. Kempthorne. I do.
    The Chairman. Please be seated. Before you begin your 
statement, I will ask you three questions that are addressed to 
any nominee before this committee. Please respond separately to 
each question. One, will you be available to appear before this 
committee, and other congressional committees, to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Mr. Kempthorne. I will.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such, should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Mr. Kempthorne. Mr. Chairman, my investments, my personal 
holdings, and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearance thereof, to my knowledge.
    The Chairman. Are you involved with, or do you have any 
assets held in, blind trusts?
    Mr. Kempthorne. No, sir, I do not.
    The Chairman. We will now move to the presentation of your 
statement and then we will proceed with questions. So, it is 
your opportunity now to take about 5 minutes and tell us why 
you want to be the Secretary.

       STATEMENT OF HON. DIRK KEMPTHORNE, NOMINEE TO BE 
                   SECRETARY OF THE INTERIOR

    Mr. Kempthorne. Mr. Chairman, thank you very much. To all 
members of this distinguished committee, thank you for the 
courtesy, for the welcome that you have expressed to me. 
Sitting here listening to the issues, having the opportunity as 
I did to visit each of you personally helps ground me in the 
enormous responsibility that comes with this assignment. I want 
to thank the President for this opportunity to serve and for 
the confidence that he has shown in me at this time.
    I am grateful to have served with many of you in the U.S. 
Senate. This is absolutely a wonderful institution. It is a 
tremendous honor to appear before you in your constitutional 
capacity of advise and consent. I respect that enormously.
    I am humbled to have represented the great citizens of 
Idaho as Mayor, U.S. Senator and as Governor. My people of 
Idaho are awesome, and I thank them for the faith, the trust, 
and the friendship, which they have provided to me and to my 
family over these many years.
    I appreciate the fact that my wife, Patricia, and our 
children, Heather and Jeff, are here. I thank you, Mr. 
Chairman, that I was able to introduce them. There is one other 
member of the family that is not here, that is Heather's 
husband, Drew. He is finishing up and has about one more week 
at Army boot camp.
    These loving members of the family have allowed me to 
pursue my passion of public service. When we think about the 
sacrifice of public service, I think often the sacrifice is by 
the members of your family, for those occasions that you are 
not there. All of you have experienced this as well.
    While Idaho will always be my home, I have a little sense 
of homecoming as I sit here before this committee. This hearing 
room is directly across the hall from what was my first Senate 
office. As I watched the public line up to attend hearings, I 
remember thinking that this committee seemed a lot more fun 
then some of my committee assignments.
    Sitting here today reminds me, Mr. Chairman, of when we did 
the Unfunded Mandates Reform Act. Bob Dole had designated the 
legislation as S. 1. He asked me to be the floor sponsor.
    Mr. Chairman, you were the Chair of the Budget Committee 
then, and I came to you and as a rookie Senator, and I asked if 
I should be the floor manager or if, in fact, you, as chairman, 
shouldn't be the floor manager. You said, let me think about it 
overnight. You came back the next day and you said to me, and I 
quote, ``You do it, and we'll see whether or not you are up to 
it.'' Eleven days and nights later, the Senate finally approved 
S. 1 on a bipartisan vote.
    One of the things that I pledged to the President is that, 
if confirmed, I would reach out to constituent groups, to seek 
bipartisan support, to find common ground, and to build 
consensus. That is my approach.
    You saw that when I fought for the Unfunded Mandates Reform 
Act. My number one co-sponsor was the Democrat from Ohio, John 
Glenn. You saw that on the Safe Drinking Water Act. The first 
Democrat Senator signed on as a co-sponsor was Bob Kerrey of 
Nebraska. That, significantly, was the first environmental bill 
that contained cost-benefit analysis.
    You saw that we worked in a bipartisan effort on the 
Endangered Species Act. We made great progress, and, if 
confirmed, I'll look forward to again being at the table 
discussing ways to improve the Act and to make it more 
meaningful in helping the very species that we are trying to 
save.
    In my visits with many of you, you have told me that 
Interior should restore habitat for fish and wildlife, improve 
economic development and education in Indian country, resolve 
long-standing water conflicts, and provide responsible energy 
development.
    In Idaho and in the Senate I have worked on the very issues 
that you have raised during our visits. I fought and won 
consensus solutions. And If I may, Mr. Chairman, I would like 
to list just a few examples.
    The Northwest once had so many salmon that it is legend 
that you could walk across the river on the backs of salmon and 
not get your feet wet. In recent decades, salmon have declined. 
When I became Governor, I saw that each of the four Northwest 
States were developing their own separate restoration 
strategies.
    Rather than four separate approaches, I asked my fellow 
Governors in Montana, Oregon, and in Washington if they would 
consider working together to explore policy consensus that 
would be acceptable to our states on salmon recovery. And 
that's exactly what we did. I sat down with my fellow Governors 
and in a collaborative effort we crossed State lines and 
political lines to come up with a regional consensus strategy 
for salmon restoration.
    If confirmed as Secretary, I want to help foster that same 
collaborative approach on issues that you care about, whether 
it is the silvery minnow in the Middle Rio Grande, the pallid 
sturgeon in the Missouri, or the endangered fish in the 
Klamath.
    Many of you have expressed interest in water rights and 
claims made concerning those water rights. That was true in our 
State with the claims of the Nez Perce Indian Tribe dating back 
to the 1800's. I was intent that we would find a solution. So 
with the great leadership of the Tribe, surface and groundwater 
users, agricultural interests, municipalities and the Interior 
Department, we began a dialog that was, in all honesty, at 
times acrimonious, tough, and on the verge of collapse. I 
thought then that the alternative--several more years of 
litigation--was no alternative at all.
    Our discussions transformed adversaries into allies. We 
crafted a solution that everyone could lay claim to, instead of 
a process that would determine winners and losers. Today, we 
have an historic agreement. I thank Senators Craig and Crapo 
and Representatives Otter and Simpson who brought it forward to 
the Senate and the House for approval.
    I commit to bringing the same energy and concern that I had 
for this settlement to other Indian and water rights issues. 
Necessity and practicality require that we adopt holistic 
approaches to water issues. Much of the Nation has endured the 
worst 5 years of drought in the past 500 years.
    When I came into the office as Governor, the Department of 
Health and Welfare had a Division called Environmental Quality. 
I created the Idaho Department of Environmental Quality and 
gave it full department status. I elevated environmental issues 
to their rightful place in my administration, and if ask anyone 
in the industry or the environmental community, I believe that 
they will tell you that it was the right decision and that we 
made it work.
    I do not believe in bigger government, but I do believe in 
better government. As Governor, I created a State Office of 
Species Conservation that was designed to provide Idaho a voice 
on species protection. The Office of Species Conservation 
elevated Idaho's concern over listed species to a new level. I 
am intent upon saving species. I am not content with triage, 
where you simple say that they are endangered and then you move 
on to list the next species. I will always ask, ``What are we 
doing to actually restore the species, instead of just listing 
them?''
    I am proud of the fact that one of the few species that has 
been removed from the endangered species list is the peregrine 
falcon. Yes, it is de-listed--in part because of the hard work 
of the Peregrine Fund, a private organization. Idaho is proud 
to be home to the Peregrine Fund and the World Center for Birds 
of Prey. Their accomplishments show that species recovery is 
possible when we work together.
    That gives some idea of what I believe in, Mr. Chairman, my 
style, the kinds of accomplishments that result from 
collaboration.
    If I may, I would like to just mention tribal relations, 
because it has been raised here today. Because maintaining good 
relations with Indian country will be important to me if 
confirmed as Secretary. I am honored that Chief Allan, the 
chairman of the Coeur d'Alene Tribe, is here with us today. He 
knows my respect for the government-to-government relationships 
and the sovereignty of tribes.
    As Senator and Governor, I recognize that tribes should be 
partners in discussions on that matter. There can be no more 
important issue than educating Indian children. The Secretary 
of the Interior, working with tribes, is responsible for 48,000 
Indian school children, and I take that responsibility very 
seriously.
    If confirmed, I look forward to the opportunity to continue 
the emphasis on educating children, as I did as Governor. I 
commend you and I commend the President for investing $1.6 
billion in Indian school construction over the past 5 years 
that has funded 37 new schools and 45 major repair projects.
    I want to raise the level of awareness, as we diligently 
work to heighten the expectations of parents, and inspire hopes 
and affirm dreams of children in Indian country so that they 
can achieve anything that they put their minds to.
    Another great responsibility of the Department of the 
Interior is its management of public lands and waters that 
produce 30% of the Nation's domestic energy. All of America is 
experiencing pain at the pump with high gas prices. This is an 
issue of economic security as well as national security. I 
pledge to work with you and stakeholders on responsible energy 
development.
    I appreciate your work on the Energy Policy Act of 2005, 
which identified significant initiatives for the Department of 
the Interior, initiatives that would pertain to traditional 
energy sources as well as new sources. I am committed to 
implementing these initiatives and keeping you informed of our 
progress. It is noteworthy, the importance that the President 
and Congress have placed in developing alternative energy 
sources. I am also mindful of the great potential that 
alternative energy sources can play in providing for our 
citizens and furthering environmental protection.
    Also, because of the new world that we have entered, the 
Department will be mindful of is obligations to homeland 
security and its responsibilities to protect our national icons 
and access to those icons and to our waterways.
    Finally, let me affirm my love of the outdoors. Idaho is 
home to spectacular scenery, and we welcome hunters, anglers 
and all outdoor enthusiasts who want to enjoy its natural 
beauty.
    When the President announced his intention to nominate me 
as Secretary of the Interior, he referenced that Patricia and I 
were married in northern Idaho on Moscow Mountain at sunrise. 
There is no more beautiful cathedral than the outdoors. And our 
entire Nation is blessed with countless natural cathedrals, and 
we should be mindful of those great treasures.
    This year, I asked the Idaho legislature to make a once in 
a generation investment in our State parks. Just a few weeks 
ago, I was proud to sign the largest appropriation ever for our 
State parks system. If confirmed as Secretary, the Department 
of the Interior's emphasis will continue its responsibility for 
parks and recreation, which certainly includes wildlife refuges 
and access for citizens to enjoy parks and refuges.
    Mr. Chairman, and members of the Committee, I humbly, and I 
respectfully, ask for your support. All I can pledge is that, 
if confirmed, I will do my best.
    This Nation, its people and natural beauty are well worth 
all of our collective efforts to preserve and protect.
    I look forward to your questions, Mr. Chairman. I also look 
forward to your comments. And I know that I will be more 
grounded, based upon the comments which you make today. May I 
also thank Senators Craig and Senator Crapo for their courtesy 
and their friendship for so many, many years. Thank you very 
much.
    [The prepared statement of Mr. Kempthorne follows:]

Prepared Statement of Governor Dirk Kempthorne, Nominee to be Secretary 
                            of the Interior

    Mr. Chairman and distinguished Members of the Committee, it is an 
honor to come before you today as you consider my record and 
qualifications to become the 49th Secretary of the Interior. I thank 
the President for this opportunity to serve and for the confidence he 
has shown in me as his nominee.
    I am grateful to have served with many of you and to have been one 
of your colleagues. This is absolutely a wonderful institution and it 
is a tremendous honor to appear before you in your Constitutional 
capacity for advice and consent.
    I am humbled to have represented the great citizens of Idaho as 
Mayor, U.S. Senator and Governor. Their support is deeply gratifying 
and I thank them.
    I appreciate the fact that my wife, Patricia, and our children, 
Heather and Jeff, are with me today. They have been by my side 
throughout my public service, and continue to be a source of great 
encouragement. One other individual who would have been here is 
Heather's husband, Drew, who is finishing up this week at Army boot-
camp.
    They have allowed me to pursue my passion of helping people, 
finding solutions to problems, and making our communities and our state 
a better place to live, to work and to raise a family. I thank my 
family for that love and support.
    While Idaho will always be my home, I have a sense of homecoming 
being here with you today. This hearing room is directly across the 
hall from my first Senate office. As I watched the public line up to 
attend hearings, I remember thinking that this committee seemed a lot 
more fun than some of my committee assignments.
    Sitting here today reminds me, Mr. Chairman, of when we did the 
Unfunded Mandates Reform Bill. Bob Dole had designated that legislation 
as Senate Bill 1, and I was asked to be the floor manager.
    Mr. Chairman, you were the Chair of the Budget Committee then, and 
I came to you and, as a rookie Senator, asked if I should do this or 
whether it would be better for you to be the floor manager. I remember 
you said, ``I'll think about it overnight.'' And then, the next morning 
you came back to me and said, quote, ``You do it, and we'll see whether 
or not you are up to it.'' Eleven days and nights later, the Senate 
finally approved Senate Bill 1 on a bipartisan vote.
    One of the things that I pledged to the President is that, if 
confirmed, I would reach out to constituent groups, to seek bipartisan 
support, to find common ground, and to build consensus.
    Mr. Chairman, throughout my public service, I have worked to reach 
out to both sides of the aisle, to different interests and to different 
viewpoints. The twelve Senators on this committee who served with me 
saw my consensus approach.
    You saw that John Glenn, a Democrat from Ohio, was my partner on 
the Unfunded Mandates Bill. You saw that on the Safe Drinking Water 
Act, the first Senator to sign on as a co-sponsor was Bob Kerrey of 
Nebraska. That, significantly, was the first environmental bill that 
contained cost-benefit analysis.
    You saw that we worked in a bipartisan effort on the Endangered 
Species Act. We made great progress, and, if confirmed, I'll look 
forward to again being at the table discussing ways to improve the Act 
and make it more meaningful in helping the very species that we are 
trying to save.
    In my visits with many of you, you have told me that Interior 
should restore habitat for fish and wildlife, improve economic 
development and education in Indian country, resolve longstanding water 
conflicts, and provide responsible energy development.
    If confirmed, I will be the first Mayor, United States Senator and 
Governor to become the Secretary of the Interior. In Idaho and in the 
Senate, I have worked on the very issues you raised during our visits. 
I have sought and won consensus solutions. Here are a few examples:
    The Northwest once had so many salmon, it is legend that you could 
walk across the river on the backs of salmon and not get your feet wet. 
In recent decades, salmon have declined. When I became Governor, I saw 
that each of the four northwest states were developing their own 
separate restoration strategies.
    Rather than four separate approaches, I asked my fellow Governors 
in Montana, Oregon and Washington if they would consider working 
together to explore policy consensus that would be acceptable to our 
states on salmon recovery. And that's exactly what we did. I sat down 
with my fellow Governors and in a collaborative effort, we crossed 
state lines and political lines to come up with a regional, consensus 
strategy to salmon restoration.
    If confirmed as Secretary, I want to help foster that same 
collaborative approach on issues you care about--whether it is the 
silvery minnow in the Middle Rio Grande, the pallid sturgeon in the 
Missouri or the endangered fish in Klamath.
    Many of you have expressed interest in water rights and claims made 
concerning those water rights. That was true in our state with the 
claims of the Nez Perce Indian Tribe dating back to the 1800's. I was 
intent that we would find a solution. So with the great leadership of 
the Tribe, surface and ground water users, agricultural interests and 
municipalities and the Interior Department, we began a dialogue that 
was--in all honesty--at times acrimonious, tough, and on the verge of 
collapse. I thought then that the alternative--several more years of 
litigation--was no alternative at all.
    Our discussions transformed adversaries into allies. We crafted a 
solution that everyone could lay claim to--instead of a process that 
would determine ``winners and losers.'' Today, we have an historic 
agreement. I thank Senators Craig and Crapo and Representatives Otter 
and Simpson who brought it forward to the Senate and the House for 
approval.
    I commit to bringing the same energy and concern that I had for 
this settlement to other Indian and water rights issues. Necessity and 
practicality require that we adopt holistic approaches to water issues. 
Much of the nation has endured the worst five years of drought in the 
past five hundred years.
    When I came into office as Governor, the Department of Health and 
Welfare had a division called environmental quality. I created the 
Idaho Department of Environmental Quality and gave it full department 
status. I elevated environmental issues to their rightful place in my 
administration, and if you ask industry or the environmental community, 
they will tell you it was the right decision and we made it work.
    I do not believe in bigger government, but I believe in better 
government.
    As Governor, I created a state Office of Species Conservation that 
was designed to provide Idaho a voice on species protection. The Office 
of Species Conservation elevated Idaho's concern over listed species to 
a new level. I am intent upon saving species. I am not content with 
this ``triage,'' where you simply say they're endangered and then move 
on to list the next species. I will always ask, ``What are we doing to 
actually restore the species instead of just listing them?"
    I am proud of the fact that one of the few species that has been 
removed from the Endangered Species list is the Peregrine Falcon. Yes, 
delisted--in part because of the hard work of the Peregrine Fund, a 
private organization. Idaho is proud to be home to the Peregrine Fund 
and the World Center for Birds of Prey. Their accomplishments show that 
species recovery is possible when we work together.
    That gives some idea of what I believe in, my style, and the kinds 
of accomplishments that result from collaboration.
    Let me talk about tribal relations, because maintaining good 
relations with Indian country will be important to me if confirmed as 
Secretary. I am honored that Chief Allan, Chairman of the Coeur d'Alene 
Tribe, is here with us today. He knows my respect for the government-
to-government relationships and the sovereignty of Tribes.
    As Senator and Governor, I recognized that Tribes should be 
partners in discussions that matter. There can be no more important 
issue than educating Indian children. The Secretary of Interior, 
working with Tribes, is responsible for 48,000 Indian school children 
and I take that responsibility seriously.
    If confirmed, I look forward to the opportunity to continue the 
emphasis on educating children as I did as Governor. I commend you and 
commend the President for investing $1.6 billion in Indian school 
construction over the past five years that has funded 37 new schools 
and 45 major repair projects.
    I want to raise the level of awareness as we diligently work to 
heighten the expectations of parents, and inspire hopes and affirm 
dreams of children in Indian country so that they can achieve anything 
they put their minds to. We must work so they have the skills and the 
education they need to accomplish that.
    Another great responsibility of the Department of the Interior is 
its management of public lands and waters that produce 30 percent of 
the nation's domestic energy. All of America is experiencing pain at 
the pump with high gas prices. This is an issue of economic security as 
well as national security. I pledge to work with you and stakeholders 
on responsible energy development.
    I appreciate your work on the Energy Policy Act of 2005 which 
identified significant initiatives for the Department of the Interior--
initiatives which pertain to traditional energy sources as well as new 
sources. I am committed to implementing these initiatives and keeping 
you informed of our progress. It is noteworthy of the importance that 
the President and Congress have placed in developing alternative energy 
sources. I am mindful of the great potential that alternative energy 
sources can play in providing for our citizens and furthering 
environmental protection.
    Also, because of the new world we've entered, the Department will 
be mindful of its obligations to homeland security and its 
responsibilities to protect our national icons and our waterways.
    Finally, let me affirm my love of the outdoors. Idaho is home to 
spectacular scenery, and we welcome hunters, anglers and all outdoor 
enthusiasts who want to enjoy her natural beauty.
    When the President announced his intention to nominate me as 
Secretary of the Interior, he referenced that Patricia and I were 
married in northern Idaho on Moscow Mountain--at sunrise. There is no 
more beautiful cathedral than the outdoors. And our entire nation is 
blessed with countless natural cathedrals, and we should be mindful of 
those great treasures.
    This year, I asked the Idaho legislature to make a once-in-a-
generation investment in our state parks. Just a few weeks ago, I was 
proud to sign the largest appropriation ever for our state parks 
system. If confirmed as Secretary, the Department of the Interior's 
emphasis will continue its responsibility for parks and recreation--
which certainly includes wildlife refuges and access for citizens to 
enjoy parks and refuges.
    Mr. Chairman, and members of the Committee, I humbly, and 
respectfully, ask for your support. All I can pledge is that, if 
confirmed, I will do the best I can, and I will be honored in making 
that effort.
    This nation, its people and natural beauty are well worth all of 
our collective efforts to preserve and protect.
    I look forward to your questions. Having participated in many 
Senate hearings, it will be a different experience answering questions 
rather than asking them. I also look forward to your comments and know 
that I will come away from this hearing better grounded on the issues 
facing the Department of the Interior.

    The Chairman. Thank you for a very eloquent opening 
statement.
    Senators, let me try to bring you current. We have been 
told that the voting would start about 11:15. I don't know 
whether it will or will not, but is it fair to assume that 
Senators do want--whatever the voting schedule on the floor, do 
you want us to remain open for long enough here for any of you 
who want to ask questions, even if that goes into the noon 
hour? Is that a fair assumption? That is kind of what I had 
planned to do.
    So, I am going to start now. If Senator Bingaman is ready, 
I will let him open with a few questions and then I will take 
some and we will move right out from that and see what we can 
get done before we go vote. If the vote starts--any of you who 
are down the line some, you might just go vote. That would, I 
think, help matters. Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman, and 
thank you for your excellent statements, Governor.
    One point that I wanted to raise, initially, is I think the 
issue was raised that the Assistant Secretary for Indian 
Affairs is a position that is currently vacant. You indicated a 
desire to get that position filled. In fact, as I read the 
organizational chart of the Department of the Interior, nearly 
half of the senior policy positions are vacant or have acting 
people in those positions. The President nominates people for 
those positions. I hope you have an agreement that you will 
have a substantial say in who is nominated.
    I also hope that you are keenly aware--and I am sure you 
are--of the need to get people in those positions whose 
commitment to the public interest is above reproach. There has 
been, as you undoubtedly know, in the last few years, questions 
on some of the nominees that have been made in the Department, 
about their ties to particular special interests and how that 
might affect their ability to carry out their public 
responsibilities. I hope that we don't have any of that. I am 
sure you are very sensitive to that and I know you will be able 
to deal with that in the future.
    Let me ask about something Senator Wyden raised, this 
proposal to sell off public lands in order to fund annual 
operating expenses of the Government. That is a troublesome 
concept to me, as well. I think that as a matter of just 
general policy, selling your permanent assets in order to fund 
your annual operation is not a good way to stay in business. I 
hope that that is something you will be able to resist. I don't 
know if you are in a position to give us a statement today as 
to your views on that general kind of proposal, but I would be 
anxious to hear it if you are.
    Mr. Kempthorne. Senator Bingaman, thank you very much. Let 
me affirm that I believe that there are situations where the 
sale of public land is appropriate: if you have enclaves, if 
you could assemble land that is not efficiently being able to 
be managed because it is so widely dispersed. So, I believe 
that we want to retain that option. Specific, though, to your 
question, on the sale of public land for deficit reduction or 
for operating expenses, I do not favor that. That would be the 
position that I would take to those opportunities, if 
confirmed, to represent that view.
    Senator Bingaman. Well, thank you. I appreciate that clear 
statement. And I certainly agree with that position.
    Congressman Hunter, in the House, has proposed turning 
Santa Rosa Island, one of the islands in the Channel Islands 
National Park, into a hunting preserve for military personnel 
and disabled veterans. I am concerned, because it is my view 
that our national parks need to be available to the entire 
public. That is the idea they were established for. I think 
trying to set up special reserves for the exclusive use of one 
group or another group is a very bad precedent for us to get 
started on. I don't know if you have looked into this issue. If 
you have an opinion on that, I would be anxious to hear it.
    Mr. Kempthorne. Senator Bingaman, I am sorry, that is the 
first time I have heard that. I would say that I commend 
Congressman Hunter for thinking about our veterans and our 
disabled veterans. One of the things that I have always tried 
to do when I come back to Washington, DC, is to make a visit to 
Walter Reed Hospital or to Bethesda. I think, again, that the 
support of our veterans is critically important. This specific 
issue, no, sir, I have not looked at. Again, I appreciate his 
thinking about the veterans. Whether this is the right way to 
do it, I can't comment at this time.
    Senator Bingaman. Well, that is fair. I also appreciate his 
concern for veterans, but as I said, I think the idea that we 
are going to take parts of the National Park System and in 
cordoning them off for the exclusive use of any group is a bad 
precedent. I hope we can avoid that, and I hope, after you look 
into it, you'll agree with that position.
    Under current law, electric transmission lines cannot be 
sited through our national parks unless--and the statute says, 
``Directly and specifically provided by Congress.'' The Energy 
Policy Act directed agencies to designate energy corridors 
under previously existing authorities and gave the President 
the power to overrule agency decisions, denying permits for 
projects within those corridors. It did not give the Secretary 
of Energy or the Interior or the President or anyone else the 
power to site electric transmission lines in national parks 
without specific congressional authority.
    In fact, it specifically stated that in the energy bill 
last year, that the President's siting authority did not extend 
to national parks. In spite of that--what seems to me to be 
very clear language--there seems to be a misapprehension in the 
Department that somewhere in the Energy Act there was general 
authority provided that will allow establishment of power lines 
in national parks without Congress having approved it. I don't 
know if this is an issue that you have looked into; if not, 
obviously, I would not expect an answer, but it is one that I 
hope you will look into. And if you have a disagreement with 
the interpretation of last year's energy bill that I have just 
described, I hope you will let us know.
    Mr. Kempthorne. Senator Bingaman, thank you very much. I 
cannot comment. I have not looked into that detail which you 
have identified.
    If I may, can I comment on a previous point that you 
raised, though?
    Senator Bingaman. Certainly.
    Mr. Kempthorne. That was with regard to senior-level 
leadership in the Department of the Interior. I know that that 
is important to the President. I know that he does take an 
active, hands-on approach with regard to the appointment of 
those and has indicated that he wishes to have my active 
comments with regard to those personnel. We are going to make 
it a priority, so that we can bring those people on. You talked 
about the conduct of those that ultimately could be confirmed. 
I will tell you that the day that I was announced, one of the 
first meetings I had was with the ethics officers of the 
Department of the Interior. And that is the style that we will 
continue with the Department of the Interior.
    Senator Bingaman. Well, let me just say I am confident that 
that is the case. I plan to support your nomination and I look 
forward to working with you.
    Mr. Kempthorne. Thank you very much.
    The Chairman. Thank you, Senator Bingaman.
    We are going to proceed. Senator Thomas.
    Senator Thomas. Thank you very much, Governor. You 
mentioned endangered species and changes, and we are seeking to 
make some changes here. It seems as if, administratively, 
within the regulatory part, it just drags on and on--wolves and 
grizzly bears. Do you have any idea or do you think that this 
process, as it stands now, could be streamlined somewhat?
    Mr. Kempthorne. Senator Thomas, my approach is yes. If you 
have a process that is cumbersome, is bogged down, I would 
certainly hope that pragmatism can be part of this. So, again, 
if confirmed, I would welcome the opportunity to look at both 
the regulation side, but also what perhaps could be done 
legislatively.
    Senator Thomas. Sure. Well, we are working on that. One of 
the issues, of course, that I think confronts us is we are all 
very pleased and proud of our Park Service, but we seem to be--
we have now 390 park sites. There are increasing numbers of 
various kinds of park sites and so on. We have a backlog that 
seems to be difficult. How do you see the future in terms of 
backlog and expansion of the parks activities?
    Mr. Kempthorne. Senator Thomas, I believe that we should 
acknowledge that the President made dealing with the 
maintenance of our parks a priority, some $4.8 billion over 5 
years. I believe some 6,000 projects at the different 
individual national parks have taken place. Some are fully 
completed, others yet to be done. Significantly, that inventory 
has now been committed to information technology so that it is 
identified, what progress has been made, significantly what has 
yet to be done. Again my enthusiasm for parks--when I talk 
about enthusiasm for parks, I think I should acknowledge, too, 
one of our great advocates is the First Lady, Laura Bush, who 
believes in the national parks. So, again this is something 
that we will continue, the energy of looking at how we can 
improve our parks and encourage people to enjoy their national 
parks and access them.
    Senator Thomas. That is great. I think we need to take a 
little look at the definition of what is the responsibility of 
the National Park Service, as opposed to local and State 
activities, as well. One of those interests is the National 
Mall. Each year there is requests for more and more. We passed 
a moratorium on future constructions. Do you have any feeling 
about how we might maintain this sovereignty of that Mall?
    Mr. Kempthorne. Senator, on the specifics of that, I must 
say I have not had a briefing as to expansion or what may even 
be being considered, but I would be very happy to work with you 
and seek your input on that as well.
    Senator Thomas. One of the core issues that is even more in 
front of us now is this energy issue and much of the production 
in the West is on public lands and particularly the BLM. And I 
certainly expect us to go through the routines that are 
necessary, but it does seem like we need to find ways to, a 
little more quickly, do the required procedure. The application 
process goes on and on and on. Would you think there is a way 
we can work together to speed that up and get the right 
results, but not take quite so long to do it?
    Mr. Kempthorne. Senator Thomas, one of the things that we 
were able to accomplish when we developed the Department of 
Environmental Quality in Idaho was to take a number of permits 
that had been outstanding and to move them toward completion. I 
believe that--and again, I cannot speak to the particulars of 
how these applications are being dealt with in the Department 
of the Interior today, but I would be happy to look at that 
with the attitude that we should move as expeditiously as is 
appropriate. It is both for the approval but also for the 
denial, not judging what the outcome would be.
    Senator Thomas. I appreciate that. Of course the production 
on the public lands and the royalties have increased greatly 
the income, so I think we need to also recognize that it 
requires more personnel from time to time in that job in BLM 
and so on. So, we look forward to working with you and I 
certainly support your affirmation and will be working on it. 
Thank you, sir.
    Mr. Kempthorne. Thank you, Senator, very much.
    The Chairman. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Governor 
Kempthorne, I want to tell you that you have my support.
    Mr. Kempthorne. Thank you, sir.
    Senator Akaka. We look forward to working with you. I 
wanted to let you know that I introduced legislation which 
would extend the Federal policy of self-governments and self-
determination to Native Hawaiians and to recognize Native 
Hawaiians as indigenous peoples of the United States.
    I worked very, very closely with Secretary Norton to 
address any concerns that the Department had on this measure. 
As a result, we have amended the bill to address concerns she 
has raised on behalf of the Department. I understand that you 
likely have not yet had a chance to review this legislation. I 
hope to work closely with you, because the bill gives the 
Secretary of the Interior the authority to review certain 
aspects of the process involving the reorganization of the 
Native Hawaiian governing entity.
    As you may recall, Congress enacted Public Law 103-150, the 
Apology Resolution, in 1993. The resolution apologized, on 
behalf of the United States, to Hawaii's indigenous peoples, 
the Native Hawaiians, for the role of the U.S. officials and 
overthrow of the kingdom of Hawaii and committed to a process 
of reconciliation between the United States and Native 
Hawaiians.
    The Department of the Interior played a significant role in 
the reconciliation process in 1999. Secretary Babbitt appointed 
the Assistant Secretary of Policy, Management and Budget to be 
the DOI representative in this reconciliation process. And in 
the year 2000, a report was issued by DOI and DOJ with 
recommendations resulting from consultations with the Native 
Hawaiians. I hope to work with you and the Department to carry 
on the reconciliation process between Native Hawaiians and the 
United States.
    And as you know, we have been successful in creating an 
Office of Native Hawaiian Relations in the Department of the 
Interior to serve as a liaison between Native Hawaiian and the 
United States. While the office is in its infancy, there is 
great potential for the benefit this office can provide to both 
the Department and to the people of Hawaii.
    I hope that we can work together to ensure that this office 
is appropriately staffed so that it can accomplish its mission 
of benefiting both the Department and the people of Hawaii. I 
want you to know that we have the support of most of the 
Hawaiians. The Governor of Hawaii, presently; the legislature, 
who did two resolutions supporting it; the National Association 
of American Indians; the Alaska Natives; and the American Bar 
Association have supported us on this.
    Governor, I look forward to working with you on this and 
ask for your commitment to work with me, should you have any 
questions or any concerns about this bill.
    Mr. Kempthorne. Senator Akaka, may I just say that you have 
my commitment to always work with you. You are a true 
gentleman. Those great occasions that we have had together, you 
have allowed me to have a greater vision of the rich cultural 
heritage and the history of the Native Hawaiians. You are one 
of their great Ambassadors. So, again, it would be a great 
pleasure to work with you on these issues.
    Senator Akaka. Thank you very much, Mr. Chairman. I have 
another question that I will submit.
    The Chairman. You will submit another question? That is 
very good. Thank you.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. Again, Governor, 
welcome. I think you are aware of the Bonner Bridge issue that 
you and I have talked about in the past. I will stay focused on 
that, if I can. The Bonner Bridge was built in 1963 and 
designed to have a 30-year lifespan. It spans the Oregon inlet 
of the Outer Banks from just south of Nags Head to Pea Island 
and then Highway 12. It continues all the way down to where it 
takes a ferry to get to Ocracoke Island. That bridge was slated 
to be replaced 10 years ago, because of the determination by 
U.S. Fish and Wildlife. And that determination has been 
torturous, if not impossible, relative to their interpretation 
of what North Carolina has to go through. North Carolina 
recognizes the fact that over 2 million cars a year cross this 
bridge. Today, we have a safety problem. We have a bridge that 
is rated 4 on a 100-point scale. Anywhere else in the country a 
4 would be taken out of service. You would find a way to 
reroute. We don't have a way to reroute.
    The Chairman. That is a big problem.
    Senator Burr. What reforms do you believe need to take 
place so that vital infrastructure can be replaced, like this 
bridge, and that improvements are not delayed, if, in fact, we 
are talking about human life?
    Mr. Kempthorne. Senator Burr, first of all, may I 
acknowledge and commend you for your efforts on emergency 
preparedness. I know that that is near and dear to your heart. 
You are taking a great leadership role in that. As a Governor, 
that is something that I make one of the highest priorities, 
emergency preparedness.
    What reforms? I don't feel that I am in a position today to 
itemize what I think reform should be, except to say that I 
believe that we need to take the data that is available. What 
are the facts? Facts, such as you have just stated. What are 
the implications? What are the projections? When we do have the 
hurricane season and, in fact, you may have to evacuate an 
area, what does that mean? I think part of what I would want to 
do is take a look at the lessons learned and then determine 
from that, can we now take proactive actions, so that we are 
not sitting here and wondering why we did not do it sooner.
    Senator Burr. Governor, do you think--can a bridge be 
replaced without a negative impact on the environment?
    Mr. Kempthorne. You would like to think so.
    Senator Burr. I think the American people would like to 
think so. But it can be done?
    Mr. Kempthorne. Yes.
    Senator Burr. I think the interpretation is it can't. I am 
hopeful that your leadership will be, ``Oh, we can.'' It is 
just a question of coming up with something that both sides can 
agree on--meet that end goal.
    U.S. Fish and Wildlife has proposed a 17-mile bridge, as I 
said earlier, the second longest in the United States. You are 
familiar with the North Carolina coast and the uniqueness of 
the Outer Banks, but you are also, as Governor, aware of the 
frequency that we have Mother Nature visit us starting next 
month. I can't imagine what it is like to go through a category 
5, but we have had our share of 3's and below and multiple 
visits each year. As one who does focus on emergency 
preparedness, I can't envision a scenario where I could 
confidently agree to a 17-mile evacuation bridge in an area 
that is as vulnerable as North Carolina or Louisiana, or for 
that fact any of the other coastal areas. Does it pain you at 
all that the Federal Government would propose this as the only 
option?
    Mr. Kempthorne. Senator, again, I need to be further 
backgrounded. This may be something that lends itself that 
perhaps a future visit to North Carolina would be helpful.
    Senator Burr. I look forward--the invitation is extended. I 
look forward to having you there. Let me ask you this: Should 
Federal lands be accessible and available to the public in this 
country?
    Mr. Kempthorne. Yes.
    Senator Burr. All Federal lands?
    Mr. Kempthorne. I would want to have a little more--you 
would think so. I mean, it is the land that belongs to the 
people.
    Senator Burr. That is certainly their assessment of what 
their tax dollars go for. We attracted, as I said earlier, 
about a half a million individuals to Pea Island, a beautiful 
national wildlife refugee. The difficulty that we are presented 
is that if you remove the access to Pea Island and you limit it 
to only those Americans that can afford their own boat or that 
can afford the substitute, which would be some type of private 
vendors' access, excursion to Pea Island. In fact, you have 
cheated some segment of the American people from enjoying that 
beauty, with over 2 million visitors a year to our coast. This 
is an attraction but it is also a highlight of what the Federal 
Government can do and can protect.
    I would encourage you today to stay engaged with me on this 
issue, be a partner in trying to find a resolution. I don't 
think the State of North Carolina has been unwilling to 
entertain additional ideas, but when you are given a choice 
between this or nothing, it sets up a very difficult 
relationship between North Carolina and the Federal Government. 
As I said, we take very seriously our appointment--your 
nomination, because 10% of our State is in your hands. Help us 
resolve this little piece. I am confident that your leadership 
can achieve some type of conclusion on this.
    Thank you, Mr. Chairman.
    Mr. Kempthorne. Senator, thank you.
    The Chairman. Thank you, Senator Burr. Thank you for your 
observations, Mr. Secretary. Now we are going to proceed. We 
are still on the first light, so we have time.
    Senator Wyden, do you have your questions?
    Senator Wyden. Thank you for your courtesy, Mr. Chairman.
    Governor, Jack Abramoff used the Interior Department to 
perpetrate one of the biggest scandals in recent history. While 
Mr. Abramoff had the run of Interior the number two man at the 
agency was Steven Griles. The Inspector General has described 
Mr. Griles's service at Interior as an ``ethical quagmire.'' 
The Inspector General goes on to say that the agency's ethics 
program--and I quote here--``is a wholesale failure.'' So, I 
would like to hear what you plan to do to prevent future ``Jack 
Abramoffs'' from ripping off the Interior Department, and 
specifically, will you support tightening the conflict of 
interest rules at the agency so that an appointee with an 
overly close connection to a regulated party on an issue more 
clearly removes or recuses themselves from consideration of 
that particular matter?
    The reason I ask that is Mr. Griles's kept signing recusal 
agreements and then just kept meeting with all of these 
clients. So, the question is, will you support tightening the 
conflict of interest rules at the agency so that recusals are 
more clearly stated? And frankly, I would like to have the 
agency publicly release notice of a recusal. Will you support 
those two steps?
    Mr. Kempthorne. Senator Wyden, let me say that, first of 
all, it is apparent that a crime was committed. Someone is now 
serving time because of that. So there were laws that were 
there that were broken. As I indicated to Senator Bingaman, one 
of the first briefings that I received was with the ethics 
office. Also, I have met with the Inspector General of the 
Department of the Interior. It would be my intention to utilize 
the Inspector General as a key member of the management team of 
the Department. I also would like to say that from my 
experience and the individuals that I have met, there are 
outstanding individuals at the Department of the Interior. I 
cannot specifically address what I would support or not support 
because I do not yet know what all of those are. I will tell 
you, though, if confirmed, the first day that I am Secretary of 
the Interior I will also be sitting down with the Office of 
Ethics and will also discuss the topic of ethics with the 
employees of the Department of the Interior.
    Senator Wyden. I will just tell you that meeting with the 
Inspector General and implementing the Inspector General's 
recommendations are going to be essential. The Inspector 
General says your ethics program--and I quote here--``is a 
wholesale failure.'' He talks about the prospect of future 
train wrecks. It is going to be important for you to go in 
there and drain the swamp. I would like to have you get back to 
me, say within your first 90 days, in writing, as to whether or 
not you will put in place the recommendations of the Inspector 
General on ethics. Would you do that within the first 90 days?
    Mr. Kempthorne. Senator, if you would agree with me, I will 
be happy to get back to you within 90 days. I can't tell you 
that it will be a letter that says I will do this or that until 
I know more.
    Senator Wyden. Fine. Mr. Chairman, do I have time for one 
additional question?
    The Chairman. He won't get back to you, he will get back to 
the committee.
    Senator Wyden. Absolutely. I appreciate your clarifying 
that.
    The additional question I wanted to ask involves royalty 
relief for energy producers. Now, Governor, Gail Norton used 
her authority to offer sweeteners to the oil and gas drillers 
under the Department's royalty program. She began that in 2001 
by offering royalty relief incentives to shallow water 
producers who drilled more than 15,000 feet below the sea 
bottom. In 2004, she offered additional incentives when she 
raised the threshold prices. Now, what that meant, according to 
news reports, is that some of these drillers are going to be 
able to escape royalties in 2005 when the prices spiked to 
record levels, and according to news reports, these producers 
would escape royalties again this year. My first question to 
you on this point is if you are confirmed as Secretary, would 
you commit to not offering additional sweeteners to these 
producers the way your predecessor, Ms. Norton, did at a time 
of these record prices?
    Mr. Kempthorne. Senator Wyden, let me just affirm I have 
the greatest respect for Secretary Norton. I think she has 
served this Nation so well for 5 years. On this issue of the 
royalty relief, I would say to you that I believe that any 
leases that go forward need to have the price threshold, so 
that if in fact those prices go up, then there should not be 
the royalty relief. As you know, there had been--and I will 
call it unfortunate--errors that were made in the past during a 
previous administration, but that procedure has been corrected 
and that procedure remains in effect in the Department of the 
Interior. I think what is important is that we want to find an 
approach on this so that we can find additional sources of 
energy, so that we are not so dependant on foreign sources of 
energy, and included in that equation I want to put alternative 
energy as well.
    Senator Wyden. But, Governor, you won't do what Secretary 
Norton did, which is to offer these additional sweeteners at a 
time of record prices. I described to you specifically how at a 
time when prices were going through the roof she sweetened this 
program twice, in 2001 and 2004. I think what you have told me 
is that you won't do that and if that is the case I think that 
is constructive. I want to make sure we are clear on that.
    Mr. Kempthorne. Senator, again, I believe that--I will let 
my statement stand. I don't have a permit to dig today.
    Senator Wyden. I understand. Mr. Chairman, thank you for 
your courtesy. I am going to come back with additional 
questions.
    The Chairman. Let me close. And we will indicate how we are 
going to open, but let me comment on your last statement, so we 
will know where we are. Senator, I am not aware that the 
statement, which you have now repeated today and yesterday 
about what Gail Norton did or did not do in the year 2001 and 
again in 2004. I am not aware of exactly what that is, what 
prompted it, under what power of authority it was done and we 
want to get that before us rather than talk about it, because 
it was just as if it were true, the only truth we have is it 
was reported some place, and you are gathering from that 
reporting what has occurred. We have to get that done and 
somehow this committee is going to have to find out and give to 
you and to us just what this so-called--you called it 
something; what did you call it?
    Senator Wyden. Mr. Chairman, again, with the utmost respect 
for you, because you have always been very fair with me, as you 
know, in the energy conference between the House and the 
Senate, it was sweetened even again at a time of record 
prices--not under something you led, but something that was led 
from the other body by Mr. Barton.
    The Chairman. But that is not illegal.
    Senator Wyden. Of course, of course not.
    The Chairman. So the point is, we have to get it before us 
and make a decision on what we as a committee think about it, 
not just because you think it is something we shouldn't be 
doing. It has been done and perhaps is legal and may have some 
validity that you don't like but may otherwise be valid. So we 
are going to get back to that. I appreciate your not answering 
the question, because indeed you have no way of knowing what 
the situation was. We are going to get the committee to dig 
that up.
    Mr. Kempthorne. Thank you, Mr. Chairman.
    The Chairman. We are going to stand in recess, because 
there are going to be two votes. We will return within 10 
minutes after the second vote and stay here for another hour or 
so and finish the questions, so you will have to remain here.
    Mr. Kempthorne. Thank you, Mr. Chairman.
    The Chairman. We are in recess.
    [Recess.]
    The Chairman. Please come to order. I think we are going to 
announce now that we are not going to be here indefinitely. We 
are open now, so the Senators should get started thinking about 
coming up here. I would think something like 1 o'clock might be 
a reasonable time to get this concluded. With that, I am going 
to yield to Senator Larry Craig, if he would like to start 
questions at this point. Are you ready, Senator Craig?
    Senator Craig. I am, thank you. Well, Governor, thank you 
very much again for accepting the nomination that the President 
has offered. We are proud of it and pleased that you would do 
so.
    Mr. Kempthorne. Thank you.
    Senator Craig. I apologize, I lost my first round because I 
was doing what you probably would have done as a U.S. Senator 
in the backroom here. A guy by the name of Stan Boyd and a few 
sheepherders came by to visit with me about some public land 
problems they were having. I recommended that soon we would 
have someone who, while I think the hats have changed, would at 
least appreciate and understand, in a way that maybe other 
Secretaries had not, the difficulty they find themselves in, 
grazing their livestock on public lands.
    I am going to put this cup up because when I come to this 
committee, I drink out of it on a daily basis. It is a constant 
reminder of who I am and where I am from. When we bring you 
before this committee on probably a fairly regular basis, I 
will put this cup up.
    Mr. Kempthorne. That is nice.
    Senator Craig. I think that's darned important.
    Mr. Kempthorne. Thank you.
    Senator Craig. Now let me offer up at least one softball 
early on because of----
    Mr. Kempthorne. Don't limit yourself, please.
    Senator Craig. You have a reputation that is deserving and 
I think important. How would you describe your approach to 
environmental enforcement and environmental protection?
    Mr. Kempthorne. Senator, first of all, may I thank you for 
your introductory remarks, which you made. I truly appreciate 
that. Also, I appreciate the sentiment that is expressed by 
that cup. It is fair to say Idaho loves you as well.
    My approach to enforcement of environmental----
    Senator Craig. You have done some distinctive things as 
Governor that I think ought to be repeated, that are 
demonstrative of your style and character and how you have 
dealt with sensitive issues in the State in relation to the 
environment.
    Mr. Kempthorne. Well, Senator, thank you very much. My 
approach is to, No. 1, identify, what is the objective. Because 
often--if we can leave the rhetoric behind and determine what 
is the result that we all want, that is the first big step. 
Then you bring the different diverse groups together, with the 
realization that if we can resolve this amongst ourselves as 
the stakeholders then all of us can have some claim of success 
and victory. If, instead, we pursue a course of litigation and 
confrontation, who knows when that will ever be concluded and 
at how much cost? What do you have to show for it? We have done 
things. We have gone into areas where--again, you talk about 
minimum streamflow with ranchers. That is a tough issue and yet 
we can show them the results. I believe that you simply need to 
be creative in your approach, and fair-minded, so that people 
believe that at least you have heard them. They may not like 
the final outcome, but at least they feel that they have had a 
fair hearing.
    Senator Craig. Thank you. In our pre-hearing conversations, 
I made a comment that I think is probably consistent with what 
you will find yourself involved in over the next 2-plus years 
as Secretary of the Interior. I suggested that you might, as 
Secretary of the Interior, produce more energy for America's 
consumers than would the Secretary of Energy. It is a unique 
time and it is a bit of an anomaly as to where we are in energy 
production in this country.
    I must tell you that the administration that you come to 
and the issues that you pick have--an effort that is well 
underway at the moment. Secretary Norton, I think, laid some 
very important groundwork toward streamlining applications for 
permits to drill on public lands, as well as working with the 
Minerals Management Service on open lands and off-shore issues.
    We have some land use plans out in the Overthrust Belt of 
the West, where, when gas was $2 a million cubic feet--I 
believe that is the term or the figure--we simply said that 
during sensitive times of the year, we would just shut down and 
go away. We didn't really try to work out what would be 
necessary to be done to sustain the environment, but to keep 
development underway. Now we are being challenged by a market 
and clearly we are losing our industrial base, our chemical 
base. It is going overseas because of our price of gas. We have 
got 3 trillion-plus cubic feet sitting in the Overthrust Belt 
that ought to be delivered and brought into the pipeline. We 
want to do it in an environmentally sound way. There is no 
question about that. It won't be done, if it isn't. But it 
deserves a new look to see what we can do collaboratively with 
all the stakeholders to keep these rigs in line, even in 
difficult or more sensitive times, and what we might do to 
mitigate. I believe that will be your challenge.
    For a moment, if you would, just visit with us about that 
issue. As I mentioned to you, I think it is incumbent upon you, 
working with the director, our national director, the BLM, and 
others, to make sure that we keep this well on course over the 
next couple of years. It is a difficult time in long-term 
infrastructure development. It has a sense of immediacy to it 
that no other time would bring.
    Mr. Kempthorne. Senator Craig, I appreciate how you have 
phrased the issue. I also appreciate your expertise on it. I 
believe firmly that this Nation needs to be able to produce its 
energy supply to the extent that we can continue to lessen 
foreign dependence. It is an issue of both economic security 
and national security. You have talked about sensitive areas 
and that is part of it. We need to be sensitive. I do not 
believe that they are mutually exclusive with the technology, 
which we have brought about, with very, very effective 
environmental standards that then can be met. We can accomplish 
this. It also talks about different people that would be 
involved--those who like hunting, fishing--so that we take into 
account those activities. You can be more than one purpose in 
these areas. I would also just point out that, as you and the 
Chairman were great architects of the Energy Act of 2005, you 
have also identified some very straightforward areas that the 
Department of the Interior should be working on alternative 
energy. So I will not remain strictly focused on the 
traditional sources of energy. We will also, in a parallel 
path, be looking for alternative sources as well.
    Senator Craig. Well, I think you for those comments. I 
sincerely believe that as I watch the cumbersome processes 
within the agencies of our Government, and with the sense of 
urgency that we brought to it with the enactment of the Energy 
Act that Senator Domenici lead so successfully this past year, 
I wish that were at the agency level. I think when the American 
consumer today paid their winter heating bill or now pays $3-
plus at the pump, they have a sense of urgency as they see 
their pocketbook drained. But I am very fearful that our 
Federal agencies don't have that same sense. They remain almost 
as cumbersome. Now, having said that, Director Clark has moved 
very expeditiously and will continue to work with you to do so 
and will hope to have that relationship with you.
    If I could have one more question, Mr. Chairman?
    The Chairman. Yes, sir.
    Senator Craig. I don't want to run across my time. 
Governor, you have been involved as a western Governor and as 
the Governor of Idaho in activities that are directly related 
to the Department of the Interior. I was with you and Secretary 
Norton when we signed what I believe to be a very significant 
proposal as it relates to wolf management in an area where we 
had planted a number of wolves in the tri-State area--Montana, 
Wyoming and Idaho. I do also note that, if you get in, how you 
approach this will at times bring criticism from your critics--
and you will have them.
    You heard a few moments ago from the Senator from Oregon as 
it relates to ethics. Do you expect that you will have to 
rescue yourself on any of the issues that you have been 
involved in along the way, and if you do, has that been 
considered, and how will you handle that?
    Mr. Kempthorne. Senator Craig, that is an issue. I have 
been very forthright in saying I will abide by whatever the law 
is, whatever the regulations, the rules would be, if confirmed, 
to come from being an incumbent Governor that has dealt with a 
number of these issues to being the Secretary of the Interior. 
So, again, I will follow what is prescribed and what is 
appropriate. Therefore, there may be, for a period of 12 
months, those issues that I may not be able to personally be 
involved with. But, again, I will abide by what is appropriate 
and determined by the laws of the land.
    Senator Craig. You used the phrase there ``may be a year or 
12-month period''; is that the window that you are being 
advised, as it relates to a specific decision and action that 
you may have had a relationship with?
    Mr. Kempthorne. Yes, I would say that that is the 
identified timeline for different issues that would be Idaho-
specific, that for 12 months I may have to rescue myself from.
    Senator Craig. Last, what is your very favorite place on a 
public piece of property in Idaho?
    Mr. Kempthorne. I would tell you, Senator, that it is--I 
have many, but it is probably in Ponderosa State Park. It is a 
state park. We made some nice improvements to it recently. We 
will make additional improvements. I love all of our parks, but 
that one--the reason I say it is because seated behind me are 
Heather and Jeff and Patricia. Some years ago, Patricia and I 
went to that park. We reserved an area so that we would take 
the little children, Heather and Jeff, to camp. Before we could 
actually go, a few months later and enjoy that campsite, I 
became a candidate for the U.S. Senate. We never took that 
camping trip. We have missed a lot of camping trips because of 
the public service path I have taken. It is my hope that maybe 
my son and daughter realize now that that path has lead to 
something positive and that maybe because of this--in this new 
role that the President has nominated me to, maybe I can help 
more families access, enjoy, and realize what it is to be a 
family in the great outdoors in the United States of America.
    Senator Craig. Well, come have a cup of coffee with me 
regularly. Thank you, Mr. Chairman. Thanks, Governor.
    Mr. Kempthorne. Thank you.
    The Chairman. Now we are going to move over here to our 
newest Senator, the Senator from New Jersey. Do you have any 
questions?
    Senator Menendez. Thank you, Mr. Chairman. Thank you, 
Governor. Let me get right to some of my concerns. The recent 
5-year plan put forth by the Minerals Management Service for 
oil and gas drilling on the Outer Continental Shelf, it is a 
real concern that I and others have. The first problem with the 
offshore administrative boundaries that were announced on 
January 3 is that they were announced without any comment from 
the public or the States. Do you believe it is appropriate for 
MMS to publish these boundaries without any public commentary?
    Mr. Kempthorne. Senator, again this is an area that I am 
coming up to speed on. Let me say that it is my understanding 
that before the proposed lease for the next 5 years can be 
placed--there have been 36,000 comments that have now been 
submitted. Those need to be reviewed before any final 
determination is made.
    Senator Menendez. I appreciate that, but the problem is 
they started off with defining administrative boundaries 
without even having the public input into it. So we start off 
with a determination before the public has any possibility. 
Would you consider revisiting those boundaries by consulting 
with the States, particularly those of us on the east coast, if 
you are confirmed as the Secretary?
    Mr. Kempthorne. Senator, if confirmed, I believe I will be 
certainly involved with that. I would be very happy to have 
further discussions with you in that event.
    Senator Menendez. Do you believe--I know the State of 
Florida has been talking about that it deserves to have a 
buffer zone around their beaches. Do you support that, and if 
so, do you support a minimum mileage?
    Mr. Kempthorne. Senator, again, I would rather be further 
grounded in this whole issue before I begin to make those types 
of commitments.
    Senator Menendez. Well, our problem is that, Governor, I 
have to cast a vote before you get grounded. So I am trying to 
get a sense from you as to what your vision is of drilling off 
the Outer Continental Shelf, what protections, what 
circumstances. I mean, we have a set of circumstances.
    Let me ask you one other question. In this process, I and 
my colleague in the Senate from New Jersey and members of the 
New Jersey congressional delegation, during the comment period 
for the draft proposed program, asked MMS to hold a hearing in 
New Jersey. They held one hearing in the entire Mid-Atlantic 
region. And yet, we have not gotten an answer. And the people 
of New Jersey have not gotten an answer. Is that the way that 
you believe that the Department should act?
    Mr. Kempthorne. Senator, I do not. I mean, I believe that 
you deserve an answer. Also, you asked about what is my 
approach? What is my philosophy? You stated in your opening 
comments the importance of tourism in New Jersey. I know of 
your concern. It is a beautiful State. I know of your concern 
that there is protection. I think protection does need to be a 
critical part of this. That protection meaning adhering to 
environmental standards that needs to be put in place and 
adhered to.
    Senator Menendez. Can we get from you, Governor, at least a 
commitment to have MMS hold a public hearing in New Jersey when 
the draft EIS statement comes out?
    Mr. Kempthorne. Senator, again, may I first find out what 
are the procedures? But I would be happy to respond to you in 
writing before we make that commitment.
    Senator Menendez. We'll ask a series of other questions in 
this regard to the chair in writing. We would love to hear your 
answers before we have to cast a vote.
    Mr. Kempthorne. Thank you.
    Senator Menendez. Because a simple public hearing should be 
something that the people of New Jersey and the northeast 
deserve, as a minimum. Let me just turn, very quickly--you 
heard me refer to Lady Liberty.
    Mr. Kempthorne. Yes.
    Senator Menendez. I heard your comments in your opening 
statement about access to public lands and security. The Daily 
News, in today's paper, says that all that is open--it says, 
``Liberate Lady Liberty. All that is open is a pedestal. 
Visitors can look up her skirts, but they cannot''--it has been 
the case since before September 11--``climb the spiral stairway 
to her crown. She has become the statue of cowardliness, thanks 
to the people who run Liberty Island, who are terrified of 
terrorism.''
    Now, we have had a whole host of security measures that 
have been implemented that let people into the pedestal--that 
let people onto the island and into the pedestal. So whatever 
it is that is screened has been screened. Why can we not allow 
the citizens of our great country--we have taken on terrorism 
and said we face it with courage and conviction, why can we not 
have the ability to have citizens go, as they have always done 
since the Statue of Liberty was opened, up to its torch and see 
its magnificent views and be part of that inspiration? I would 
hope that you would make a commitment to make sure that we do 
what is necessary to make that happen.
    Mr. Kempthorne. Senator, I appreciate that. I will tell you 
that last night in anticipation of this hearing, my wife, 
Patricia and I visited some of the national monuments here. 
Why? Because we wanted inspiration, to listen to all of the 
other citizens and their enthusiasm and reverence for these 
national icons, like the Statue of Liberty, what it means to 
all of us. Again, from a background as a Governor who believes 
deeply in emergency preparedness, I will take your counsel. I 
will look into this to see how can we further provide for the 
access of the citizens to enjoy their national icons, while 
understanding that we want to make sure that it is done safely.
    Senator Menendez. I appreciate that. And we want safety. 
That is why we lived with Lady Liberty being closed for a 
while. We just simply want access to its crown, now that safety 
has been established.
    And last, Governor, we have been working on Ellis Island, 
right across from New Jersey. We can almost touch Ellis Island. 
There is actually a bridge that connects it for construction 
work. For 2-plus years, the National Park Service has been 
talking about a development plan. We have a non-profit entity 
called Save Ellis Island that has raised over $26 million. We 
cannot get the Park Service to, ultimately, after 2\1/2\ years, 
come to a conclusion so that we can save the deteriorating 
structures that are so much a part of the history of our 
country. I hope that when you become the Secretary, you will 
get them to finally, after 2\1/2\ years of inertia, be able to 
move, so that we can bring a public/private partnership 
together to save the crumbling parts of Ellis Island before it 
is too late.
    Mr. Kempthorne. Senator, I appreciate your passion for 
this. I also appreciate when you say that there is a non-profit 
organization that has raised some $26 million, I think that is 
truly significant. The citizens want to help. They want to step 
in. So, again, I would be happy to look into this issue and get 
to the point that you can have some answers.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Finished? Thank you very much. Are you ready 
on this side?
    Senator Talent. Thank you, Mr. Chairman.
    Welcome, Governor. Congratulations.
    Mr. Kempthorne. Thank you, Senator.
    Senator Talent. I hope you know what you are getting into.
    Mr. Kempthorne. I am beginning to.
    Senator Talent. I think you do. You have some experience. 
You know Senator Craig opened up the subject I was going to 
raise with you, which was energy. I would just ask you to step 
back and just share your thoughts on how we might be able to 
move forward on this issue. We clearly are in a situation that 
is not acceptable.
    I get visited all the time by enterprises that are under 
enormous pressure, for example, because of the price of natural 
gas. The figures I have looked at suggest that we have lost 
almost 3 million jobs since 2000 because of the high price of 
natural gas. This at a time when we have reserves of 193 
trillion cubic feet domestically that we are not exploring at 
all.
    I don't say this, by the way, to be provocative to any way 
of thinking about this. I am just stating the situation that we 
are in. We have $70 or higher than that, I guess, barrels of 
oil. We have reserves in the country, not just in the ANWR, but 
also in other places. That could produce enough to supply 5 to 
10% of our domestic needs. You know the situation. It just 
seems to me it is so counterproductive for us not to be coming 
up with a way to explore and use these proven reserves. It is 
hard for me to think--and, again, with respect to everybody--of 
a coherent philosophy that willingly cuts its own country off 
from these sources of energy.
    So I guess we are in--especially since there is such an 
intimate connection between the ability to generate revenue and 
economic growth and environmental quality. You said before that 
they are not mutually exclusive. I would go further. I would 
say that in order to tackle and solve the key environmental 
problems we have remaining, we need prosperity. The government 
needs revenue. People need to have the funds to spend the extra 
money they may need on conservation measures. Business needs to 
be able to invest in higher technology.
    One of the biggest environmental problems that we have in 
Missouri, for example, if not the biggest, is water quality in 
southwest Missouri and our Table Rock and Tanneycomo systems 
and the river systems leading up to that. That is largely a 
money question. Everybody wants to clean it up. It is a 
question of monitoring it, figuring it out, coming up with a 
solution and then funding it. I suspect this is true all over 
the country--land management, it is money. You can't come up 
with these funds if we are in a recession. So, I would say 
there is a connection between getting energy prices down and 
improving environmental quality. I wonder if you don't agree 
and if you would share maybe something about how we can step 
back, maybe get people to back away from the entrenched 
positions and just figure out a way to do what I think to most 
Americans seems common sense, to find a way to the natural gas 
that is in the country and use it to lower costs and save jobs.
    The same thing with the oil. While we are pursuing as 
quickly as we can a new world or renewable world that I think 
we are all, or most of us are, now in agreement on. So if you 
would share some thoughts on that, I would appreciate that.
    Mr. Kempthorne. Senator Talent, thank you very much. I 
appreciate that you reiterated economic vitality, a positive 
environment--they are not mutually exclusive.
    Senator Talent. They are mutually dependent is what I am 
saying, it seems to me.
    Mr. Kempthorne. Yes. And Senator, I will tell you both as a 
Governor and previously as a Mayor, it was when we had a 
positive economy that we were then able to go and make 
improvements or expansion of parks and recreation and access. 
So, those are the benefits that you get with a positive 
economy. It is also, I believe, national security, the well 
being of this country.
    So we do need to have reliable sources of energy. You say, 
``Well, how do we then begin to change the atmosphere so we can 
talk about it?'' The technology that has been developed, 
tremendous things, steps forward that have been taken. I 
believe it is fair to say that during Katrina that they were 
able to--in the deep platforms where they were drilling, they 
were able to turn off that at the ocean floor. There was not a 
problem. So, you have the technology.
    Then you have to consider the safety considerations. How do 
we do this safely? How do we do it so that it protects the 
environment so that we do not harm the environment in one 
equation, while we are helping it another? I believe you can 
accomplish both.
    Also, Senator, I affirm what you have mentioned about the 
alternative sources, the renewables. I think we do have to do 
that in a parallel course, so we do not look--we are simply 
wedded to the old ways, but there are new ways and we will be 
aggressive in seeking those.
    Senator Talent. Yes. I thank you, Mr. Chairman. Maybe once 
you are confirmed--and I hope and think you will be--your time, 
of course, is going to be incredibly short but maybe just some 
off-the-record, quiet conversations with people on different 
sides of this issue. Because I have a feeling that out of the 
public limelight, when they weren't standing up for a long-held 
position, people would probably agree on the basics of this. 
Maybe, you just might ask people, ``Look, what is it you feel 
you would need, coming from your framework, to be able to move 
forward on this?'' Because it just seems to me we are butting 
heads here over something that most people, over a cup of good 
Energy Committee coffee, would probably agree we ought to be 
able to work together on. You might be the person to do it. You 
know this place. You know the needs of the States. And they are 
obviously States with parochial interests, pro and con, on 
this. It is just a suggestion to you. It is easy for me to 
offer up your time. I would hope you would think about that, 
because I can't think of anything more important for both 
jobs--all three jobs, national security and the environment. We 
can't do what we need to do in Missouri on water quality unless 
we can come up with the funding, and that is just not there 
when we don't have the revenue.
    Mr. Kempthorne. Senator, I appreciate what you have said 
and I think it is wise counsel.
    Senator Talent. Thank you, Mr. Chairman.
    The Chairman. Thank you, very much.
    Senator Mary Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. Thank you, 
Governor. It has been a long morning and I appreciate your 
patience. I know that the Chairman is--I have got to call the 
meeting at 1, so I will try to be brief, because several of my 
colleagues may have additional questions.
    As we left off from our last meeting, you had stated that 
you weren't as familiar with the gulf coast States' situation, 
relative to their hosting of offshore oil and gas production. 
Of course, you were more familiar with the Western States' 
arrangements, including Idaho, that received a small--but 
received some money from oil and gas, as you know. Have you had 
some time over the last few weeks--as you visited with 
different Senators and researched some of the important aspects 
of the job that you have been nominated to do, have you had 
some opportunity to consider the situation with the coastal 
States and the way that they serve as host for the off-shore 
oil and gas production for the Nation?
    Mr. Kempthorne. Senator Landrieu, yes, I have. I spent some 
time with Senator Martinez. I spent some time with Senator 
Nelson. As I have conducted these visits, all of it adds to it, 
but not nearly to the extent that--if confirmed, I can then 
devote my full effort and not be wearing also the hat as a 
sitting Governor and the CEO of a State.
    Senator Landrieu. Well, I appreciate that and I understand 
that. I would like to just show a chart that has been very 
helpful to me, and I think to many of the Senators, to 
understand that when I speak about, and the Mississippi and 
Texas and Alabama Senators say that we are America's Energy 
Coast, we mean it, we can prove it. This graph shows it. 
Because, if you took a picture of the entire country--now, this 
is only our coast, but it would be basically white and open air 
is all around the country, because there are moratoria that 
exist everywhere, except for the gulf coast. And there are many 
reasons for that, but we have a long tradition of support for 
oil and gas production.
    Each of these yellow dots represents a lease, and each of 
the pink or fuchsia colors represents a producing lease.
    You will notice that the area right here, the white part, 
is the State's--technically the State's land. It is 10 miles 
for Texas. It is the way they came into the Nation. It is 3 
miles for us. And 10 miles or about 9 for Mississippi and 
Alabama. It was based on the way that these territories came 
into the country.
    But the bottom line is that is you can see the drilling is 
well past the States' borders. And it is well past, because 
technology has improved because our own tax code encourages 
deep drilling in the Gulf, where we think there are great 
reserves. And so my question or point is, as you continue to 
study this, would it be possible, do you think, to use your 
great mediation skills to try to help the country to understand 
that a better partnership between these States and the Federal 
Government would be to everyone's interest in providing 
critical funding for these States to protect this 
infrastructure, as well as to provide the Government and the 
country with more product, that being oil and gas?
    Mr. Kempthorne. Senator, I would be happy to continue this 
observation--the good input that you have and also to affirm 
the critical importance of this to the United States.
    Senator Landrieu. My second question will be about the fact 
that the Congress is right now considering opening up 
additional areas. We think that that focus may be on Lease Sale 
181, which is not represented on this map, but if it were, it 
would be basically close to the Alabama-Florida line. It is not 
represented on here, but that would be the first significant 
expansion in the Gulf of Mexico for new lease sales in quite 
some time. In my view, this would be an appropriate time to 
establish the right kind of partnership that is good for the 
country, good for the coastal States, and frankly a desperate 
need of the environment that is greatly impacted and although I 
am, as you know, a very aggressive supporter of responsible oil 
and gas drilling, I would not be the responsible Senator if I 
didn't also say that there are impacts. And some of them are 
negative. You offset those negative impacts by spending the 
dollars that you generate from the industry in wise ways. That 
is what we are speaking about. So I will continue to share this 
with you and with others through the process, but as you know, 
we are considering how to move forward on Lease Sale 181 under 
the Chairman's leadership. This issue is at a crucial--has a 
lot of bearing on how we move forward or not on that issue.
    Mr. Kempthorne. Senator, I believe that you have raised--
and you are very articulate in raising these issues. They are 
appropriate issues. I would be very happy to be engaged in the 
discussion, if confirmed, when confirmed.
    The Chairman. Thank you very much, Senator. I have not 
inquired yet, and I will not at this point, but I will say to 
you, Senator, one of the things that I believe is you have a 
myriad of activities that you are going to have to familiarize 
yourself with that you don't know about. But there is no 
question you must proceed down to these coastal areas, not only 
because we had Katrina occur, and you must see what the result 
is. It happens that the United States of America, for better or 
for worse, made a nest egg out of that area in terms of its--
America's energy prosperity. It is overladen with activity. 
That is from the leasing of the land, which would be from zero 
points to something--all the way to ``Where did the refineries 
end up and where did everything else end up?'' It is all within 
two or three States in that gulf coast area. There sits 
America's energy presence and America's energy future.
    Now the situation has compounded because there are still 
huge amounts of resources there. At this very moment there is 
more natural gas in that area ready for development than 
anything we can do as a Nation, anything that we can develop in 
the short term. You must learn that your own self and find out 
that that is the case. It is just so. And yet there are the 
interests that have already been expressed to you here: No, we 
don't want to do that, because we want to protect ourselves, 
whatever it is that we have that is good for our future. We 
have to find a way, as a people, to get around this situation 
and do both.
    There is no reason in the world why we cannot drill, with 
modern technology, for the natural gas that is under this water 
and bring it onboard and sell it for America's companies and 
America's households. It is absolutely--there is just no 
question, if you put the issue to the American people and they 
understood what we are talking about, they would vote 
overwhelmingly to protect it, but don't protect it to the 
exclusion of development.
    I don't care what other Senators have said, you are going 
to be charged with getting in the middle of this. And please, 
you cannot take a position as Secretary that you are going to 
side with one State or another and what it is they want. There 
is an American interest involved in this. That is what we are 
trying to solve.
    And in doing it, we might have to give some resources we 
have not given before to the states that surround it. I have 
already made some decisions in that regard and given some big 
money the last time we had an opportunity to share. That was 
not executively determined, we determined it. We have another 
one now. We are going to determine it. I hope we have not made 
it too complicated. We will see here pretty soon. I think it is 
a simple proposition of giving the coastal States a rather 
substantial amount of money and getting on with section 181 and 
pulling it out and drilling.
    Mary Landrieu might think there are more things to it 
beyond that. I think she and her State should get a great 
quantity of money now and in the future. But I don't know that 
we have to solve all of Florida's problems with 181. They have 
plenty of time to solve their problems. But please understand 
this is a big issue--not just the lease, the whole coastal 
American-U.S. Department of the Interior relationship.
    I used more time than my questions, but I am going to give 
you one and come back to you in a minute, because there is one 
that is burning on my mind. I want to give it to you, and I 
want you to get it right, right now. I want you to take it with 
you. We have got to work on it. That's Indian water rights 
settlements, probably something you have never heard of.
    Mr. Kempthorne. Yes.
    The Chairman. Indian water rights settlements, they are 
pending across this land, Indian water rights cases that have 
to be settled, the United States is in the process of settling 
many of them. It is difficult to settle them, Mr. Secretary--
you will find that--because, literally, it is a question of 
Indian water claims that are ancient, old and unused versus 
modern-day uses that have taken advantage and used the water 
and now we have reached the point where you must settle and pay 
up. Now, the problem is that generally you can come up with a 
way to do it, but when you add it all up there is some money 
due somebody. You know honeydew? This is money due.
    I wanted to say to you that the Federal Government has 
become oblivious to the proposition that they owe money. They 
sit on the sideline and just let these cases rock along and 
then say ``Well, too expensive.'' Well, that is not going to 
last too long. I am going to find some way that they are going 
to pay. I want you to look at it. I am telling you now I am 
giving you today two powerful, big settlements in my State. 
Now, I don't do this because I want to give you something just 
for me; I do it because we already settled a big one in 
Arizona. They got their money. We found a source of revenue. It 
flowed into it.
    Senator Craig. We did Idaho but no money in it.
    The Chairman. We did Idaho. We are waiting around to see 
how much is due. We have two of ours, big ones. One is called 
the Aamodt case. One is called the Abeyta case. I can tell you 
right now, Mr. Secretary, this will not disappear from your 
mind, because we are going to find some way to work on this 
before you get out of this office. We are going to have a way 
to take care of it.
    Now, I am coming back to another terribly difficult issue, 
but I want to get these Senators in now. I guess time would 
be--where were we? Is it your turn, Senator? OK. The Senator 
from Alaska.
    Senator Murkowski. Thank you, Mr. Chairman.
    I would certainly concur with you that when it comes to the 
difficult issues that will be confronting you as Secretary of 
the Interior, while I admire and I applaud your willingness to 
serve, I don't know that I would be willing to step up to the 
plate, given the nature of some of the issues, as Senator 
Landrieu presented, and as the Chairman has mentioned.
    We have our own set of sticky wickets in Alaska and I am 
sure you know many of them. We have had a chance to discuss 
them and I look forward to working through some of those issues 
in the next few months.
    The one that is on everybody's mind right now is energy, 
what we are going to do. And I have repeated over the past 
couple of weeks, we can do a lot of things here in Congress. We 
can make and repeal a lot of laws, but we can't repeal the law 
of supply and demand. When we are talking about the energy 
picture we must talk about supply at the same time that we talk 
about easing off on the demand side and conservation. We know 
those and alternatives are very important, but we must also 
look to what we can do domestically.
    Of course, I come around to the ANWR issue. As I mentioned 
in my opening statement, we have 76 million acres of wilderness 
in Alaska, but the coastal plain of Alaska, when we are talking 
about drilling in ANWR, is not wilderness. It was never set up. 
It was never proposed as such. This was land that was 
specifically set aside in the Lands Act to be studied for the 
potential for oil and gas development. We have studied that. We 
have done the analysis. We have done the recommendation. We 
have passed it through the Congress. Once, the President vetoed 
it. We could be in a better position with our oil supply right 
now if we had that ANWR oil online. I guess my question to you, 
Governor, is whether in your judgment the Congress does a 
disservice to this Nation when it keeps what may be the 
Nation's most promising energy asset, when it comes to oil and 
the potential for gas, when we keep the coastal plain of ANWR 
under lock and key.
    Mr. Kempthorne. Senator Murkowski, I will just affirm to 
you that I believe that it has the potential of a great 
resource. I believe that it is part of the equation for the 
well being of this Nation. I believe that it can be 
accomplished with the highest of environmental standards and 
with the technology that can affirm that, so that we can 
appropriately and properly develop that resource. I have been 
on record in the past as having supported it and I will remain 
so.
    Senator Murkowski. I appreciate your commitment and look 
forward to working with you on the issue. I want to just do a 
quick add on to Senator Landrieu's comments about off-shore and 
OCS exploration. The Department, of course, is in the midst of 
formulating the new 5-year OCS lease schedule. There are a 
couple different areas in Alaska right now that are generating 
some controversy on this issue. We have the Beaufort-Chukchi 
Provision. And there is sensitivity by many of our Alaska 
natives in the whaling community, concerns about the potential 
for development, specifically the seismic activity that could 
conflict with the whaling season in the spring and in the fall; 
then, down in Bristol Bay, concern from our fishermen in that 
region. Bristol Bay is probably one of our richest areas in 
terms of fishing resources. We have got concerns from those 
within the fishing industry, environmental concerns. So, my 
question to you is, as you look to these two off-shore areas in 
Alaska, which clearly have great potential for the resources, I 
guess I want your assurance that you will work with us as we 
try to accommodate the concerns that have been expressed by the 
Alaskan natives with regards to whaling, restrictions and 
activity during whaling season, as well as your understanding 
and appreciating the concerns of our fishermen in the Bristol 
Bay area.
    Mr. Kempthorne. Senator Murkowski, yes, I commit to you 
that I will be more than happy to work with you. I believe that 
you can help me to gain the greater understanding of the full 
picture of the implications, both to the native Alaskans and to 
the fishermen, their reliance upon this same area and how you 
can have a system where it is compatible, that it need not be 
this entity versus that entity, but somehow we can benefit. 
Again, I think you can be part of that solution.
    Senator Murkowski. Well, I appreciate that. I do believe 
that given the technology that we have nowadays--and we are 
seeing it on-shore. The technology that we are utilizing up 
north now is so entirely different than when we first started 
30 years ago. I believe that we see the developments in the 
offshore as well, but we know that we have got to do it 
responsibly and right. As much as I want to see the 
developments so that we are providing the resource for this 
country, I want to make sure that we are working with and 
protecting the environment and providing that balance. So, I 
appreciate your perspective. I believe that we can do both. I 
don't think that they are mutually exclusive--that is 
development versus the environment--but that together we can 
make it work and we can provide for that balance. I appreciate 
your commitment to working with us on that.
    Mr. Kempthorne. Well, thank you, Senator Murkowski. And 
again, I appreciate what you just articulated. I think we must 
never forget that. That has to be our standard that we hold up 
and that we achieve.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Craig [presiding]. Senator, thank you. Let us now 
turn to Senator Salazar.
    Senator Salazar. Thank you, Senator Craig. Thank you again, 
Governor Kempthorne, for coming before the committee today.
    I want to ask you a question concerning the National Park 
System. From my point of view, when I study the history of our 
national parks and I see the crown jewels that we created in 
this Nation, it is important for us always to remember that the 
1916 Organic Act talked about the conservation of these 
treasured resources. Many of us on this committee have raised 
the question as to whether or not it is wise for the National 
Park System to move forward with their new revised policy. We 
have not been able to articulate a reason as to why we should 
change the principle doctrine, to do no harm to our National 
Park System. And it is my view that what the National Park 
System is attempting to do is attempting to diminish the 
priority of conservation. I would like you to comment on that 
issue and also ask you a very specific question as to whether 
you will agree to revisit the proposed changes for the National 
Park System on their parks policy?
    Mr. Kempthorne. OK. Senator Salazar, first of all, let me 
just say, if confirmed, yes, I will look forward to reviewing 
those proposed changes, the management policies. You ask why it 
was necessary. From the briefings that I have received, here 
are some of the conclusions that I have drawn.
    First of all, those procedures pre-dated 9-11. The world 
has changed. So, we put into place--or they have put into place 
those elements dealing with Homeland Security. Also, it did not 
address at all information technology, which we have seen in 
the Department of the Interior as a critical issue. It had 
reference to employee management, but now I believe the 
proposals have an entire chapter on employee management. I do 
not believe that it affects, nor would it, nor would it be the 
philosophy of the Park Service that you would walk away from 
the do-no-harm policy/strategy. But any dynamic organization 
from time to time, I think, needs to be introspective, see 
where they can make improvements. Significantly, there are some 
58,000 comments that have been submitted concerning these 
changes, which are part of a review process.
    Senator Salazar. If I may, Governor Kempthorne, I 
appreciate the answers to that question. Let me ask you whether 
you would be willing to subject the new proposed policies to 
another round of public comment so that we make sure that not 
only the public but also employees within the National Park 
System provide input to the new policies that are being 
proposed.
    Mr. Kempthorne. Senator, again, I feel that I can't today, 
not knowing all the procedures and processes, make those types 
of commitments. I don't know that that would be appropriate. 
Let me just say that I would be happy, if confirmed, to get 
back with you so that we can further discuss this. You have 
raised some very appropriate points.
    Senator Salazar. Let me just say that I look forward to the 
continuing conversation on this. I know on a bipartisan basis 
there is a tremendous concern about the policy and I want to be 
involved with the Department of the Interior and the National 
Park Service as you move forward on that issue.
    Mr. Kempthorne. I appreciate that.
    Senator Salazar. Let me quickly move to another issue, and 
that is the public land sales that have been proposed. I think 
in an earlier response to one of my colleagues I thought I 
heard a position from you that you are opposed to the sale of 
public lands in order to address deficit reduction issues. I 
would like you to just reiterate for the committee what your 
position is with respect to the selling off of public lands to 
address budgetary needs.
    Mr. Kempthorne. Senator, if it is specific and strictly for 
deficit reduction, I do not favor that. That would be my 
position. That would be what I would advocate, if confirmed, in 
those meetings discussing how we resolve this budget deficit 
that is facing the country. I do not want to preclude, though, 
the tool. There are instances and situations where you do want 
to be able to sell public lands, whether it is enclaves, 
whether it is to assemble more efficient management blocks of 
land.
    Senator Salazar. Let me just say, Governor, I agree with 
you that there are management times when sales are appropriate, 
but I very much agree with your statement that it is 
inappropriate to do it just as part of overall deficit 
reduction without having had a rational plan put together as to 
why it is that we are engaging in a sale of isolated tracts. It 
seems to me to be a change of the way that we have approached 
the ownership and management of our public lands. Quickly, just 
because--may I ask another question, Mr. Chairman?
    The Chairman [presiding]. Yes.
    Senator Salazar. As we move forward, I think, in this 
Committee with the leadership of Senator Domenici, one of the 
things that we will be looking at is obviously the opening up 
of Lease Sale 181, which Senator Landrieu and others have 
discussed.
    For Senator Alexander and myself, the stateside funding of 
the Land and Water Conservation Fund is very important. I know 
from public statements that you have made that they--back 4 or 
5 years ago that you have been a very strong advocate of the 
full funding of the stateside Land and Water Conservation Fund 
at the level of $450 million. It is my hope that as we move 
forward with this agenda on Lease Sale 181 that we will be able 
to fulfill the public statements that you made in support of 
funding of the Land and Water Conservation Fund. I just wanted 
to know from you whether you will be supportive as we look at 
ways of funding LWCF.
    Mr. Kempthorne. Senator Salazar, I am very supportive of 
the land and water conservation funds. I have seen how 
beneficial they are to the States. I would like to be a partner 
with you, with Senator Alexander, and others in determining how 
can we find the revenue source so that we can see the funds 
that can be used by the States for Land and Water Conservation 
Funds.
    Senator Salazar. Are you hungry?
    Mr. Kempthorne. Yes, sir, I am.
    Senator Salazar. Thank you very much for staying so long 
with us.
    Mr. Kempthorne. Thank you for staying too.
    The Chairman. Thank you very much, Senator. While you are 
still here, I want to indicate what an active participant you 
have been, even though you are relegated to that distant seat 
by designation of the rules around here, and that we are going 
to visit Mr. Secretary together. We are going to visit the oil 
shale deposits in his State. That is going to take place during 
the Memorial Day recess. You are very busy, but we are going to 
give you that schedule.
    Senator Salazar. All right, Mr. Chairman, thank you.
    The Chairman. I want you to know that we believe, Mr. 
Secretary, that the United States is the ``Saudi Arabia of 
Shale'' and that the bulk of that resource is on Federal land. 
Now I don't think you understand sitting there at that table 
what that makes you. But, literally, if what some of us think 
is possible--to wit, the actual development of that shale, 
turning it into crude oil--you are the owner and ultimate 
lessor of the most valuable American commodity anyplace in our 
land, because that shale is directly convertible to oil. You 
just heat it enough and it turns into oil. It looks like one of 
the American companies has found a way to do it. You will learn 
about that. It is urgent that you have somebody on your staff, 
in my opinion, become an expert quickly on shale oil and what 
is happening in the United States.
    I don't want to get you and the Department of Energy into a 
fight, because I don't know who is in charge. I know you own 
it. I know we told you what to do about getting it leased, 
which you are already doing a terrific action toward getting 
this property ready so that companies that want to develop it 
are vying for leases. We are going to go see it, and with the 
company that has the new technology. If that new technology 
works, then the only question is going to be how many dollars 
does it cost them to produce a barrel of oil?
    That is why, when people wonder about the price of crude 
oil, is it all bad because it is high? Some it is good because 
it is high. Because when it is high, some of these investments 
occur that bring on board alternatives that make us more 
independent. In other words, shale oil won't come on board at 
$10 a barrel oil, but it might at $40. And we are going to go 
see about this and you are going to be the proprietor of the 
most valuable properties in the world if this turns out to be 
doable. So, I leave you that background.
    Mr. Kempthorne. Thank you, Mr. Chairman.
    The Chairman. Having said that, I was going to ask you some 
questions about ANWR. But you know about it. I can only tell 
you that had the President of the United States signed that 
when it went to him 10 years and 6 months ago, this country 
would be producing 1.2 million barrels a day of oil from land 
that you would have been the proprietor of, ANWR. That would 
have been worth, believe it or not, according to the estimates, 
if that would have occurred, that would have been worth $76 
billion in corporate income taxes and $35 billion in royalties 
as of today. Imagine that. Sitting up there, nobody can hardly 
see it and we keep fighting over it.
    Now, let me tell you hydropower is within your 
jurisdiction. You should know, Mr. Secretary, that as a result 
of this Senator's work that the hydropower laws have been 
streamlined. Just in time, because about 25% to 40% of the 
hydropower, small and large, are up for re-licensure in the 
next 5 years. It is incumbent upon you that these new rules be 
followed and that we not have big delays as we had before. 
Those who did not want to solve this got it solved. It got 
solved by the conferees in the final days of this session, 
where you have a workable hydropower re-licensing law.
    Now, I have many more, but I want to close with one that 
you must know about. I am sure that you know a little bit about 
the U.S. mineral laws with reference to people going out on the 
Federal domain and setting forth their claim by what they call 
a placer claim. I don't know if you have heard the word 
``placer.'' You probably have. But a placer claim, you go out 
and say I think there is a mineral here and you place your 
claim--that is where the word comes from--and you do some work 
in the meantime. You become, year by year, the one that is 
entitled to lay claim to that property. Believe it or not, with 
the surge of enthusiasm for nuclear power that has gone all the 
way from the top down to the bottom, where people are now 
locating placer claims for uranium all over the States of 
Wyoming, New Mexico and Colorado. There is a 500% to 800% 
increase in the number of new mining claims filed. Most of 
these are for uranium.
    It is important, Mr. Secretary, that the Department's 
mission is advancing not just mining but advancing the 
knowledge and use of valuable mineral resources from the 
Federal lands. With this dramatic increase in the number of 
mining claims being filed on the BLM, it is important that we 
expect from your Department that you ensure the mining claims 
and the mining permits are handled properly and in a timely 
manner. So I leave you with that message that somebody is going 
to have to get out there and see what is going on, because it 
may be important to this country if there is uranium out there 
that we go ahead and find it. Get it placed so that we can 
produce more of our own. We are not producing any now, which is 
an interesting phenomenon.
    I have about 10 questions I am going to submit; answer them 
quickly. Senators have the rest of the day to submit questions, 
and if they don't submit them by then, it is too late. We will 
then wrap them up and then next Wednesday we should have a vote 
and you should be confirmed. There is no way to hold this up. 
We know nothing about how the floor leader intends to proceed. 
This business of holds, there have been no holds. The holds 
will have to come down there and debate.
    Senator Craig. Thank you very much, Mr. Chairman. Not that 
I am striving to have the last word here, but there is a 
question or at least a reaction I would like to get from the 
Governor to an issue that is every bit as important in your 
State as it is in ours.
    The Chairman. Shoot.
    Senator Craig. It is one that you and I have worked on very 
closely. We have just had in Interior, but at the Bureau of 
Reclamation, a fine gentlemen retiree by the name of John Keys, 
a friend of yours and mine.
    Mr. Kempthorne. Yes, sir.
    Senator Craig. We also have there another fellow by the 
name of Mark Limbaugh, who is doing an excellent job at this 
moment. They came with a charge. Partly that charge was when we 
asked John Keys to come and serve, I said to him, 
``Commissioner-to-be, will you never allow a Klamath Falls 
water incident to occur on your watch?'' You remember the great 
controversy there that dried up the landscape and created some 
phenomenal difficulties. True to his charge, he did not allow 
that to happen. But out of that grew an initiative known as 
Water 2025, the water initiative that is critical to the West 
now and for the future.
    Our State of Idaho, and you have been there as Governor, 
has witnessed the two very real preoccupations and realities 
that our legislature has gone through the last two sessions 
with water. It is happening all over the West. Why? Because the 
State of Idaho, Nevada and Arizona and the rest of the West, 
certainly the State of New Mexico, are populating at an 
unprecedented rate. And getting out in front of the need for 
water in the future years is going to be tremendously 
important. Being from a State where these concerns have not 
gone unnoticed, is it your intention to not only continue 
pushing Water 2025 but also to pursue its expansion?
    Mr. Kempthorne. Senator Craig, yes, without question. In my 
opening statement, that is why one of areas that I highlighted 
was water. It is critical. I appreciate, Senator Craig, your 
leadership on water issues. You mentioned how critical that is 
to the West. I believe it is critical to many States in the 
East as well that have been experiencing drought. That is a 
finite resource. It is precious. Without water, many, many 
things just will not happen, including the well-being of the 
citizens that are here. So, yes, we will do that and it will be 
a priority, but not just in theory. It would be a variety of 
things.
    Mr. Chairman, you talked about the Indian rights and the 
water settlements. That is something that we do need to pursue 
and find a conclusion, so that we don't continue to expend the 
resources of money for years and the solution evades us. We 
have done a variety of things in Idaho, where we have purchased 
water rights, where we have taken some productive land out of 
production but instead have returned it now to natural grasses. 
It turns out it is a wonderful critical habitat for different 
species. I believe there is a whole host of things that we can 
aggressively do--and creatively do--so that we can also find 
solutions for municipalities, surface, ground water, spring 
users, tribes, outdoor activists, recreational. Again, I accept 
that charge, Senator Craig. It is indeed important.
    Senator Craig. Thank you. Thank you, Mr. Chairman.
    The Chairman. Very specifically, 2025 water money is 
terrific. That program was invented. Its title is beautiful. It 
does a great job. The only problem is there isn't enough money. 
You must be an advocate next budget cycle to double the money 
for 2025 when you look at what it does in our respective 
States. It is absolutely marvelous.
    Senator Craig. And then Pete will get it for you.
    Mr. Kempthorne. I appreciate that.
    The Chairman. Thank you very much. Well, there is nothing 
further. It seems like we have had a pretty responsible 
hearing. We are going to recess and say thank you to you and 
hope that everything works out fine. Thanks to your family for 
their patience and for being here. I hope you enjoyed it. It 
was probably boring. And for the youngsters, you were wondering 
just when you could get out of here, you can get out of here 
now.
    [Whereupon, at 1:26 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Governor Kempthorne to Questions From Senator Domenici

                                  ANWR

    Question 1. On Tuesday of this week, the Congressional Research 
Service released a report on the potential Federal tax revenues from 
oil development in ANWR. According to CRS, at today's oil prices, 
production of the mean estimate of recoverable oil in ANWR--10.4 
billion barrels--would yield the federal government about $76 billion 
in corporate income taxes and $35 billion in royalties.
    Do you know if the Interior Department has performed a similar 
analysis of the potential corporate income taxes and royalties that the 
Treasury would receive upon production of ANWR resources, and if not, 
do you think it would be a good idea for the Department to do its own 
analysis?
    Answer. Chairman Domenici, I am not aware of whether the Department 
of the Interior performed such an analysis. If confirmed, however, I 
would be happy to look into this matter, including whether the 
Department or its bureaus have the appropriate expertise or are the 
appropriate entities to carry out such an analysis.

          DESIGNATION OF ENERGY CORRIDORS ACROSS FEDERAL LANDS

    Question 2. Pursuant to the Energy Policy Act of 2005, the Interior 
Department is currently engaged in a 2-year process to identify and 
designate energy corridors across federal lands that can be used for 
siting new transmission facilities.
    This includes completion of a west-wide programmatic environmental 
impact statement and a record of decision that will simultaneously 
amend the relevant land use plans. I know that you are aware of the 
nature of these environmental requirements.
    Can you commit to me that if you are confirmed, you will ensure 
that this work gets completed within the two-year timeframe.
    Answer. It is my understanding that this effort is currently on 
schedule. If confirmed, you have my commitment to providing the 
necessary resources for completing the Programmatic Environmental 
Impact Statement for the designation of energy right-of-way corridors 
on Federal lands in the west. I am informed that this is an interagency 
effort that involves the Department of Energy, Department of the 
Interior, U.S. Department of Agriculture, Department of Defense, and 
Department of Commerce in consultation with the Federal Energy 
Regulatory Commission and State and local governments. The Department 
of Energy is the lead for the Programmatic Environmental Impact 
Statement. However, the Department of the Interior will work hard to 
meet its timeframe commitments.

                               HYDROPOWER

    Question 3. EPAct reformed the Federal Power Act's hydroelectric 
licensing provisions by providing for an expedited trial-type hearing 
on disputed issues of material fact and allowing any party to offer 
alternative conditions. The resource agencies (Interior, Commerce, and 
Agriculture), in consultation with FERC, issued an Interim Final Rule 
on November 17, 2005. However, just one month later, American Rivers 
filed suit in Washington State's western district, challenging the 
interim rule.
    If confirmed, do you plan to continue the rulemaking process to 
finalize the rule?
    Answer. If confirmed, I plan to continue the rulemaking process.

                         ENDANGERED SPECIES ACT

    Question 4. During your tenure as Senator for the State of Idaho, 
you led efforts to develop comprehensive legislative changes to the 
Endangered Species Act. Those efforts included the development of S. 
1180, the Endangered Species Recovery Act of 1997 and S. 1181, the 
Endangered Species Habitat Protection Act of 1997.
    Have your views on the ESA evolved since you left the Senate, and 
if so, in what way?
    Answer. As Governor, my experiences with the ESA have broadened and 
I recognize the important role States and private landowners play. I 
believe S. 1180 was a sound consensus bill for reauthorization of the 
ESA in 1997. I have a better understanding of what ESA implementation 
means for States and private landowners, and I strongly believe there 
are common sense approaches that can be adopted to promote better 
species conservation and recovery.
    In addition, I believe that species recovery is best obtained 
through incentives and partnerships. Section 6 of the Act, a provision 
that provides for State-Federal cooperative programs, is a valuable and 
underutilized tool that can facilitate partnerships between the Federal 
government and States for protecting and recovering species. With 
limited Federal funding, shouldn't we make a concerted effort to 
maximize the best of our shared resources--State and Federal--to find 
better and more cost-effective solutions under the ESA?
    I also recognize that Washington, D.C. does not have exclusive 
access to the best science, innovative solutions, or the most efficient 
operations in terms of getting work done on the ground. That is where 
States and private property owners can, and must, play an integral 
role, in both the listing and the recovery process.
    If confirmed, I look forward to working with the Congress to 
improve and update the ESA.
    Question 5. What priority do you expect to place on improvements to 
the ESA in your role as Secretary of the Interior?
    Answer. In the past thirteen years of working on ESA issues, I have 
heard from thousands of individuals, both from Idaho and around the 
country that the ESA can work better. As Governor of Idaho, I created 
an Office of Species Conservation to improve the State of Idaho's 
implementation of the ESA.
    The Endangered Species Act must focus on recovery, not just the 
listing of threatened and endangered species. I have never heard anyone 
suggest that they do not support recovering species. I have never heard 
anyone say we should turn our back on species in trouble. Along those 
lines, I am committed to placing a high priority on species recovery 
and to improving the ESA to accomplish that goal.
    Question 6. How would you update and modernize the ESA or its 
implementation?
    Answer. As a Senator, I introduced legislation that worked to 
strike a balance between the needs of species and the needs of people. 
I proposed the protection of our rare and unique species, recognized 
the rights of individuals and property owners, and provided more 
incentives to encourage property owners to become partners in the 
conservation of species.
    As the Governor of Idaho, I have been committed to the idea that 
wildlife management programs are most effective when they are based on 
sound science. I worked with stakeholders and partners to build 
conservation efforts which led to real, on-the-ground conservation and 
habitat improvement projects.
    The Federal government must provide incentives for private 
landowners, local governments, and states to motivate them to avoid 
listing in the first place and then, if necessary, to participate in 
recovery after listing. The process would be better if it encouraged 
innovation with incentives to protect species. Currently, there is a 
real fear of endangered species becoming established on properties 
because the law focuses on punishing those who do not comply, rather 
than on rewarding those who voluntarily engage in conservation efforts.
    The Act should encourage the states and individuals to participate 
in the process of working together with the Federal government to help 
conserve and recover at risk species.

                           ENERGY PRODUCTION

    Question 7. The Department plays a critical role in emphasizing 
responsible development of energy resources on Federal lands. Since 
passage of the Energy Bill last summer we are looking to the Department 
to implement many aspects of the bill.
    Over the past few years we have pressed for improved service in the 
Department's energy programs and access to federal lands.
    I am sure you are aware of the backlog in processing drilling 
permit applications. Will correcting this problem be a priority for you 
as Secretary?
    Answer. Yes. If confirmed, efficient permitting for energy will be 
a priority for me. It is my understanding that the Energy Policy Act of 
2005 provides additional tools and funding to increase the efficiency 
of processing drilling permits, including the seven pilot project 
offices in the Bureau of Land Management. Additionally, I understand 
that the FY 2007 budget provides funding for other, non-pilot agencies 
to improve permit processing.

                               OIL SHALE

    Question 8. America is the ``Saudi Arabia'' of Oil Shale and the 
bulk of this resource is on Federal Land. This may represent our best 
chance to eliminate our dependence on Mideast oil. In the Energy Bill 
we took steps to initiate an Oil Shale Program at BLM.
    Can I get a commitment that the Department will aggressively 
implement such a program?
    Answer. I am advised that the Department is making progress in 
implementing the oil shale resource lease program. If confirmed as 
Secretary, I will ensure the Department of the Interior's oil shale 
program continues to be implemented as expeditiously as possible.
    Question 9. I have made you aware of the magnitude of this resource 
in this country. Do you have any other ideas that might hasten its 
development in addition to those enacted in the Energy Bill?
    Answer. I have been pleased to learn of the magnitude of the 
domestic oil shale resource. If confirmed as Secretary, I look forward 
to working with you on innovative approaches to managing this and other 
domestic resources managed by the Department of the Interior.

                    INDIAN WATER RIGHTS SETTLEMENTS

    Question 10. As you are aware, un-adjudicated Indian water rights 
claims in the western United States are a great source of uncertainty 
and are, in my view, the greatest impediment to effective water 
management. In May of 2004, you signed the Nez Perce Water Rights 
Settlement which settled Indian water rights claims to the Snake River 
Basin. There are several Indian water rights settlements that are 
nearing completion in New Mexico. They include the Aarnodt, Abeyta and 
Navajo settlements.
    Do I have your assurance that, if confirmed, you will make the New 
Mexico Indian water rights settlements a priority and that you will 
work to promote a reasonable federal contribution as part of these 
settlements?
    Answer. As I noted in my opening statement, I commit to bringing 
the same energy and concern that I had for the Nez Perce settlement to 
other Indian water rights issues. As I responded in your next question, 
if confirmed, I plan to meet with OMB and Department of Justice to 
discuss the issue of an appropriate Federal contribution.
    Question 11. If confirmed, how will you secure a commitment from 
OMB that a reasonable federal contribution will be made available for 
Indian water rights settlements?
    Answer. If confirmed, I plan to meet personally with OMB and the 
Department of Justice on this issue, including a discussion on an 
appropriate Federal contribution.

                        WESTERN FIRE SUPPRESSION

    Question 12. Between 1994 and 2004 we have suffered an average or 
94,000 fires each year which burned an average of 4.8 million acres 
each year, but three times in the last six years the five federal fire 
fighting agencies have exceeded a billion dollars in fire suppression 
costs, and each of the last six years have exceeded the 10 year average 
cost of fire fighting.
    Given the increasing costs of fire suppression and fire 
preparedness, I am wondering if it might not be wise to invest more in 
hazardous fuels reduction work and less in the fire line items. Would 
you care to comment on that?
    Answer. It is my understanding that the Department has invested 
significant resources in hazardous fuels reduction, more than 
quadrupling funding over 2000 funding levels. If confirmed, I will 
continue to support for the fire program and will I carefully look at 
appropriate funding levels for all components of the fire program.

                          DROUGHT IN SOUTHWEST

    Question 13. The water forecast for the state of New Mexico this 
year is bleak. This snow year may be the worst since 1892, the year 
that we begin taking records. I included in the Emergency Supplemental 
Appropriations bill a provision to reauthorize the Bureau's emergency 
drought assistance program through 2010 and fund the program at $7.5 
million.
    If confirmed, do I have your assurance that you will do all you can 
to help New Mexico through this tough time? If so, what suggestions do 
you have to help New Mexico through the current drought?
    Answer. Yes. If confirmed, I am committed to doing all that I can 
to assist New Mexico during this difficult time. I do support the 
proactive response to the effects of drought embodied in policy tools 
such as the emergency drought relief program. I will work with the 
Bureau of Reclamation to utilize all available authorities to help New 
Mexico manage scarce water resources during this drought, including 
Reclamation's Water Conservation Field Services Program and Water 2025 
initiative.

                         SCIENCE AND TECHNOLOGY

    Question 14. Drought and population growth in the western U.S. 
require that we make more efficient use of water and develop 
technologies to make use of previously impaired or unusable water. 
During the 1960s and 1970s, the federal government funded extensive 
research in water technology which resulted in reverse osmosis-the 
desalination technique most widely used today.
    I believe that the federal government should renew its investment 
in water treatment technology. Toward this end, I have funded 
construction of the Tularosa Basin Desalination Research and 
Development Center in New Mexico. The President's budget proposes $5.2 
million for Reclamation's desalination research and development (R&D) 
programs.
    Do you believe that desalination research should be undertaken by 
the USBR? If so, how would you coordinate the USBR research with that 
being undertaken by other federal agencies?
    Answer. The Federal government, including the Bureau of 
Reclamation, funds desalination research and should continue to do so 
where there is a clear Federal role and the Federal investment 
contributes toward improving long-term water management. If confirmed, 
I would welcome the opportunity to foster collaboration with other 
Federal agencies involved in desalination research to maximize the 
effectiveness of our federal investment.

                              RURAL WATER

    Question 15. My staff worked very closely with the staff of the 
Department of the Interior on a rural water bill which passed the full 
Senate in November of last year. It is my understanding that the House 
Resources Committee will hold a hearing on the bill this spring.
    What do you believe is the Bureau's role in meeting rural water 
supply needs?
    Answer. The Bureau of Reclamation can play an important role in 
meeting rural water supply needs. It is clear that there is substantial 
interest in and need for additional rural water supply in this country. 
Given present budget constraints, it will be important that we take a 
rational approach to meeting these needs; it may be appropriate for the 
Federal government to meet some of that need, but we cannot, nor is it 
appropriate, for us to meet all of it. I know that the Department has 
been very supportive of these ongoing efforts to enact a formal rural 
water program within the Bureau of Reclamation and, if confirmed, I 
look forward to continuing to work with you and others in Congress on 
this legislation.

                         U.S. GEOLOGICAL SURVEY

    Question 16. Governor Kempthorne, while New Mexico has limited 
freshwater supplies, it has significant stores of brackish water 
contained in underground aquifers. In order to take advantage of this 
resource, I obtained funding for the Tularosa Basin National 
Desalination Research Facility where testing and development of 
desalination technologies will occur. While the resources contained in 
the Tularosa Basin are well understood, there is a general lack of 
knowledge regarding the West's brackish water resources.
    If confirmed, how would you expand our knowledge of underground 
water resources?
    Answer. If confirmed, I will support programs that make available 
fundamental science information regarding groundwater availability in 
the Nation's major aquifer systems.
    Question 17. Aquifer re-injection and storage is a promising way to 
make more water available to the West. What role do you believe the 
USGS should play in investigating the feasibility of aquifer re-
injection and storage?
    Answer. I believe USGS expertise could help in efforts to develop 
new techniques to characterize underground storage capacities and solve 
practical problems in aquifer re-injection.
    Question 18a. In general, do you believe that we have an adequate 
knowledge of our water resources?
    Answer. I believe we need to continue to support scientific 
research in partnership with the States, Tribes, and other stakeholders 
to gain greater knowledge of our water resources. Water management 
decisions will be better made if they are based upon accurate science 
about the underlying resource.

                       THE NATIONAL PARK SERVICE

    Question 18b. The National Park Service is currently revising its 
management policies. As Governor of Idaho and former Senator, are you 
aware of any problems caused by the existing management policies?
    Answer. As I stated during my confirmation hearing, I feel that 
evaluations of an agency's policies and practices can be a healthy and 
productive undertaking. It is my understanding that the last policy 
rewrite was done prior to September 11, 2001, and that these new 
proposed policies reflect changes such as security measures for icons, 
border security, and management efficiencies. In addition, we must make 
sure we work cooperatively with others and have the best management 
practices in place to manage parks.

                     RECREATION FEE ENHANCEMENT ACT

    Question 19. In 2004, congress passed the Recreation Fee 
Enhancement Act which allows bureaus of the Departments of the Interior 
and Agriculture to collect and retain entrance and other user fees.
    Did the State of Idaho favor the Recreation Fee Enhancement Act?
    Answer. This past session, the Idaho Legislature approved a Joint 
Memorial to Congress asking for the repeal of the Federal Lands 
Recreation Fee Enhancement Act. In Idaho, Joint Memorials from the 
Legislature do not come to the Governor for approval prior to being 
transmitted to Congress.
    Question 20. In 2004, Congress passed the Recreation Fee 
Enhancement Act which allows bureaus of the Departments of the Interior 
and Agriculture to collect and retain entrance and other user fees. How 
would you amend the Act if given an opportunity to do so?
    Answer. As a matter of sound public policy, I am firmly committed 
to the proposition that the public should be able to see tangible 
benefits resulting from the fees they pay. I am informed that the 
Department is working cooperatively with the U.S. Department of 
Agriculture to implement the Recreation Fee Enhancement Act. While I am 
not familiar with the details of the Act, if confirmed, I look forward 
to learning more about the provisions of the recreation fee program and 
working with Congress, our involved bureaus, and other interested 
entities to ensure effective implementation of the Act.

                   DONATIONS TO NATIONAL PARK SERVICE

    Question 21. The National Park Service currently receives revenue 
from federal appropriations, entrance and other recreation fees, and 
donations. The NPS has recently revised Director's Order 21 regarding 
donations and fundraising.
    Under your leadership, who would be allowed to solicit and accept 
donations? Do you believe it is appropriate for park superintendents to 
solicit donations?
    Answer. It is my understanding that Director's Order 21 on 
Donations and Fundraising was recently finalized and released on May 1, 
2006. I have been advised that the NPS responded to public comments 
received on the draft and that the recently released document precludes 
NPS employees from soliciting donations. I have been further advised 
that the Director has generally delegated the authority to accept 
donations below the $1 million level to the deputy, associate and 
regional directors and allows them in appropriate circumstances to re-
delegate their authority. If confirmed, I look forward to working with 
NPS leadership, Members of Congress, and other interested parties on 
this important policy.

                            INSULAR AFFAIRS

    Question 22. On March 1, 2006 the Committee held a hearing on the 
economic challenges facing the Territories. While each has challenges, 
those confronting American Samoa and the CNMI are particularly 
troubling. The Possessions Tax Credit which sustains most of the 
American Samoa economy ended this year, and the phase-out of global 
textile quotas has put the CNMI's garment industry into steep decline. 
The Governor of Samoa and the Resident Representative of the CNMI each 
made recommendations for U.S. government responses to these events, 
including an extension of the tax credit, reduction in the local 
content requirements under the Tariff Schedule, and resolution of the 
dispute over cover-over payments.
    Can you commit to me that, as Secretary and Chairman of the 
Interagency Group on Insular Affairs (ILIA), you will coordinate with 
the Treasury Department and other federal agencies to help the 
territories to develop the economic strength to meet the needs of our 
fellow citizens and nationals who reside in the islands?
    Answer. I appreciate your bringing to light issues of importance to 
the territories. As you note, if confirmed, I will be the chairman of 
the IGIA. As I understand it, the IGIA is an appropriate vehicle for 
developing a consensus within the Executive branch on territorial 
issues and legislation. Please be assured that I will utilize the IGIA 
and will consult with the Treasury Department and other Federal 
agencies regarding the economic and financial challenges faced by the 
U.S. territories.
    Question 23. During the Committee's July 19, 2005 hearing on the 
Marshall Islands Nuclear Testing Program, the National Cancer Institute 
presented their estimate that up to 532 additional cancers would be 
expected among the 1958 population of the Marshall Islands, with most 
of these occurring in the northern ten atolls. Can you commit to me 
that, in coordination with DOE, HHS, and CDC and appropriate health 
representatives of the Republic of the Marshall Islands, you will 
provide the Committee with cost estimates for screening and treating of 
radiogenic cancers in this population, excluding those currently 
covered by the DOE healthcare program?
    Answer. This will indeed require interagency cooperation, because 
it is my understanding that the Department of the Interior does not 
have the in-house expertise to develop these estimates on its own. If 
confirmed, I will work with the U.S. Departments of Energy and Health 
and Human Services, including the Centers for Disease Control, in 
cooperation with officials from the Marshall Islands, as appropriate, 
to provide the Committee with cost estimates for screening and the 
treatment of radiogenic cancers among the people from those parts of 
the Marshall Islands that you have specified are not currently covered 
by the health care program of the U.S. Department of Energy.
   Responses of Governor Kempthorne to Questions From Senator Thomas
    Question 24a. As you know, the State of Wyoming and the Department 
of the Interior have been at odds over the management and delisting of 
wolves. As the Governor of Idaho, you understand this issue from the 
states' perspective. One of the problems has been getting Interior 
officials with decision-making authority to come to the state. 
Questions:
    Will you agree to come to the state to work with Wyoming to resolve 
this issue?
    Answer. If confirmed, I would welcome the opportunity to work with 
my Wyoming neighbors on this issue. As Idaho's Governor, I directed my 
staff to go to Cheyenne to meet with Governor Freudenthal's staff and 
members of the Wyoming legislature to discuss working together to 
resolve this issue and to gain a better understanding of Wyoming's 
perspective on wolf management. I have an excellent working 
relationship with you, members of the Wyoming delegation, and Governor 
Freudenthal, and expect that it will continue into the future.
    Question 24b. What do you think can be done at Interior to move 
toward delisting?
    Answer. I can pledge that, if I am confirmed, the Department will 
invest the same understanding and creativity to solve this problem that 
we will ask of the good people of Wyoming. I know the importance of 
cooperating with states to resolve species issues and am a strong 
believer in providing management of species to the states. I also have 
wrestled with and resolved the issue of ``adequate regulatory 
mechanisms'' surrounding wolf management and delisting the species in 
the West. I remain committed to work with the Governors of Montana and 
Wyoming, as well as the Great Lake States on this issue.
    Question 25. Many endangered species should be removed from the 
endangered species list--wolf, grizzly bear, Preble's meadow jumping 
mouse, and others. However the process seems to drag on forever and not 
get anywhere. What can be done to streamline the delisting process?
    Answer. In my experience, the single greatest impediment to 
achieving final resolution on almost all Endangered Species Act issues 
is litigation. Most issues face litigation from opposing points of 
view, which results in long periods of time being used in the courts to 
find resolution while redirecting resources away from important species 
recovery and conservation activities. I believe finding solutions to 
these litigation challenges will require both administrative 
streamlining and a legislative remedy.
    If confirmed, I will work to improve the delisting process as well 
as other aspects of the Endangered Species Act.
    Question 26. I believe strongly that the Endangered Species Act 
needs to be updated to improve the listing and delisting processes, 
improve science requirements, and other things. What reforms to the ESA 
would you suggest, and will you stay committed to reforming the ESA as 
Secretary?
    Answer. The goals of the ESA, namely, the recovery of threatened 
and listed species, is truly laudable. As the Governor of Idaho, I have 
been committed to the idea that wildlife management programs are most 
effective when they are based on sound science. I worked with 
stakeholders and partners to build conservation efforts which led to 
real, on-the-ground conservation and habitat improvement projects.
    While I served in the United States Senate, I led an effort to 
bring needed improvements to the ESA. I concentrated on building a 
strong, bipartisan coalition that focused on strengthening conservation 
by encouraging greater cooperation with landowners. If confirmed as 
Secretary, I will continue that effort and the progress I have made as 
governor to make the ESA more focused on avoiding listing in the first 
instance and then more conducive to recovering the species.
    If confirmed as the Secretary of the Interior, I commit to working 
with the Senate and House to update and improve the Endangered Species 
Act.
    Question 27. Over half of Wyoming is owned by the federal 
government--and most of the federal land is managed by Interior. While 
some areas such as National Parks and wilderness areas need special 
protections, most areas should be managed for multiple uses--including 
grazing, energy development, timber production, and recreation. I would 
like a strong commitment from you that you will work to manage our 
public lands for multiple use and sustained yield as mandated by FLPMA.
    Answer. If confirmed, you have my commitment that I will work to 
manage the public lands for multiple use and sustained yield as 
mandated by FLPMA.
    Question 28. The National Park Service is currently responsible for 
390 national park sites. This represents 85 million acres of land in 49 
states. As the number of sites continues to grow, resources are 
increasingly stretched thin. With that in mind, what is your long term 
vision for the NPS? What are your plans to address the maintenance 
backlog?
    Answer. I would like to see the National Park System, with its many 
natural, cultural, and historic treasures, continue to be the source of 
great pride for our Nation that it has been ever since the first 
national parks were established. For that to continue, we need to 
maintain effective and efficient operation and maintenance of parks. 
With appropriations totaling nearly $4.7 billion and the completion of 
nearly 6000 facilities improvement, as well as the completion of a 
first-ever comprehensive condition assessment of NPS facilities, the 
Administration has made a good deal of progress in addressing the 
maintenance backlog during the last five years, and I would like to see 
that progress continued.
    Question 29. Do you believe in the historic mission of the National 
Park Service, that when a conflict exists between visitor enjoyment and 
preservation in our national parks, that preservation should be 
predominant?
    Answer. I have been made aware of correspondence on the NPS 
Management Policies from Secretary Norton to Congress in which she 
stated her position that, ``when there is a conflict between protection 
of resources and use, conservation will be predominant,'' and I agree 
with that position.
    Question 30. As you know, the NPS management policy rewrite has 
been very controversial. One of the reasons articulated for the NPS 
management policy rewrite is the increasing demand for recreational 
uses on public lands. Do you think there is an opportunity for states 
and other agencies to play a larger role in meeting that demand? What 
type of shifts would need to be made?
    Answer. Yes, I do think there is an opportunity for states and 
other agencies to play a larger role. With a growing population, it is 
not only fitting, but necessary, for every level of government to do 
what it can to provide suitable opportunities for outdoor recreation.
    Question 31. I was appreciative of NPS' willingness to extend the 
original public comment period on the management policies. I have not 
heard any confirmation that a future draft will be published for public 
comment. In the spirit of continuing to work closely with the public 
and this Committee, and to show sunshine on the process, will you 
commit to publishing any future draft for a formal public comment 
period?
    Answer. I have learned that the National Park Service received more 
than 45,000 comments on the draft that underwent public review for more 
than four months. If confirmed, I look forward to working with NPS, 
you, and other members of the Committee as we work through this 
process.
    Question 32. As someone who has worked for years to secure adequate 
funding for the NPS, I am interested in knowing how much the management 
policy rewrite proposal has cost the Department of Interior thus far, 
and what the expected costs are for the future?
    Answer. I am not aware of what the incurred and expected costs of 
the management policy rewrite are to date, but, if confirmed, I would 
be happy to get back to you with that information.
    Question 33a. In 2004, congress passed the Federal Lands Recreation 
Enhancement Act which allows bureaus of the Departments of Interior and 
Agriculture to collect and retain entrance and other user fees. The law 
also establishes the ``America the Beautiful Pass'' as an annual 
nationwide public land use pass.
    Did the State of Idaho favor the Federal Lands Recreation 
Enhancement Act?
    Answer. This past session, the Idaho Legislature approved a Joint 
Memorial to Congress asking for the repeal of the Federal Lands 
Recreation Fee Enhancement Act. In Idaho, Joint Memorials from the 
Legislature do not come to the Governor for approval prior to being 
transmitted to Congress.
    Question 33b. How would you amend the Act if given an opportunity 
to do so?
    Answer. As a matter of sound public policy, I am firmly committed 
to the proposition that the public should be able to see tangible 
benefits resulting from the fees they pay. My understanding is that the 
Department is working cooperatively with the U.S. Department of 
Agriculture to implement the Recreation Fee Enhancement Act. While I am 
not familiar with the details of the Act, if confirmed, I look forward 
to learning more about the provisions of the recreation fee program and 
working with Congress, our involved bureaus, and other interested 
entities to ensure effective implementation of the Act.
    Question 33c. What is the status of the ``America the Beautiful 
Pass'' and will it be marketed under that or some other name?
    Answer. My understanding is that the Department is working 
cooperatively with the U.S. Department of Agriculture to implement all 
aspects of the Recreation Fee Enhancement Act, including the 
establishment of the interagency pass. I understand that the 
interagency pass is tentatively scheduled to be introduced in December 
2006.
    Question 34. The National Park Service currently receives revenue 
from federal appropriations, entrance and other recreation fees, and 
donations. The NPS has recently revised Director's Order 21 regarding 
donations and fundraising. Under your leadership, who should be allowed 
to solicit and accept donations? Is it appropriate for park 
superintendents to solicit donations?
    Answer. It is my understanding that Director's Order 21 on 
Donations and Fundraising was recently finalized and released on May 1, 
2006. I have been advised that the NPS responded to public comments 
received on the draft and that the recently released document precludes 
NPS employees from soliciting donations. I have been further advised 
that the Director has generally delegated the authority to accept 
donations below the $1 million level to the deputy, associate and 
regional directors and allows them in appropriate circumstances to re-
delegate their authority. If confirmed, I look forward to working with 
NPS leadership, members of Congress, and other interested parties on 
these important policies.
    Question 35a. The National Mall in Washington DC is a place to 
honor individuals and events that shaped the nation. Each year congress 
receives requests for more memorials and museums on the Mall. In 2003, 
Congress passed a moratorium on future construction within the core 
area of the Mall called the Reserve.
    What would you consider the best means of managing development in 
and around the National Mall?
    Answer. As I mentioned at the hearing, I am not familiar with the 
moratorium, but I have been advised that the National Park Service has 
begun a comprehensive management plan for the National Mall. If 
confirmed, I look forward to learning more about this important issue.
    Question 35b. In 2005, the National Park Service mentioned its 
intent to prepare a General Management Plan for the National Mall. What 
is the status of the plan and when can we expect to see a draft for 
public review and comment?
    Answer. I am told that the National Park Service is just initiating 
this planning effort, and that the plan will take approximately two-
three years to complete.
    Question 36. As you know, the issue of Indian gambling has come 
under increased scrutiny. I am concerned about so-called ``off 
reservation gaming'' and ``reservation shopping'' that allow tribes to 
open Class III casinos, despite opposition from local voters, in areas 
that otherwise prohibit gambling. What is your position on off 
reservation gambling and reservation shopping? What changes do you 
believe are necessary to protect local communities?
    Answer. I do not support reservation shopping, but if I am 
confirmed, the Department will continue to implement the provisions of 
Section 20 of the Indian Gaming Regulatory Act that permit off 
reservation gaming. I believe it is important that the views and 
concerns of governors and local citizens be heard and considered in 
these matters.
    It is my understanding that the Department is in the process of 
developing regulations to implement Section 20 of the Indian Gaming 
Regulatory Act. If confirmed, I will work to ensure that these 
regulations protect the interest of local communities.
    Question 37. I continue to hear of lengthy delays in the Bureau of 
Land Management's review of proposed energy projects in my state. Many 
of these projects have the potential to deliver substantial energy 
resources to meet our nation's growing demand. At a time when we see 
increased energy prices and turmoil in foreign supply, I'm sure you 
will agree with me that it is essential we produce as much energy 
domestically as possible. It was our intention to speed up the 
processing of oil and natural gas projects with the program established 
under Section 365 of the 2005 Energy Policy Act. More people have been 
hired as result of this program to expedite the permit application 
process, but we continue to hear examples of lengthy--and what appear 
to me to be unreasonable--permitting delays.
    Could I get your commitment that you will work with me and our 
delegation to speed up the processing of these important energy 
projects?
    Answer. If I am confirmed as Secretary, you have my full commitment 
to continue to streamline the processing of oil and gas permitting in 
order to meet our nation's energy demand, and the BLM will continue 
with the progress it is making in implementing the Energy Policy Act.
    Question 38. I've been talking a lot recently with the Forest 
Service about their leasing activities in the Wyoming Range. Under 
several Federal laws, it is mandated that the Forest Service conduct 
lease sales in the Bridger-Teton National Forest. I am a strong 
advocate of multiple uses on Federal land, but some of these areas 
warrant protection. The Wyoming Range is one of those areas. I worked 
with others on this issue, and was able to reduce the amount of acreage 
offered up for lease sale from 175,000 acres to 44,600. What is your 
reaction to drawing a line, so to speak, to say that there should be no 
more leasing or development in certain areas?
    Will you commit to working on this issue with me so that the Forest 
Service can focus on more pressing issues and these areas can be 
protected from future development?
    Answer. I, too, am a strong advocate of multiple use on Federal 
land, and I agree that some Federal land areas warrant special 
protection. If confirmed, I will work to ensure that the Department of 
the Interior works with the Forest Service, communities, local 
officials, interested citizens, and industry stakeholders.

  Responses of Governor Kempthorne to Questions From Senator Murkowski

                              GAS HYDRATES

    Question 39. The Administration this year actually increased 
funding for research into development of gas hydrates nationwide and in 
Alaska. I certainly support that $2 million increase in your budget and 
hope you will be able to spend that $500,000 proposed for additional 
research in gas hydrate research in Alaska. Still $5 million of 
spending is $10 million less than authorized by Congress in the Energy 
Policy Act last summer and is a fraction of the funding authorized for 
the next four years to attempt to prove the commercial potential of gas 
hydrate production. What can you tell us about the Department's and 
your personal commitment to expanded funding for gas hydrate research 
in future years?
    Answer. I am advised that the Department is committed to studying 
gas hydrate resources in an effort to determine whether they can become 
a viable resource, both from a safety standpoint and from a Federal 
leasing perspective. It is my understanding that agencies within the 
Department, especially USGS and MMS, have long studied hydrates and 
these agencies, along with BLM and the Department of Energy, are 
continuing the study of this potentially vast energy resource.

                         TRIBAL TRANSPORTATION

    Question 40. The complaint I hear most frequently from Alaska 
tribes about the Bureau of Indian Affairs involves the Indian 
Reservation Roads program. The problem is twofold--Alaska is 
shortchanged on its rightful share of funding because BIA has never 
included eligible road miles in its inventory. When the villages submit 
their inventory revisions to BIA they are rejected time and time 
again--it seems like the rules on what is satisfactory keep changing. 
And finally, when money is allocated to our villages, it is difficult 
for them to access the money for their projects so much of it remains 
unspent at the end of each fiscal year. I asked your predecessor to 
work with me on improving the performance of the Indian Reservation 
Roads program as it affects Alaska at this year's budget hearings. Will 
you work with me to fix these problems?
    Answer. Yes. If confirmed, I will work with you to improve the 
performance of the Indian Reservation Roads program to ensure it more 
fully considers the needs of Alaska Native groups.

                 ALASKA LAND TRANSFER ACCELERATION ACT

    Question 41. In 2004, Congress enacted this legislation with the 
objective of transferring the remainder of Alaska's 104 million 
entitlement to the State by the 50th anniversary of statehood. Alaska 
has patent to 90 million acres out of the 104 million. The legislation 
also envisions transfer of the remaining entitlement of Alaska Native 
Corporation and Native allotment lands by that date. Unfortunately 
appropriations have not kept pace with the challenge and this year--
once again--the President's budget proposes to DECELERATE the effort 
and we will be fighting to restore these funds. Moreover, there is no 
evidence that the pace of land transfers have quickened since the Act 
became law. What can be done to quicken the pace of this effort and 
give the people of Alaska the land for which they have been waiting?
    Answer. I am told that the Alaska Land Transfer Acceleration Act 
provided important tools to facilitate completion of land transfers to 
the State of Alaska, Alaska Native Corporations, and Alaska Natives by 
2009. If confirmed, I look forward to working with the BLM in Alaska 
and with the Alaska Congressional delegation on this issue.

                       FALLS CREEK HYDROELECTRIC

    Question 42. A private business has long been interested in 
bringing hydroelectric power to Glacier Bay National Park. Recently, 
the National Park Service and the State of Alaska have concluded a land 
exchange that will make the Falls Creek Hydroelectric project possible. 
The National Park Service has a unique opportunity to improve air 
quality in Glacier Bay National Park by entering into a long term power 
purchase arrangement with the sponsors of the Falls Creek Hydroelectric 
project. Use of hydro power would reduce or eliminate Glacier Bay 
National Park's reliance on diesel. I am wondering whether you will 
work with the Park Service to obtain the necessary funding to make this 
innovative alternative energy project a reality?
    Answer. I appreciate you bringing this to my attention, and I look 
forward to learning more about this issue and working with you on it if 
I am confirmed.

                      TERRITORIES/INSULAR AFFAIRS

    Question 43. Republic of Marshall Islands: Your predecessor last 
year attempted to convince the State Department top provide greater 
assistance to the Republic of Marshall Islands to provide assistance to 
residents affected by American nuclear testing in the Marshalls during 
the Cold War. There was a meeting held at Interior last year where 
President Note presented a specific list of Marshall concerns but there 
has been little response and no real follow up since. Coming from 
Alaska where my citizens are still affected by the aftermath of nuclear 
testing at Amchitka Island--and Alaska had only 3 bomb tests, compared 
to 57 at the Marshalls--I tend to be very sympathetic to the blight of 
the Marshallese. If confirmed would you commit to making a renewed 
effort to schedule follow up meetings and getting other federal 
agencies, including the State Department, more involved in efforts to 
meet our moral and perhaps legal obligations to the Marshall Islands?
    Answer. Thank you for bringing this to my attention. If confirmed, 
I will make sure that I am fully briefed on the Department of the 
Interior's participation in the process that you describe. Although it 
would be premature for me to commit to any specific process or 
substantive policy at this point, I will, if confirmed, make sure that 
the Department of the Interior is responsive on these issues to the 
extent that they are within the Department's domain.

  Responses of Governor Kempthorne to Questions From Senator Martinez

    Question 44. Last week, the South Florida Water Management District 
released a troubling report on the damage to the structural integrity 
of the Herbert Hoover Dike that prevents Lake Okeechobee from flooding 
south Florida. According to the report, there is a one in six chance in 
any given year that the dike could fail. A catastrophic failure of the 
dike would result in the flooding of thousands of homes, farm land, and 
would cripple the drinking water systems of south Florida.
    I realize that this is an issue that falls under the jurisdiction 
of the Army Corps of Engineers, but I am also concerned with the 
environmental impacts a catastrophic failure would have on the progress 
the state has made on Everglades restoration and the enormous federal 
investment that has been on rehabilitating this ecological treasure. As 
the head of DOI, would you make the structural integrity of the Herbert 
Hoover Dike a priority and would you communicate these concerns to the 
Corps?
    Answer. If confirmed, I would work with my colleagues in the 
Department of Army to communicate concerns about the structural 
integrity of the Herbert Hoover Dike and the importance of the dike in 
ensuring the continued preservation of the ecological integrity of the 
Everglades.
    Question 45. I have some serious concerns with the Draft Proposed 
Program for oil and gas leasing in the OCS off the coast of Florida 
(2007-2012). This proposed plan opens up huge areas of the eastern Gulf 
of Mexico, which will bring oil and gas rigs closer to Florida's 
beaches and will encroach on our critical military training. There is 
no timetable given by MMS as to when this increased expansion will end 
and what is also troubling was that Florida was not considered an 
``affected'' state in the original notice of the Draft Five Year Plan.
    When millions of acres of the Outer Continental Shelf are 
recommended to be opened 100 miles from Florida, in areas of the Gulf 
that were previously off-limits, it seems to turn logic on its head 
that Florida is not an ``affected'' state.
    Governor Kempthorne, my hope that if you are confirmed, will you 
reach out to states and officials that do not want oil and gas 
operations on their shores?
    Answer. If confirmed, I will reach out to States and all 
stakeholders, whether they support or oppose the Draft OCS Leasing 
Proposal. Such consultation is a central component to the 
Administration's approach.
    Question 46. I am encouraged that MMS continued to protect the 
``Stovepipe'' area off the coast of northwest Florida through 2012 in 
the Draft 5 Year Program.
    This sensitive area near Pensacola is on the frontline of oil and 
gas leasing in the central Gulf of Mexico and without this protection, 
production could occur less than 20 miles from our coast. I am glad 
that MMS has honored this commitment given to me by Secretary Norton.
    As the new Secretary of Interior, are you willing to keep this 
commitment as well and prevent leasing in sensitive areas off the coast 
of Florida?
    Answer. If confirmed, I will certainly honor Secretary Norton's 
commitment to you as stated in her letter to you dated March 16, 2005.
    Question 47. As Secretary, what assurances can you provide that 
areas in addition to Sale 181, in fact much closer to sensitive 
shoreline resources in Florida than Sale 181, will not also be offered 
for lease in the upcoming Five-Year OCS Leasing Program?
    Answer. If confirmed, I will certainly honor Secretary Norton's 
commitment to you on March 16, 2005. I have been informed that there 
are no additional leases beyond contemplated offered in the draft 
proposed five-year plan.
    Question 48. Governor Kempthorne, last month I visited Everglades 
National Park, Big Cypress National Preserve, and Ten Thousand Islands 
National Wildlife Reserve. I am looking forward to getting you down 
there to tour this amazing part of Florida. As you know, the 
Comprehensive Everglades Restoration Plan (CERP) is the most ambitious 
public works project in our nation's history and our most challenging.
    Should you be confirmed, will you continue the commitment and 
prioritization at DOI with restoring the Everglades to its historic 
sheet flow?
    Answer. If confirmed, I will continue to make it a priority of the 
Department to restore the Everglades to its historic sheet flow.
    Question 49. Governor Kempthorne, as you are aware, there has been 
significant media attention on ``royalty forgiveness'' from a mistake 
leasing deal during the Clinton Administration. Essentially, price 
thresholds were not put on leases that would require oil companies to 
pay royalties when the companies were making substantial profits.
    How many of the OCS tracts to be offered under Draft Proposed Plan 
in the Lease Sale 181 area will be subject to MMS ``royalty 
forgiveness'' of various kinds?
    Answer. It is my understanding that, except where specified in law 
or regulation, the royalty terms and conditions for proposed leases are 
determined in the process leading up to each individual lease sale. If 
confirmed, I will be committed to ensuring that there are appropriate 
price thresholds as allowed by law.
    Question 50. In October, I joined with several of my Senate 
colleagues including Senator Alexander, expressing our concern with the 
pace of the re-write of management policies for our National Parks. 
Considering that the management policies of the NPS have been rewritten 
under the Reagan and most recently the Clinton Administration, do you 
feel that it is time that these policies be changed?
    Answer. As I mentioned during the hearing, I do feel that periodic 
evaluations of an agency's policies and practices can be a healthy and 
productive undertaking. It is my understanding that the last policy 
rewrite was done prior to September 11, 2001, and that these new 
proposed policies reflect changes such as security measures for icons, 
border security, and management efficiencies. While I am not familiar 
with the details of the NPS Management Policies, if confirmed, I look 
forward to learning more about this very important matter.
    Question 51. Several of my constituents have raised concerns with 
sale of public land to meet budget shortfalls. The Administration, for 
example, has recommended the sale of nearly 1,000 acres of the Ocala 
National Forest in Florida to help pay for the shortfall in a rural 
schools program.
    Given your experience as a Western Governor, a state where the 
federal government is often the largest property owner in your 
counties, how can we overcome this challenge?
    Answer. As I stated at my confirmation hearing, I do not support 
the sale of public land when the purpose of such sales is purely for 
deficit reduction or to cover operating expenses. However, I feel that 
there are times when the sale of public lands is in the best interest 
of the taxpayer, if those lands do not have resource values and are 
isolated and are either difficult or uneconomic to manage. The growing 
fiscal challenges faced by rural communities are something I take very 
seriously. If confirmed, I will look forward to working with you and 
other Member of Congress in finding ways to address this growing 
challenge.
    If confirmed, I will direct staff to inform the U.S. Forest 
Service, which is part of the Department of Agriculture, of your 
concerns about the Ocala National Forest.

     Response of Governor Kempthorne to Question From Senator Burns

    Question 52. The upper third of the Big Hole River is home to the 
last remaining native fluvial population of Arctic grayling in the 
lower 48 states. In 2004, the Fish and Wildlife Service elevated the 
status of grayling under the Endangered Species Act to the highest 
priority a species can have short of actual listing. Such a listing 
would result in costs to ranching communities in the area. Last year, 
the Fish and Wildlife Service completed a Candidate Conservation 
Agreement with Assurances (CCAA) whereby landowners agree to voluntary 
site-specific restoration projects to attempt to address all of the 
threats to grayling. The cost of implementing the projects necessary to 
restore the upper basin is huge (approximately $11 million total). Will 
you include funding for the Big Hole River Grayling Restoration Project 
in your FY 2008 budget request?
    Answer. If confirmed, I look forward to engaging in the FY 08 
budget process. Assisting in formulating the President's budget request 
will require careful decisions regarding the best use of our resources. 
I will take funding for the Big Hole River Grayling Restoration Project 
under consideration when formulating the Department of the Interior's 
FY 08 budget request.

     Response of Governor Kempthorne to Question From Senator Allen

    Question 53. Recently I introduced legislation establishing the 
Journey Through Hallowed Ground National Heritage Area, to preserve the 
heritage of the Route 15 corridor from the Charlottesville area in 
Virginia up through Maryland and Pennsylvania to Gettysburg. This area 
includes six presidential homes, thirteen locations on the National 
Historic Landmark Register, two World Heritage Sites, forty-seven 
historic districts and the largest collection of Civil War 
battlefields. The hundred and seventy-five mile corridor runs through 
ten counties in Virginia and through a region that includes the 
greatest concentration of Rural Historic Districts in the US, sites 
from colonial times, and four National Parks. As a student of history I 
believe that it is important that we preserve our national heritage for 
our children, even as we continue to grow and compete in the world 
economy. As Secretary of the Interior what role will you take in 
preserving our heritage for the next generation?
    Answer. The National Park Service is entrusted with the 
responsibility of protecting many of our nation's natural, cultural and 
historic resources for future generations. I share that vision and 
passion, and if confirmed, will work with the National Park Service and 
others to preserve our national heritage.

    Responses of Governor Kempthorne to Questions From Senator Smith

    Question 54. The federal court decision asserted that grazing in 
Wild and Scenic river corridors must ``protect and enhance'' biological 
resources in the area. However. the decision disregarded the fact that 
grazing existed long before the Wild and Scenic designation. It also 
disregarded the fact that Congress intended grazing to continue in the 
area. This decision has the potential to seriously impede grazing 
management across the West. Will you review the impacts of this 
decision and work with Congress to remedy it if needed?
    Answer. I have been informed that the issue of grazing in the 
Owyhee Wild and Scenic River corridor has been adjudicated in the 
Courts. If confirmed, as appropriate, I will be happy to review the 
details of this case and discuss this further with you.
    Question 55. I wish to thank this Administration for the 
$13,000,000 FY 07 budget request for the Savage Rapids Dam pumping 
plant and dam removal project. I have worked hard with my colleague 
from Oregon and this Administration to advance this project, and I look 
forward to working with you and the new Commissioner of the Bureau of 
Reclamation to complete it as quickly and efficiently as possible.
    I remain deeply concerned about delays and cost increases as the 
Bureau moves toward awarding a contract this summer. I hope that you 
can assure me and this Committee that there will be no more delays in 
this project. I also expect the Bureau to redouble its efforts to 
reduce and contain project costs.
    What is the Bureau's full capability to expend resources on this 
project in FY 07? What is the estimated cost of continuing the project 
in FY 08?
    Answer. I am informed by the Bureau of Reclamation that the 
$13,000,000 FY 07 budget request represents the amount that they have 
the capability to expend on this project. I appreciate this project's 
importance to you and, if confirmed, I will work to ensure that 
progress continues.
    Question 56. In my State of Oregon, there is a collaborative effort 
underway with great promise to resolve conflicts in a region identified 
by the Department of Interior's Water 2025 Program as an area likely to 
experience future conflict. This effort includes the State of Oregon, 
the Confederated Tribes of the Umatilla Indian Reservation and Westland 
Irrigation District.
    As Idaho's Governor and Senator, you have likely heard of the 
success of the Umatilla Basin Project Act (P.L. 100-557) passed in 1988 
which, through a bucket for bucket exchange of irrigation district 
water from the Umatilla River for Columbia River water, has restored 
salmon and steelhead to the Umatilla River. Salmon runs were once 
extinct in this river, and now their runs exceed 20,000 fish per year--
all due to this legislation. Phase III would provide the same exchange 
for the largest and last district contemplated by the legislation, 
Westland Irrigation District. Its exchange could provide as much water 
for salmon and steelhead as the entire legislation has already 
accomplished, and possibly for the consumptive needs of the 
Confederated Tribes.
    Regional water supply certainty is their goal. And the first steps 
in accomplishing this goal requires the Bureau of Reclamation to 
accelerate their Phase III engineering study for the Westland exchange 
and for the Department of Interior to appoint an Indian Water Rights 
Assessment Team to assess the claims of the Confederated Tribes.
    Oregon Governor Ted Kulongoski, Tribal Chairman Antone Minthorn and 
Westland Chairman Robert Levy have written former Secretary Norton 
calling for Reclamation to complete its study and for the appointment 
of an Assessment Team. I have cosigned a letter to Acting Secretary 
Lynn Scarlett on this subject, urging her to support these requests.
    Will the Interior Department, under your leadership, support the 
efforts of the State of Oregon, the Confederated Tribes and Westland 
Irrigation District as they bring consensus and innovative solutions to 
their water needs to the federal government?
    Answer. As Governor of Idaho I have had first hand experience with 
an innovative, consensus-based water agreement--the Snake River Water 
Rights Act of 2004. I have not had an opportunity to review the various 
water issues facing the Umatilla Basin, but, if confirmed, I am 
interested in learning more about them and working with affected 
stakeholders to identify workable solutions.
    Question 57. I am supportive of the Department's efforts to acquire 
the Barnes Ranch Property adjacent to Agency Lake in Oregon, contingent 
on the written assurances I received from the Department of the 
Interior (in response to questions for the record from Deputy Secretary 
Scarlett's nomination hearing) as to how additional water stored on the 
property would be managed. Can you tell me whether the Department 
intends to hydrologically reconnect these lands, and the adjacent 
Agency Ranch property lands, to Agency Lake? If not, what are the 
anticipated operations and maintenance costs (i.e. pumping costs) for 
inundating these lands each year? Can you tell me the status of 
interagency discussions about the integrated management of these 
properties and other adjacent federal properties? What is the 
Department doing to lower Reclamation's annual reimbursable operations 
and maintenance costs attributable to power for the Klamath Project?
    Answer. I am not familiar with the details of the property 
acquisition and the subsequent operation of the properties, nor the 
status of efforts to lower costs attributable to the project. However, 
if confirmed I will ensure that the agencies within the Department of 
the Interior work cooperatively and communicate with you to meet the 
needs of the farmers, fish, commercial fishermen, tribes, wildlife 
refuges, and other needs of the environment in a fiscally responsible 
manner.
    Question 58. In the ``O&C'' lands, which is a checkerboard land 
ownership pattern managed by the Bureau of Land Management in western 
Oregon, there is an old problem with road access. The BLM enjoys 
recordable easements across private property, while private property 
owners only possess a ``right of way'' across BLM property. BLM 
apparently lacks the statutory authority to grant recordable easements. 
This creates problems both in the sale of private land and the 
transference of access rights, as well as the possibility of ESA 
consultation on the granting of access to private lands for the 
purposes of cutting timber.
    Will you review this situation and work with Congress to determine 
in legislation is necessary to remedy the concern of private property 
owners within the O&C lands?
    Answer. I have not had an opportunity to review the access issues 
of concern to your constituents in the area of the O&C, but, if 
confirmed, I look forward to learning more about their concerns. I 
would welcome the opportunity to work with the Congress to determine an 
appropriate resolution.

  Responses of Governor Kempthorne to Questions From Senator Bingaman

                               PRIORITIES

    Question 59. The Department's FY 2007 budget request called for 
large funding increases for energy production, but significant funding 
cuts for federal land acquisition, for park maintenance and 
construction, and for state grants under the Land and Water 
Conservation Fund. Do you think your predecessor's budget request 
reflects the right balance between the Department's energy production 
and conservation missions or will you try to strike a better one?
    Answer. It is my understanding that lands administered by the 
Department provide 30 percent of America's current domestic energy 
supply. Continued environmentally responsible development of both 
renewable and nonrenewable sources on public lands is critical to 
increasing and diversifying domestic energy production. If confirmed, 
as I move forward to develop my proposals to the President for the FY 
2008 budget, I will strive to achieve a balance among the various 
missions of the Department.

                               R.S. 2477

    Question 60a. We spoke shortly after the President's announced your 
nominations about Secretary Norton's ill-advised policy on R.S. 2477 
right-of-way claims. I continue to have serious concerns about the new 
policy and its potential for validating doubtful and unmerited claims, 
for permitting states and counties to turn footpaths into highways, and 
for harming national parks and monuments. I am also troubled by the 
degree to which the new policy departs not only from the longstanding 
policy adopted by the previous Administration, but also the one 
articulated by then-Assistant Secretary Scarlett in her letter to Rep. 
Charles Taylor three years ago. Questions:
    Will you commit to not recognize R.S. 2477 claims under the new 
policy until you have had a opportunity to review it personally and to 
consult with the Committee about its implications?
    Answer. I am generally aware of the new Departmental policy on R.S. 
2477 claims and, if confirmed, I will certainly become more familiar 
with the details of that policy and how it is being implemented. I look 
forward to further discussing this issue with you and members of the 
Committee.
    Question 60b. In particular, will you work with us on a protocol 
that will give Members of Congress and the interested public adequate 
notice and a meaningful opportunity to comment before the Department 
recognizes claims under the policy?
    Answer. Communication with Members of Congress and the interested 
public is important, and if confirmed, I would be interested in 
ensuring that opportunities for notice and comment are appropriately 
provided.

                          SCIENTIFIC INTEGRITY

    Question 61. Over the past several years, there have been several 
reports that scientific studies of the Fish and Wildlife Service have 
been manipulated, suppressed, or disregarded. Will you look into these 
allegations and take steps to protect the integrity of the scientific 
work of the Department?
    Answer. If confirmed, I will work with the Director of the Fish and 
Wildlife Service to keep scientific integrity at the forefront of all 
Service activities.

                                GRAZING

    Question 62. The Bureau of Land Management's proposed grazing 
regulations would significantly limit public involvement in many 
grazing activities and management activities, including the elimination 
of public involvement in decisions involving grazing use levels, 
issuing or renewing grazing permits, or modifying the terms of a 
permit. Do you believe that public involvement needs to be curtailed in 
BLM grazing decisions? If so, why?
    Answer. I believe that engaging the public is an integral part of 
the public land management decision-making process. Grazing management 
on the public lands is no exception. I am informed that several 
opportunities for public comment and participation will remain under 
BLM's proposed grazing regulations, such as through the land use 
planning process and subsequent NEPA documentation. If confirmed, I 
will support continued public participation in the development of our 
important land management decisions.

                         COALBED METHANE STUDY

    Question 63. Section 1811 of the Energy Policy Act of 2005 requires 
the Department to enter into an arrangement with the National Academy 
of Sciences to undertake a report relating to water and coalbed methane 
production. The NAS report is due back to the Secretary and the 
Administrator of EPA within 12 months after the date of enactment of 
EPACT, and the Secretary and the Administrator are to report to 
Congress within six months after receipt of the NAS report. Can you 
provide me a time-line for carrying out this provision of the law?
    Answer. I am informed that the Director of the Bureau of Land 
Management wrote the NAS on April 24, 2006 with regard to this report 
to suggest an arrangement that could result in a report in the 
requisite time period. The BLM identified a number of studies that have 
already been undertaken and asked the NAS to review them and determine 
``if significant deficiencies exist or if other information may be 
critically needed to address the concerns expressed by Congress in the 
Act (EPACT).'' BLM is awaiting the NAS reply to determine the nature 
and extent of the arrangement needed to be responsive to this provision 
of the law.

                        OCS ROYALTY COLLECTIONS

    Question 64a. I am concerned about reported undercollections of 
royalties in deep water on the OCS.
    As I mentioned to you, on March 28, 2006, I wrote to former 
Secretary Gale Norton to inquire about what the Department plans to do 
to address this problem. When do you anticipate that I will receive a 
response?
    Answer. I have been informed by the Minerals Management Service 
(MMS) that the response to your letter is a high priority for the 
Department and you will receive it in the near future.
    Question 64b. Would you support an effort to recoup these royalty 
underpayments in an appropriate manner?
    Answer. I have been informed by MMS that the issue with deep water 
leases is not one of underpayments, but rather one of companies acting 
consistently with the terms of their lease contracts, which in 1998 and 
1999 lacked a provision that suspends royalty incentives when prices 
are high. If confirmed, I would be happy to consider any appropriate 
proposal concerning these lease contracts.
    Question 64c. Along with many of my colleagues, I have requested 
that GAO look into several aspects of the royalty management program at 
the Department to ensure that the American public is getting a fair 
return on its oil and gas resources. I also understand that the 
Department's Inspector General is investigating aspects of this matter. 
Do I have your commitment that Departmental personnel will fully 
cooperate with GAO and the IG in this effort?
    Answer. I have been informed that the Department has been fully 
cooperative with GAO and the Inspector General, as well as with 
investigations of various Congressional Committees. If confirmed, I 
assure you that the Department will continue to fully cooperate.

                           OIL & GAS LEASING

    Question 65a. How many acres of lands administered by the Forest 
Service and the BLM in states west of the hundredth meridian are 
currently under oil and gas lease? Please display by state and agency.
    Answer. I have received the following information from the BLM:

------------------------------------------------------------------------
                                        BLM             Forest Service
                               -----------------------------------------
             State               Number               Number
                                   of     Number of     of     Number of
                                 leases     acres     leases     acres
------------------------------------------------------------------------
Alaska........................      339   2,757,762        0           0
Arizona.......................       47      97,353        0           0
California....................      552     285,655       14       4,185
Colorado......................    4,393   3,818,207      440     446,204
Idaho.........................        3       2,465        0           0
Kansas........................       45      13,555      291      63,452
Montana.......................    3,001   2,850,939      627   1,208,159
Nebraska......................        2         240        0           0
Nevada........................    1,702   3,521,078       14      45,710
New Mexico....................    7,574   4,645,587      237     215,535
North Dakota..................      283     106,342    1,253     724,365
Oklahoma......................      747      93,614      191      80,277
Oregon........................       17      30,709        8      27,288
South Dakota..................      134     122,635       20      11,510
Texas.........................       10       2,235      465     357,553
Utah..........................    2,949   3,356,886      337     648,376
Washington....................      346     510,160        0           0
Wyoming.......................   16,476  12,462,729      628     416,268
                               -----------------------------------------
  Total.......................   38,620  34,678,151    4,525   4,248,882
------------------------------------------------------------------------

    Question 65b. How much acreage is under lease but not producing?
    Answer. I have received the following information from the BLM:

------------------------------------------------------------------------
                                                                 Non-
                                                   Producing   producing
                      State                          acres       acres
                                                                leased
------------------------------------------------------------------------
Alaska..........................................      67,350   2,690,412
Arizona.........................................           0      97,353
California......................................      72,992     216,848
Colorado........................................   1,380,569   2,883,842
Idaho...........................................           0       2,465
Kansas..........................................     109,649      10,550
Montana.........................................     757,679   3,301,419
Nebraska........................................       6,877       9,303
Nevada..........................................      23,954   3,542,834
New Mexico......................................   4,093,422     767,700
North Dakota....................................     311,565     519,142
Oklahoma........................................     112,136      61,755
Oregon..........................................           0      57,997
South Dakota....................................      33,377     100,768
Texas...........................................     114,229     245,559
Utah............................................     950,355   3,054,907
Washington......................................           0     510,160
Wyoming.........................................  4,109, 529   8,769,468
                                                 -----------------------
  Total.........................................  12,143,682  26,799,291
------------------------------------------------------------------------

    Question 65c. What are the reasons for this?
    Answer. I am told that there are a number of factors that could 
affect whether a lease is developed and how quickly it is developed. 
These include oil and gas market factors, whether a discovery of oil or 
gas is made in initial drilling, availability of drilling rigs, 
equipment and pipeline hookups, and delays because of litigation, among 
others.
    Question 65d. What are the estimated reserves under lands leased 
but not producing?
    Answer. Providing a sufficient answer to this question would 
require developing a work plan with a contractor that would extract the 
necessary data set to calculate reserve numbers in these non-producing 
leased lands.
    Question 65e. Please provide this same information for Federal 
submerged lands on the OCS that are leased but not producing.
    Answer. On the OCS, MMS reports that 40 million acres are under 
lease, of which about 7 million acres are currently producing leases. 
Once a lease is issued, it cannot go into production immediately. 
Companies need time to explore the acreage, and depending on what they 
find, make corporate decisions as to whether to proceed with 
development. Proposed exploration and development activities may 
undergo substantial regulatory review as well. All leases have a fixed 
term requiring that a company return the lease to the government if 
they have not begun exploration or development activities on the lease.

                            HYDO-ELECTRICITY

    Question 66a. Section 241 of the Energy Policy Act of 2005 provides 
new procedures for hydroelectric relicensing proceedings. These include 
an opportunity for an on-the-record ``trial-type'' hearing relating to 
any issues of material fact with regard to a condition under section 
4(e) of the Federal Power Act or a prescription under section 18 of the 
FPA. In addition, the EPACT provision requires that the Secretary of 
the Interior adopt alternative conditions and prescriptions proposed by 
parties to the relicensing proceeding if the conditions and 
prescriptions meet certain standards. I have been concerned that rather 
than simplifying the relicensing process, these new provisions may 
result in complications and delay and undermine protections for federal 
and tribal resources. Questions:
    How many hearings is the Department anticipating as a result of 
these new requirements?
    Answer. I have been informed that the Department has received 
approximately seven hearing requests. However, five are for projects in 
which the licensing process was well under way prior to enactment of 
the Energy Policy Act of 2005, and only two concern projects for which 
conditions or prescriptions were proposed after enactment. The 
Department believes that while it is difficult to predict future 
requests, the number of hearings will ultimately be small in total on 
an annual basis.
    Question 66b. Will you take steps to ensure that the Department and 
the resource agencies involved have adequate resources to conduct and 
participate in these hearings?
    Answer. If confirmed, I will be committed to successfully 
implementing the new process.
    Question 66c. Will you take steps to ensure that the resource 
agencies within the Department have adequate resources and personnel to 
evaluate any proposed alternative conditions and fishway prescriptions?
    Answer. If confirmed, I am committed to successfully implementing 
the new process.
    Question 66d. I understand that the Department issued joint interim 
final rules to implement the hydroelectric licensing provisions of 
EPACT on November 17, 2005, without an opportunity for public comment. 
Why was there no opportunity for public participation before the rules 
became effective? Was anyone outside the Administration consulted prior 
to publication of the rules? If so, who?
    Answer. I have been informed that the Energy Policy Act of 2005 
included direction to the three resource agencies to establish the 
rules within 90 days of enactment, which necessitated their publication 
as interim final rules. However, I understand that public comments were 
subsequently solicited on these interim final rules, and that the 
Departments committed to consider these comments and their experience 
in implementing the interim final rules in making a decision on issuing 
final rules.
    I am not aware as to whether there was any consultation with anyone 
outside the Administration prior to the publication of the rules.

                    INDIAN WATER RIGHTS SETTLEMENTS

    Question 67. During your time as Governor, you were able to secure 
federal approval of a negotiated settlement of the Nez Perce's Indian 
water rights claims in the Snake River basin. As you know, that 
settlement requires a federal contribution in excess of $120 million. 
The Administration strongly supported the Snake River settlement when 
it testified before Congress and never questioned the federal 
contribution. About that same time, the President signed into law the 
Arizona Water Rights Settlement committing approximately $2 billion for 
Indian water rights settlements in Arizona. Similarly, the 
Administration never objected to the deal. Lately, though, the 
Administration appears to be taking a different, and less constructive 
approach to Indian water rights settlements. Instead of engaging early 
with the parties, it is waiting until late in the negotiating process 
to raise policy issues. It also appears to be applying a new and 
restrictive policy in evaluating what level of federal contribution is 
appropriate to resolve tribal water rights claims. New Mexico has 3 
Indian water rights settlements pending in which Tribes have reached 
agreement with the State on a resolution of their water rights claims. 
I am interested in legislation to resolve these tribal water rights 
claims and will resist the Administration applying new standards to New 
Mexico, which it did not apply in these other settlements.
    Do you believe the Executive Branch should take an active role in 
trying to help facilitate federal Indian water rights settlements? If 
confirmed, will you personally review the policies the Administration 
is applying in the area of Indian water rights settlements, and work 
with Senator Domenici and I in trying to resolve New Mexico's pending 
settlements? The career staff have engaged of late in the Navajo San 
Juan settlement, which is much appreciated. Will you direct your senior 
staff to work with our staffs on these matters so that we can get some 
constructive engagement from the Department at the highest levels?
    Answer. If confirmed, I will work with you and Senator Domenici 
toward a resolution of the proposed settlements in New Mexico and the 
other Western States. I am pleased that career staff are engaged and 
will assure their continued participation and that of senior level 
policy makers in the Department.
    Question 68. Another disturbing trend with respect to Indian water 
rights settlements is the 2007 funding cuts proposed by the President 
(24% or $4.4 million) to the BIA programs which support tribal 
participation in negotiations. Similar cuts were proposed and 
implemented in 2006, negatively affecting numerous tribes in New 
Mexico. De-funding the negotiation process will lead to more litigation 
and divisiveness in the west. This will effect not only Tribes, but 
also States like New Mexico which are trying to efficiently resolve 
these claims to provide the certainty needed to manage water in a 
manner that promotes local economic stability.
    Question 69. The current approach in the President's budget appears 
to promote litigation rather than negotiation as the preferred approach 
to resolving Indian water rights claims. In responding to questions 
concerning the FY 2007 budget, the Administration admitted that it is 
prioritizing litigation. Do you agree that this is the best approach to 
resolving tribal water rights claims? If confirmed, will you review 
these BIA programs and work with the Congress and the States on an 
approach that is much more constructive?
    Answer. As I stated in my opening testimony, I believe that finding 
a solution to resolving Indian and non-Indian water rights claims can 
be difficult and quite contentious, as was my experience in the Nez 
Perce settlement. I thought then that the alternative, which was 
several more years of litigation, was no alternative at all. If 
confirmed, I commit to reviewing the relevant programs and working with 
Congress and the States on resolving these issues.
    Question 70. I have an increasing concern about whether the Federal 
Government is providing an appropriate level of support to States and 
local communities to help them address the water-related challenges 
they will face over the next 50 years. The President's 2007 budget 
proposes drastic cuts to many Federal water resource programs, 
including a 13% cut to EPA's Clean & Safe Drinking Water programs: an 
11% cut to the Army Corps of Engineers water resource budget; and a 21% 
cut to USDA's water and waste disposal grant programs. At Interior, the 
Bureau of Reclamation is proposed for a 5% reduction in funding, as is 
the USGS Water Resources Program.
    The Department has been touting its Water 2025 program. Obviously, 
its principles and goals, which include (1) promoting water 
conservation, (2) improving efficiency, (3) developing new 
technologies, and (4) encouraging more cooperation, deserve support. I 
don't believe, though, that Water 2025 can overcome the significant 
cuts proposed elsewhere in the budget. Even within Reclamation, there's 
a robbing Peter to pay Paul aspect to Water 2025. While the President 
is asking for $14.5 million in the FY2007 budget for Water 2025, he's 
also seeking over $24 million in cuts to programs such as the (1) 
Science & Technology/Desalination program; (2) Water Management and 
Conservation Program; (3) Native American Affairs program; and (4) 
Water Reuse projects. These programs seem to promote the same goals as 
Water 2025.
    Given the increasing complexity of water quality and supply issues 
in the West, do you think that the cuts being proposed by the President 
represent the right trend as a matter of public policy? Notwithstanding 
the fact that water allocation and management is primarily a state and 
local responsibility, do you think the Federal government should have a 
significant role in providing assistance in this area? Shouldn't we be 
allocating significantly more resources towards water-related science 
programs so that we can better understand and manage our complex 
hydrologic systems?
    Answer. I share your interest in trying to solve the challenges 
faced by western states in meeting water related needs. During my 
career of public service, I have spent a considerable amount of time 
and energy focused on these issues. I am not familiar with the details 
of these programs as I have not had the opportunity to participate in 
the development of the Department's budget. If confirmed, I will work 
to ensure that, in these times of limited budgets, Federal funds are 
prioritized to address the most critical issues relating to western 
water needs.

                           MIDDLE RIO GRANDE

    Question 71. During your recent visit to my office, we discussed a 
letter I recently sent to the Department concerning the Middle Rio 
Grande region in New Mexico. We have an ongoing set of issues involving 
endangered species and water users in the basin. While the State and 
local parties are working cooperatively, there is still much work to do 
to ensure compliance with the Fish & Wildlife Service's biological 
opinion which controls water operations in the basin. That challenge is 
magnified by the ongoing drought, which may seriously undermine the 
ability to meet the target flows in the biological opinion beyond this 
year. The Department recently responded to my letter, but my impression 
is that it is still focused on yearly action as opposed to developing a 
long-term strategic approach to ESA compliance; species recovery; and 
protecting the interests of water users.
    Do you agree with my view that a multi-agency long-term approach is 
needed to maintain progress in the Middle Rio Grande and avoid an ESA 
versus water rights crisis? If so, will you make this effort a priority 
for your senior staff so that we might be able to get the visibility 
and resources that this long-term effort needs and deserves? I should 
note that Jennifer Gimble, who was Counselor to Secretary Norton, has 
been helpful of late--and it would be beneficial to keep her involved 
if you are committed to developing a detailed long-term plan for the 
basin.
    Answer. I believe a collaborative approach among the Federal 
agencies, the State, and the stakeholders on the river is essential to 
resolving the water supply and endangered species issues during these 
drought-ridden years on the Rio Grande and on a long-term basis. If 
confirmed, I commit to the continued involvement of senior high-level 
staff in Middle Rio Grande issues.

                             WILDLAND FIRES

    Question 72. Will you commit to take a hard look at improving the 
Department's fire use program and at implementing policies to encourage 
appropriate wildland fire use?
    Answer. It is my understanding that the Wildland fire use program 
is an important component of the Department's overall strategy to 
reduce the risk of wildland fire to communities and natural resources. 
If confirmed, I will look at the use of this important tool and its 
implementation.
    Question 73. Will you continue to be a strong advocate for 
implementing the 10-Year Comprehensive Strategy you helped craft as the 
linchpin for successful forest restoration and wildland fire 
management?
    Answer. If confirmed, I will continue the Administration's 
commitment to executing the 10-Year Comprehensive Strategy, as well as 
the Healthy Forests Initiative and the Healthy Forests Restoration Act.
    Question 74. As I understand it, the Bureau of Indian Affairs has 
made substantial cuts to the FY 2006 budget for the Mescalero Agency's 
Fire Preparedness Program despite the extreme fire danger in the area. 
What will you do to make sure that the Mescalero Agency is adequately 
prepared and staffed for this wildfire season?
    Answer. While I am unaware of the resource needs of the Mescalero 
Agency, if confirmed, I plan to use all available authorities to ensure 
that adequate resources are made available during this fire season.
    Question 75. On April 28, 2006, fourteen western senators sent a 
letter to BLM Director Clarke, Acting Interior Secretary Scarlett, and 
yourself about the Department's inability to process geothermal lease 
sales on federal lands. In the letter, they asked the Department to 
``move much more swiftly to issue the necessary regulations, interim or 
final, and finish processing the backlog of geothermal leases.'' If 
confirmed. what steps will you immediately take at the Department of 
Interior to ensure that the new regulations, interim or final are 
issued, and will allow most if not all projects currently held in 
abeyance to be permitted and operating before the placed in service 
window for the renewable energy production tax credit expires? In 
addition, what date do you expect to have the new regulations, interim 
or final, issued?
    Answer. I share your concern over the need to develop renewable 
resources, and if I am confirmed as Secretary, it will be a high 
priority for the Department of the Interior. It is my understanding 
that the BLM is expediting the publication of the final rule. This 
effort will have my full support to assure that the rule is published 
on schedule as planned late this year.

    Responses of Governor Kempthorne to Questions From Senator Akaka

                    NATIONAL PARK SERVICE CENTENNIAL

    Question 76. As you know, the National Park Service is celebrating 
its 100-year anniversary ten years from now in 2016. The last 
anniversary landmark celebrating the 50-year mark, President Truman 
launched ``Mission 66.'' which was a ten-year infrastructure 
development program in the national parks to upgrade visitor centers, 
transportation infrastructure and services to meet the post World War 
II surge in visitation.
    We have read many stories in the news recently about the budget 
strains affecting our national treasures, our national parks. The 
current financial strains in the Park Service are well documented. The 
GAO just released a report last month finding the daily operation 
budgets of every park they studied were not sufficient to meet the 
needs of those parks.
    It has been estimated that the National Park Service faces an 
annual operating shortfall of more than $600 million, hindering the 
ability of the Park Service to provide visitor services and resource 
protection throughout our 390 park units. The Congressional Research 
Service's latest estimate (in 2005) for the maintenance backlog 
plaguing our parks puts it between $4.5 and $9.7 billion.
    Do you have any thoughts on a Centennial initiative to address the 
fiscal needs of our national parks as we prepare to celebrate the 100-
year anniversary of the National Park Service?
    Answer. If confirmed, I would be happy to evaluate the need for a 
centennial initiative. Funding for park maintenance needs is vitally 
important to continuing to provide high quality visitor experiences and 
to protecting park resources. If confirmed, I plan to continue to make 
it a priority to fund maintenance backlog projects and to improve the 
processes for identifying and prioritizing maintenance needs. I also 
believe it is important to continue to be as efficient and effective as 
possible with the funds we currently have.

                            NATIVE HAWAIIANS

    Question 77. I have introduced legislation which would extend the 
federal policy of self governance and self-determination to Native 
Hawaiians. I worked very, very closely with your predecessor, Secretary 
Norton, to address any concerns that the Department had on this 
measure. As a result, we have amended the bill to address concerns she 
has raised on behalf of the Department.
    While I understand that you likely have not yet had a chance to 
review this legislation, I hope to work closely with you, because the 
bill gives the Secretary of the Interior the authority to review 
certain aspects of the process involving the reorganization of the 
Native Hawaiian governing entity. Can I get your commitment that you 
will work with me should you have any questions or concerns about this 
bill?
    Answer. Yes. If confirmed, I will happy to work with you on S. 147, 
the ``Native Hawaiian Government Reorganization Act of 2005.''
    Question 78. As you may recall, Congress enacted Public Law 103-
150, the Apology Resolution, in 1993. The Resolution apologized, on 
behalf of the United States, to Hawaii's indigenous peoples, Native 
Hawaiians, for the role of U.S. officials in the overthrow of the 
Kingdom of Hawaii, and committed to a process of reconciliation between 
the U.S. and Native Hawaiians. The Department of the Interior has 
played a significant role in the reconciliation process. In 1999, 
Secretary Babbitt appointed the Assistant Secretary of Policy, 
Management, and Budget, to be the DOI representative in this 
reconciliation process. In 2000, a report was issued by DOI and DOJ, 
with recommendations resulting from consultations with Native 
Hawaiians.
    I hope to continue to work with you and the Department of the 
Interior on the reconciliation process between Native Hawaiians and the 
United States. Despite the fact that you voted against the Apology 
Resolution, are you open to working with me to address issues of 
concern to Hawaii's indigenous peoples?
    Answer. Yes. If confirmed, I am open to working with you to address 
issues of concern to Hawaii's indigenous peoples.
    Question 79. Along those same lines, we have been successful in 
creating an Office of Native Hawaiian Relations in the Department of 
the Interior to serve as a liaison between Native Hawaiians and the 
United States. While the office is in its infancy, there is great 
potential for the benefit this office can provide to both the 
Department and to the people of Hawaii.
    I hope that I can have your commitment that we can work together to 
ensure that this office is appropriately staffed so that it can 
accomplish its mission of benefiting both the Department and the people 
of Hawaii.
    Answer. Yes. If confirmed, I am happy to work with you to ensure 
that the Office of Hawaiian Relations is appropriately staffed.

   Responses of Governor Kempthorne to Questions From Senator Dorgan

                 ASSISTANT SECRETARY FOR INDIAN AFFAIRS

    Question 80. The position of the Assistant Secretary for Indian 
Affairs has been vacant since February 2005. As you may know, this 
person exercises the authorities and responsibilities of the Secretary 
for administering laws, regulations and functions relating to Indian 
tribes and individuals, and oversees the Bureau of Indian Affairs.
    Do you plan to fill this position, and what is your timeframe for 
doing so?
    Answer. If confirmed, I will work with the White House to identify 
a qualified candidate as expeditiously as possible.
    Question 81. Since its creation in 1977, the position has been 
filled with an American Indian. Will you continue the practice of 
having an American Indian or Alaska Native serve as the Assistant 
Secretary for Indian Affairs?
    Answer. I am mindful that the position of Assistant Secretary-
Indian Affairs has been traditionally filled with a Native American. I 
will work with the White House to identify an appropriately qualified 
individual to carry out the important responsibilities of the 
Department to American Indians and Alaska Natives.

               SETTLEMENT OF COBELL V. NORTON LITIGATION

    Question 82. As you know, the Cobell v. Norton class action lawsuit 
against the United States has been ongoing for the past decade. The 
Cobell litigation has brought to light failures of the Department to 
fulfill its fiduciary obligations to hundreds of thousands of 
individual Indians with respect to their trust funds. Senior Department 
Officials have testified about how the litigation has impaired the 
Department's trust obligations to Indian tribes and how the expense of 
the litigation has impacted the budget for critical Indian programs. 
The litigation and the related accounting efforts being performed are 
costing the federal government over $100 million annually.
    Will settlement of the Cobell v. Norton litigation be a priority 
for you?
    Answer. I have been informed that the Cobell lawsuit has greatly 
affected the operations of the Department and its ability to serve 
Indian country. As such, if I am confirmed, addressing and resolving it 
is of primary importance.
    Question 83. At this point in time, do you believe Congress is the 
appropriate entity to resolve the litigation? If confirmed as 
Secretary, will you commit to working with Congress to achieve a 
legislative resolution of this litigation during the remainder of this 
congressional session?
    Answer. I recognize that this has been a longstanding issue for the 
Department and for Indian people. If confirmed, I will work with you to 
resolve this issue.
    Question 84. In addition, to the accounting claims asserted in the 
Cobell litigation, are there any ancillary claims that you believe 
should be included in a legislative settlement, i.e., failure to 
properly collect funds on behalf of Indian beneficiaries or land 
mismanagement claims?
    Answer. I am not sufficiently familiar with the details of this 
litigation or this matter more broadly to provide an answer at this 
time. If confirmed, I will make it a priority to look into this further 
and continue discussions with you and others in Congress on an 
appropriate resolution.
    Question 85. Will you commit to working with Congress and 
consulting with Indian tribes to develop meaningful reform of the trust 
management system at the Department to prevent future litigations 
against the United States, such as the Cobell litigation?
    Answer. It is my understanding that the Department is already 
working closely with Congress and tribal leaders to reform Indian trust 
management. If confirmed, I will continue this working relationship.

                 GOVERNMENT-TO-GOVERNMENT RELATIONSHIP

    Question 86. Tribes have continuously expressed the need for a 
stronger government-government relationship between the federal 
government and tribes through a defined consultation process and a 
final determination of what is entailed within the United States' trust 
relationship to Indian tribes.
    What are your thoughts on the United States' trust responsibilities 
to Indian tribes and what steps will you take, if confirmed as 
Secretary, to strengthen the United States' government-to-government 
relationship with tribes?
    Answer. The Federal government has a fiduciary trust duty and other 
responsibilities toward Indian Country. As Governor, I signed 
proclamations with eight western Indian Tribes confirming the 
importance of increased communication and cooperation between Indian 
Tribes in Idaho and neighboring states. These proclamations committed 
the state to maintain government-to-government relations with these 
Tribes and recognized the unique status of the Tribes as sovereigns 
within our Federal system. If confirmed, I will continue to actively 
work with Indian Country, the Administration, and Congress to discuss 
the interests and priorities of Tribal governments and to address their 
needs, and would welcome the opportunity to work with Congress in 
defining the trust responsibility more clearly.

                               EDUCATION

    Question 87. I understand that you are committed to the BIA mission 
of educating Indian students and making sure that they have the same 
opportunities as other students in achieving academic excellence and 
being productive members of their communities. With 2/3 of BIA schools 
failing to meet Annual Yearly Progress, it is clear that something 
needs to change to make sure that our children get the best education 
possible.
    What is your plan to improve BIA schools so that they achieve 
better academic results?
    Answer. If confirmed, educating Indian children will be an 
important priority for me at the Department. It has been my experience 
that improved academic results depend upon ensuring that a suitable 
environment exists for academic achievement. If confirmed, I plan to 
work actively with the Office of Indian Education Programs, the 
Department of Education, Indian Tribal leaders, Indian education 
organizations and Congress on activities designed to provide a suitable 
environment to foster improved academic results.
    Question 88. As you know, the performance of our students is tied 
to the condition of their school facilities. Of the 184 BIA schools, 1/
3 are in poor condition and in need of either replacement or 
significant repair. How will you address this problem?
    Answer. As I stated during my confirmation hearing, there can be no 
more important issue than educating Indian children. I agree that the 
condition of school facilities can affect student academic performance. 
I have been informed that a negotiated rulemaking team will soon be 
formed that will develop criteria to catalog the conditions of school 
facilities, recommend a formula for prioritizing replacement and repair 
needs, and identify standards for design and construction of school 
facilities. If confirmed as Secretary I plan to work with the 
negotiating team and Indian Country to ensure that school facility 
needs are being met.
    Question 89. The BIA's Johnson O'Malley Program (JOM) is the 
cornerstone for many Indian tribes in meeting the unique and 
specialized educational needs of Native students attending public 
schools. JOM provides Indian students with programs that help them stay 
in school, including remedial instruction, counseling, cultural 
programs, transportation, standardized testing fees, and small but 
important personal needs, such as eyeglasses, school supplies, and 
uniforms. Over the past few years, the Administration has cut funding 
for this program. What is your commitment to the JOM program?
    Answer. As I was not involved in formulation of the budget 
reductions, I will evaluate the Johnson O'Malley program within the 
context of the 2008 budget process in consideration of our shared goal 
for deficit reduction and education of Native American students.

                   BIA/TRIBAL BUDGET ADVISORY COUNCIL

    Question 90. The BIA participates in the BIA/Tribal Budget Advisory 
Council, which includes a number of Tribal leaders. The purpose of this 
Council is to formulate a budget that reflects Tribal needs and 
priorities that is also acceptable to the BIA. However, it is my 
understanding that many items that are agreed to by the Council, 
including the BIA, are not included in Interior's annual budget 
requests. For instance, every year the Council approves funding for 
United Tribes Technical College but yet the college has been cut out of 
the President's budget request for the past four years.
    If you are confirmed as Secretary, what will you do to ensure that 
the Department is more responsive to Tribal needs and priorities?
    Answer. I have not had the opportunity to work with the BIA/Tribal 
Budget Advisory Council. I look forward to learning more about this 
Council.

                              WATER RIGHTS

    Question 91. As you know from your own first-hand experience 
Governor Kempthorne, the resolution of outstanding Indian reserved 
water rights is a significant priority among many governmental and 
private stakeholders in the American West. For over 20 years, many of 
these stakeholders have concluded that the best way to resolve these 
reserved water rights issues is through negotiated agreements with the 
Federal government and the tribes. However, the proposed Interior 
budget for FY2007 would cut the funding that supports the tribes in 
their water rights negotiations throughout the West, which in turn will 
impact ongoing water rights negotiations.
    Do you support a Federal policy that favors negotiated settlement 
of reserved Indian water rights as opposed to litigated resolution of 
those rights?
    Answer. As I noted in my opening statement, I believe that finding 
a solution to resolving Indian and non-Indian water rights claims can 
be difficult and quite contentious, as was my experience in the Nez 
Perce settlement. I thought then that the alternative, which was 
several more years of litigation, was no alternative at all. I commit 
to reviewing the BIA programs and working with Congress and the States 
on resolving these issues.
    Question 92. It seems that there has been a shift in how the 
Department is interpreting the federal guidelines that are utilized to 
determine the federal contribution to Indian water settlements. Will 
you ensure that any shift in the Department's policies and 
interpretations of federal guidelines with respect to the settlement of 
Indian water rights is developed in consultation with Indian tribes?
    Answer. If confirmed, I will explore the Department's past 
policies, actions, and interpretation of these criteria and will 
promote discussions with Tribes on these practices.
    Question 93. Are you committed to ensuring that any settlements of 
Indian water rights (including the development of the federal 
contribution to settlements) fully take into account the 
responsibilities, duties and unique relationship that the federal 
government has with Indian tribes?
    Answer. I am committed to honoring the unique and special 
relationship between Indian tribes and the Federal government in all 
Indian issues, including the settlement of long-standing water 
disputes.

    Responses of Governor Kempthorne to Questions From Senator Wyden

                           SAVAGE RAPIDS DAM

    Question 94. I wish to thank this Administration for the 
$13,000,000 FY 07 budget request for the Savage Rapids Dam pumping 
plant and dam removal project. I have worked hard with my colleague 
from Oregon and this Administration to advance this project, and I look 
forward to working with you and the new Commissioner of the Bureau of 
Reclamation to complete it as quickly and efficiently as possible.
    I remain deeply concerned about delays and cost increases as the 
Bureau moves toward awarding a contract this summer. I hope that you 
can assure me and this Committee that there will be no more delays in 
this project. I also expect the Bureau to redouble it's efforts to 
reduce and contain project costs.
    What is the Bureau's full capability to expend resources on this 
project in FY 07?
    Answer. I am informed by the Bureau of Reclamation that the 
$13,000,000 FY 07 budget request represents the amount that they have 
the capability to expend on this project.
    Question 95. What is the estimated cost of continuing the project 
in FY 08?
    Answer. I am not familiar with this level of detail for the 
project, but will look into it if I am confirmed.

                                 FRIMA

    Question 96. Governor Kempthorne, will you support the Fish 
Restoration and Irrigation Mitigation Act program in the Fish and 
Wildlife Service that was enacted six years ago? This program has been 
very successful in keeping salmon and other fish species from getting 
tangled up in irrigation systems throughout the Northwest, Idaho and 
Montana. It shares broad bipartisan support, and yet, the Fish & 
Wildlife Service has yet to request funding for it.
    Answer. I am committed to helping conserve and restore native runs 
of salmon and other fish species in the Northwest. I will take this 
funding concern under advisement during the Fiscal Year 2008 budget 
process, if confirmed.

                       COMMUNITY FIRE ASSISTANCE

    Question 97. Secretary Norton espoused a 4 Cs philosophy--advancing 
conservation through cooperation, communication and consultation. This 
philosophy would seem to emphasize working collaboratively with non-
federal partners--especially communities at risk from wildfire. Both 
the National Fire Plan in general, and Community Wildfire. Protection 
Planning specifically, have been cited as models for cooperative 
conservation. However, current wildland fire budget priorities do not 
reflect a focus on community protection, with a 25% reduction in 
funding for community fire assistance in this year's budget, including 
the elimination of BLM's Rural Fire Assistance Program. How do you 
reconcile a 4Cs philosophy with budgets for community fire assistance 
being so drastically reduced? How would you propose to effectively work 
with communities in reducing the risk of wildland fire given these 
reductions?
    Answer. As Governor of Idaho, I formed a very effective partnership 
with both the Department of the Interior and the U.S. Forest Service, 
and I experienced first-hand the benefits of the National Fire Plan. It 
is my intention to continue working with the Forest Service, the 
states, and the local communities to implement the National Fire Plan 
and ensure the risk of wildland fire is reduced.
    I am informed that the Department is seeking to build on the 
successes of the Rural Fire Assistance program through a Ready Reserve 
program. If I am confirmed, I will support efforts to improve the 
wildland fire response capabilities of local fire departments.

    Response of Governor Kempthorne to Question From Senator Johnson

    Question 98. The position you have been nominated to is critical to 
the fulfillment of the treaty and trust responsibilities of the Federal 
Government to American Indians. Unfortunately, there have been many 
areas where the Federal Government has not lived up to those 
responsibilities.
    A policy of meaningful consultation is essential to upholding a 
government to government relationship with tribes. The tribes in my 
state have experienced, in their dealings with the Department of the 
Interior, that there is often a sharp distinction between 
`consultation', and `meaningful consultation.' Most recently, the 
tribes in South Dakota and others across the country have expressed 
serious concerns about the proposed realignment of education line 
officers within the Office of Indian Education Programs. The tribal 
concerns could have been better addressed and rectified if the BIA 
engaged in meaningful consultations and provided more exact details the 
proposed realignment. Tribal consultation sessions took place between 
the tribes and the BIA, however the tribes feel their input was largely 
ignored which heightens my concern about the growing divide between 
`consultation' and `meaningful consultation.' In the case of this 
realignment, and in moving forward with Indians Affairs policy in the 
future, will you commit to working with me to address the need for true 
`meaningful consultation' in tribal government relations?
    Answer. I recognize consultation is important and necessary for the 
Department to fulfill the ``government-to-government'' relationship 
with Indian tribes. If confirmed, I will work with you and other 
members of Congress in efforts to ensure that consultation occurs with 
tribal governments.

  Responses of Governor Kempthorne to Questions From Senator Feinstein

                  DEPARTMENT OF INTERIOR BUDGET ISSUES

    Question 99. Community fire assistance: Both the National Fire Plan 
in general, and Community Wildfire Protection Planning specifically, 
have been cited as models for cooperative conservation. However, 
current wildland fire budget priorities do not reflect a focus on 
community protection, with a 25% reduction in funding for community 
fire assistance in this year's budget, including the elimination of 
BLM's Rural Fire Assistance Program. Given these reductions, how do you 
propose to work effectively with communities to reduce the risk of 
wildland fire?
    Answer. As Governor of Idaho, I formed a very effective partnership 
with both the Department of the Interior and the U.S. Forest Service, 
and I experienced first-hand the benefits of the National Fire Plan. It 
is my intention to continue working with the Forest Service, the 
states, and the local communities to implement the National Fire Plan 
and ensure the risk of wildland fire is reduced.
    I am informed that the Department is seeking to build on the 
successes of the Rural Fire Assistance program through a Ready Reserve 
program. If I am confirmed, I will support efforts to improve the 
wildland fire response capabilities of local fire departments.
    Question 100. Stewardship vs. exploitation: Over the past five 
years there has been a distinct shift in emphasis of federal lands 
within the Department of the management Interior: from one of 
stewardship and conservation, to an emphasis on commercial 
exploitation. This shift is apparent in both the articulated policies 
of the Administration and in the budget proposals sent to Congress. Do 
you think that there is currently the right balance between 
conservation and protection of natural resources and the development 
and exploitation of those resources? What is your view as to the proper 
balance?
    Answer. As steward of one-fifth of the Nation's lands, the 
Department of the Interior has an awesome responsibility for the 
conservation, protection and restoration of natural, cultural and 
historic treasures. At the same time, lands administered by the 
Department provide 30 percent of America's current domestic energy 
supply. Continued environmentally responsible development of both 
renewable and nonrenewable sources on public lands is critical to 
increasing and diversifying domestic energy production. I believe that 
the Department can, and must, effectively fulfill both of these 
missions and, if confirmed, it will be my goal as Secretary to do so.
    Question 101. Park Service and other Interior agencies Maintenance 
backlog: The 2007 budget request for the National Park Service contains 
a large cut--nearly $85 million--for construction and maintenance in 
the parks. This is a 27% cut. I am concerned about this cut, especially 
because of the preexisting maintenance backlog in the parks (the 
Congressional Research Service estimated that the backlog totals $4.5 
to $9.7 billion). President Bush said that reducing the backlog was a 
priority, and yet the backlog remains large. I have cosponsored the 
National Park Centennial Act to try to address the backlog. What is 
your plan for addressing these maintenance backlogs?
    Answer. Though I am not aware of the details, I am aware that 
funding for park maintenance needs is vitally important to continuing 
to provide high quality visitor experiences and to protect park 
resources. If confirmed, I plan to continue to make it a priority to 
fund maintenance backlog projects and to continue to improve the 
processes for identifying and prioritizing maintenance needs. I also 
believe it is important to continue to be as efficient and effective as 
possible with the funds we currently have.

                     NPS DRAFT MANAGEMENT POLICIES

    Question 102. Organic Act: The fundamental laws, executive orders 
and regulations governing national parks have not been amended or 
changed since adoption of the 2001 Management Policies. Yet, the 
interpretation of those laws is being substantially rewritten in 
chapter 1 of the proposed revisions. What is your interpretation of the 
Organic Act and the balance between conservation and enjoyment? Will 
you strive, as Interior Secretary, to maintain the predominance of 
conservation in the mission of the National Park Service?
    Answer. It seems clear to me that our first duty is to conserve 
park resources, but we must also provide for their enjoyment and 
appropriate use. The NPS must ensure that the forms or levels of 
enjoyment that it allows would not result in impairment of park 
resources. So, in that sense I would agree with past Secretaries of the 
Interior, including most recently Secretary Norton's letter to 
Congress, affirming that the proposed updating of park management 
policies continue to hold conservation as the predominant requirement 
in the mission of the National Park Service.
    Question 103. Air quality: Air quality is a critical problem for 
several California parks, including Joshua Tree, Yosemite, and Sequoia-
Kings Canyon. For example, from 2000-2004, there were more than 315 
unhealthy ozone pollution days in Sequoia-Kings Canyon, and the 
Environmental Protection Agency formally designated these parks as 
ozone non-attainment areas.
    In the proposed management policies, ``clear skies'' in the parks 
is no longer a core park resource, but now is an ``associated 
characteristic.'' Associated characteristic is not defined or applied 
anywhere else in the policies, but it suggests something less important 
than other park resources such as soil and water. Do you view ``clear 
skies'' as a core resource of our National Parks? Will you act to 
restore this language in the proposed management policies?
    Answer. I am not familiar with the specific provisions of the NPS 
management policies. However, I do believe that keeping our park 
resources, including air quality, in good condition is important. I 
look forward to learning more about this very important matter.
    Question 104. Public comment: The comment period for these draft 
proposals ended on February 18th, 2006, yet many questions remain and 
it is unclear what the next draft will look like. In my letter to Parks 
Director Mainella, I asked that the proposed management policies be 
subject to a second public comment period, after revisions stemming 
from the first public comment period are completed.
    If you are confirmed as Interior Secretary, how do you envision 
directing the Park Service's plans to proceed with these revisions? 
Will you allow another public comment period for these draft policies 
before they are finalized?
    Answer. I have learned that the Park Service received more than 
45,000 comments on the draft that underwent public review for more than 
four months. If confirmed, I will be actively involved in this process 
to ensure that the NPS has the best management policies possible. I 
will work with you and other Members of the Committee as we move 
forward in this process.

              BLM'S NATIONAL LANDSCAPE CONSERVATION SYSTEM

    Question 105. I'd like to know your vision for protecting and 
enhancing the BLM's National Landscape Conservation System--
specifically, the 26 million acres of BLM lands and waters that are 
particularly rich in natural and historical resources, like National 
Monuments and National Conservation Areas, and are intended to be kept 
healthy, wild, and open.
    The table in BLM's 07 budget shows a $4.8 million cut in operations 
funding for the National Landscape Conservation System. This cut 
reduces System funding by 12 percent from FY06 levels to just $37.1 
million.
    The California National Monuments and Conservation Areas that are 
part of the System take a particularly hard hit with a funding cut of 
about $1 million. King Range National Conservation Area, for example, 
takes a cut of $153,000 and the budget at Headwaters Forest Reserve 
declines by $50,000. In light of acknowledged problems throughout the 
NLCS with regard to cultural resource protection, science and natural 
resources monitoring, law enforcement, and visitor management in the 
face of growing recreational use, I'm concerned.
    Please tell me how you will stop this decline in funding and 
address the conservation challenges of the NLCS.
    Answer. If confirmed, I will review the budget for this program and 
work to ensure the agency is able to carry out its functions as 
Congress has directed. I would look forward to visiting with you about 
this at that time.

                            WATER RECYCLING

    Question 106. California water districts submitted over 40 
feasibility studies on proposed water recycling projects for the Bureau 
of Reclamation's review, some in 1999 through the San Francisco Bay 
Area Regional Water Recycling Program and the rest in 2001 through the 
Southern California Comprehensive Water Reclamation and Reuse Study.
    When the Bureau had not reviewed any of these studies by 2004, the 
CALFED legislation (Public Law 108-361) required the Bureau to complete 
its review ``not later than 180 days'' after enactment on October 25, 
2004, or in April 2005. Just last month, a full year after the CALFED 
deadline had passed, and 5-7 years after the feasibility studies had 
been submitted for the Bureau's review, the Bureau transmitted a report 
to Congress.
    After all that time, the Bureau found that it lacked enough 
information to make a feasibility determination on any of the projects, 
because the water districts had not submitted enough information on 
topics such as the projects' ``research needs''. After all this delay 
and still no resolution, I am tempted to conclude that Reclamation is 
not interested in moving forward expeditiously to review water 
recycling projects.
    Do you believe that water recycling is an important part of a 
balanced water program, particularly for urban areas that are trying to 
reduce their dependence on the Colorado River?
    Answer. The reclamation and reuse of municipal and industrial 
wastewater can help meet water supply needs in many of the urban areas 
of the west. This is particularly true in the major urban centers that 
are almost solely dependent on imported supplies, such as the Colorado 
River.
    While I am not familiar with the status or review of the studies 
you mentioned, my understanding is that water recycling projects are 
predominantly planned, designed and constructed by the local non-
Federal project sponsors. These projects are also owned and operated by 
the local water agencies. For communities dependent on the Colorado 
River and anywhere water supplies are constrained, I believe water 
recycling can be part of a balanced portfolio.
    Question 107. If so, do you believe that Reclamation should 
expeditiously review feasibility reports submitted by water districts 
seeking a low federal cost-share for recycling projects of 25% of total 
costs or less? Shouldn't expeditious review be measured in months 
rather than in years?
    Answer. If confirmed, I will work to assure that Reclamation's 
review process for water recycling projects moves as expeditiously as 
possible subject to annual funding levels. I believe that Reclamation's 
stakeholders should be responded to in a timely manner.

                       R.S. 2477 POLICY--GENERAL

    Question 108. As the author of the California Desert Protection 
Act, I am particularly concerned with the impact that Secretary 
Norton's new guidance (March 22, 2006), on processing R.S. 2477 highway 
claims might have on the California desert. In the Mojave Preserve 
alone, some 2,500 miles of would-be ``roads'' have been identified for 
potential claims. Yet, there are currently only 244 miles of county-
maintained roads in the preserve.
    Twenty-one wilderness areas in the California desert and two of the 
country's most unique and beautiful National Parks, Joshua Tree and 
Death Valley, are subject to claims as well. These claims threatens to 
impact hundreds of thousands of acres of pristine desert habitat by 
undermining their wilderness character, disrupting passive recreational 
use and degrading water quality.
    Would you consider revoking Secretary Norton's policy concerning 
R.S. 2477 highway claims? If not, can you give us your assurance that 
National Parks, Wildlife Refuges, National Monuments, Wilderness areas, 
and wilderness study areas will not be subject to R.S. 2477 claims?
    Answer. As I noted earlier, I am generally aware of this policy 
and, if confirmed, I will certainly become more familiar with it. I 
believe we have a duty and an obligation to protect Federal lands, 
particularly in our National Parks, Wildlife Refuges, National 
Monuments, and wilderness areas. I do not believe I can guarantee what 
areas will be subject to claims from third parties, but I firmly 
believe that, as stewards of the Public Lands, the Department and its 
bureaus have a right and a duty to protect the surrounding and 
underlying lands they manage.

              DETERMINING THE VALIDITY OF R.S. 2477 CLAIMS

    Question 109. What evidence will be sufficient to show continuous 
public use? What requirements, in addition to continuous public use, 
will be required to determine validity of an R.S. 2477 claim? Will the 
agency involve the public in any way in the development of its legal 
analysis?
    Answer. As I noted earlier, I am generally aware of the 
Department's new policy on R.S. 2477 claims; if confirmed, I will 
certainly become more familiar both with that policy and with the way 
it is being implemented. It is my understanding that the Tenth Circuit 
made it clear that the BLM cannot determine the ultimate validity of 
these claims, but I can commit to you that I believe we should involve 
the public in these matters. I look forward to discussing this matter 
with you at that time.

               NON-BINDING ADMINISTRATIVE DETERMINATIONS

    Question 110. Under what circumstances will the agency make a non-
binding administrative determination? Will the agency comply with NEPA 
(and other key federal laws) prior to issuing a determination? How will 
the agency seek public comment? How long will the public have to 
comment on each determination?
    Answer. If confirmed, I will have the opportunity to become more 
familiar with these issues, including how the policy is implemented. I 
will be happy to discuss the matter with you at that time.

                      ROAD MAINTENANCE AGREEMENTS

    Question 111. How will the agency determine the status quo with 
regard to each road, road use and road maintenance? How will the public 
receive notice and have the opportunity to comment on road maintenance 
agreements? Will the public have an opportunity to appeal or otherwise 
contest an agreement? If not, why not? Will the agreement be considered 
`final agency action?' If not, why not?
    Answer. If confirmed, I will have the opportunity to become more 
familiar with these issues, including how the policy is being 
implemented. I will be happy to discuss the matter with you at that 
time.

                      IMPROVEMENT OF RIGHTS-OF-WAY

    Question 112. When the holder of a legally or administratively-
determined R.S. 2477 right-of-way across federal land proposes to 
undertake improvements beyond mere maintenance and so notifies the 
agency, how will the agency determine whether the proposed improvement 
is `reasonable and necessary?' How will the agency study the potential 
effects of such improvements? How will the agency formulate 
alternatives that serve to protect the federal lands they manage?
    Answer. I am generally aware of the Department's new policy on R.S. 
2477 claims; if confirmed, I will certainly become more familiar both 
with that policy and with the way it is being implemented. I am 
informed that the determination of what constitutes reasonable and 
necessary depends upon state law. However, I am not aware of any law 
that would require two tracks to become multi-lane highways, and I 
would not support such a policy. I look forward to discussing this 
matter with you.

  Responses of Governor Kempthorne to Questions From Senator Cantwell

                  VALUE OF THE NATION'S NATIONAL PARKS

    Question 113. As a Northwesterner and Governor of the great state 
of Idaho I know that you appreciate the value of outdoor recreation 
both in an economic and cultural sense. The outdoors are part of the 
American experience, particularly in the west. Would you agree with me 
that when visiting the National Parks visitors expect a different 
quality of experience than they do when visiting other public lands? 
Can you please describe what that expected experience might be and how 
you would work with the Park's Service to help visitors achieve it?
    Answer. Each national park unit has a different mission and purpose 
and provides opportunities for all people to form their own 
intellectual, emotional, and physical connections to the meanings and 
values found in a particular park's story. I look forward to working 
with the NPS to improve the opportunities to provide unique, enjoyable, 
educational, and inspirational experiences for all people. Effective 
interpretive and educational programs facilitate these opportunities, 
encourage the development of a personal stewardship ethic, and broaden 
public support for preserving park resources for future generations.
    Question 114. Can you please describe your insights on how the 
National Park System might be different from other federal lands?
    Answer. Each national park unit has a different mission and purpose 
and provides opportunities for all people to form their own 
intellectual, emotional, and physical connections to the meanings and 
values found in a particular park's story. I look forward to working 
with the NPS to improve the opportunities to provide unique, enjoyable, 
educational, and inspirational experiences for all people. Effective 
interpretive and educational programs, facilitate these opportunities, 
encourage the development of a personal stewardship ethic, and broaden 
public support for preserving park resources for future generations. 
Other federal lands have their own unique values and resources. If 
confirmed, I look forward to learning more about the important missions 
of the various bureaus within the Department.
    Question 115. The Parks Service's mission, as spelled out in their 
1916 charter, is ``to conserve the scenery and the natural historic 
objects and wildlife therein and to provide for the enjoyment of the 
same in such manner and by such means as will leave them unimpaired for 
the enjoyment of future generations''. Do you agree that this mission 
statement is still relevant today? If no, what is the Primary Mission 
of the National Parks in your mind? How should the Parks Service best 
carry out their mission?
    Answer. I have been made aware of correspondence on the NPS 
Management Policies from Secretary Norton in which she stated her 
position that, ``when there is a conflict between protection of 
resources and use, conservation will be predominant,'' and I agree with 
that position.
    Question 116. As you know, the Department of the Interior has 
proposed a controversial rewrite of its management policies just five 
years after the last such update. These updates are typically completed 
every ten years and many people, myself included, have questioned the 
usefulness of the current process. Do you agree with the new draft of 
the rewrite that recreational uses, such as snowmobiling, ATV use, jet 
skis, and increased commercial activity should be elevated over the 
Park's traditional conservation mission that has been in place since 
its 1916 charter?
    Answer. While I am not familiar with all of the details of the NPS 
management policy, I have been made aware of correspondence on the NPS 
Management Policies from Secretary Norton in which she stated her 
position that, ``when there is a conflict between protection of 
resources and use, conservation will be predominant,'' and I agree with 
that position.
    Question 117. Is the Management Policy rewrite process, so soon 
after the last, a wise use of the Park's resources, especially given 
FY2007 cuts in the administration's budget for the NPS? How, 
specifically, will this new rewrite help the Park's Service achieve its 
mission?
    Answer. As I mentioned in the hearing, I do feel that periodic 
evaluations of an agency's policies and practices can be a healthy and 
productive undertaking. It is my understanding that the last policy 
rewrite was done prior to September 11, 2001, and that these new 
proposed policies reflect changes such as security measures for icons, 
border security, and management efficiencies. Nonetheless, while I am 
not familiar with all of the details of the management policies, if 
confirmed, I look forward to learning more about this very important 
matter.
    Question 118. Governor Kempthorne, as you may know, Mount St. 
Helens in southwest Washington is currently a National Volcanic 
Monument managed by the Forest Service. I have been approached by some 
of my constituents who advocate that it should be made a National Park. 
Could you please tell me what additional resources DOI would bring to 
Mount Saint Helens as a National Park that are not currently provided 
by the Forest Service as it managed as a National Monument?
    Answer. I am not familiar with the resources the Forest Service is 
currently providing. If the National Park Service were given 
responsibility for management of Mt. St. Helens by Congress, it would 
be managed in a manner similar to all of the other 390 units of the 
National Park System.

         ROADLESS RULE AND STATE SAY IN FEDERAL LAND MANAGEMENT

    Question 119. As governor of Idaho you were supportive of the Bush 
Administration's elimination of the 2001 Roadless Area Conservation 
Rule. As you know, this rewrite created a controversial precedent that 
allowed states to decide whether to keep their last remaining pristine 
federal forest lands or to log them. Do you support this same state 
control and input over public lands managed by the Interior Department? 
Such as those under control of the National Parks Service, the Bureau 
of Lands Management, and Wildlife Refuge Areas?
    Answer. As Governor, I supported efforts to provide clarity and 
meaningful public participation in the Roadless Area process. If 
confirmed, I will continue to seek input from state and local officials 
as well as the public in any effort to make changes to the management 
principles of our public lands.
    Question 120. As I'm sure you know, in her last days as Secretary 
of the Interior, Gale Norton developed a new process for reviewing and 
recognizing right-of-way claims for highways on federal lands across 
the West, under an 1866 Mining Act statute known as R.S. 2477. The new 
policy makes it easier for states and counties to turn existing two 
tracks, trails, and old dirt roads on federal lands into roads or 
highways. In your mind, should the federal government pursue policies 
that make it easier for states and counties to grandfather old dirt 
roads, two-tracks, and cow trails into highway right of way across our 
Wilderness Areas, National Parks, and other pristine federal lands?
    Answer. Let me begin my answer by saying that my understanding of 
the Department's policy does not comport with the characterization in 
your question, and I would not support such a policy. As I noted in 
another answer above, I firmly believe that, as stewards of the Public 
Lands, the Department and its bureaus have a right and a duty to 
protect the surrounding and underlying lands they manage, particularly 
those in National Parks, National Wildlife Refuges, and wilderness 
areas, and I am committed to protecting these lands. I also understand, 
however, that while Congress repealed R.S. 2477, it did not terminate 
valid existing rights-of-way existing as of the date of its repeal and 
those rights must be lawfully respected. If confirmed I will review the 
policy and would be pleased to visit with you about it at that time.
    Question 121. What type of relationship do you think the Department 
of Interior should have with counties and states?
    Answer. As Governor, I felt that Idaho had a very positive working 
relationship with the Department of the Interior. If confirmed, I would 
ensure that the same positive relationship would continue with states 
and local governments. As a former Chairman of the National Governors 
Association, I have had the opportunity to forge close, bipartisan ties 
with many governors. It is my intent to reach out to the governors and 
local government stakeholders.
    Question 122. Do you believe Secretary Norton's new policy on R.S. 
2477 inappropriately included congressionally-designated wilderness 
areas?
    Answer. I am generally aware of the Department's new policy on R.S. 
2477; if confirmed, I will have the opportunity to become more familiar 
with that policy, including the way it is being implemented. I will be 
happy to discuss the matter with you at that time.
    Question 123. Would you agree that when Congress passes legislation 
formally designating a wilderness, the highest level of protection 
under our current system, that the area is deemed ``roadless''?
    Answer. I am aware that roads are generally inconsistent with 
wilderness and that Congress generally means to deem these areas 
``roadless.'' Existing roads that provide for non-motorized access, 
however, may not be inconsistent with wilderness designations and 
might, in fact, be used for recreation on foot or horseback.

                 LAND AND WATER CONSERVATION FUND CUTS

    Question 124. Governor Kempthorne, as you know, the President 
completely eliminated the Land and Water Conservation Fund's Stateside 
Grants Program in his FY2007 budget. Do you agree with the President on 
this--is the Stateside Grants Program so unimportant that it deserve 
total elimination in the FY2007 budget? If confirmed, will you make a 
commitment to fight to restore these funds in next year's budget 
request?
    Answer. As I stated at the hearing, I believe the Stateside Grants 
Program has been beneficial to the states. I am advised that nearly 
$3.9 billion has been appropriated through 2006 for the LWCF State 
Assistance Grant program, providing many significant resources to 
States to develop recreation programs and acquire land.
    It is my understanding that the 2007 President's Budget reflects a 
judgment to advance the shared goal of deficit reduction by giving 
priority to the core operating programs for parks, refuges, and other 
public lands.
    Question 125. Under Secretary Norton's tenure, LWCF funds have been 
increasingly used for other programs within the DOI's budget that are 
unrelated to its authorized purposes. In the FY 2007 budget, the 
administration says that LWCF is funded at $533 million. However, the 
total amount budgeted for the authorized purposes of the LWCF is only 
$85.1 million, just a little over half the level funded last year and 
more than 90% below the authorized $900 million level. The Department 
of the Interior's own budget in brief lists 15 other non-LWCF programs 
being counted as LWCF. Not to say that these other programs are not 
important, but LWCF funds need to be used for LWCF purposes. Under your 
tenure as Secretary, will you commit to returning to truth-in-budgeting 
and use LWCF funds only for their authorized purposes?
    Answer. It is my understanding that the budget proposal is 
consistent with prior Congressional action. If confirmed, and as I 
begin to work on the 2008 budget, I will work within the Administration 
to develop a balanced package of conservation funding that is funded 
within the overall context of our common goal of deficit reduction.

   ROYALTY RELIEF FOR OUTER CONTINENTAL SHELF OIL AND GAS EXPLORATION

    Question 126. Governor Kempthorne, earlier this year you may have 
seen a series of articles in the New York Times highlighting how 
provisions intended to incentive offshore oil and gas drilling in the 
Royalty Relief Act of 1995, have or will result in the loss of tens of 
billions of dollars in revenue to the federal treasury.
    Congress' interest in this issue has been intense, especially given 
record profits that oil companies have raked in over the last year 
while gas prices have spiked. On January 24 of this year, I cosigned a 
letter with Senator Bingaman and several other members of this 
Committee requesting that the GAO undertake a review of the adequacy of 
the royalty accounting and collection process. According to the draft 
report the GAO released last month, losses to the treasury over 25 
years could reach a staggering $20 billion.
    The Interior Department concluded that taxpayers will only lose out 
on $9.5 billion in royalties that oil companies should be paying over 
the next five years. Do you know why that number is so much lower than 
the GAO's? Can you please explain this to me?
    Answer. I am informed that GAO's estimates of the value associated 
with various deep water royalty relief issues are based on analyses of 
the Department's Minerals Management Service and are fully consistent 
with MMS's estimates. For two of the issues--the lack of the ``price 
threshold'' provision in the 1998 and 1999 leases and the cost 
associated with the judicial decision in the Santa Fe Snyder case--GAO 
estimates for each issue were up to $10 billion over the next 25 years.
    Question 127. Governor Kempthorne, given the current high price of 
gasoline and even higher profits that oil companies are raking in, do 
you think it a wise policy to continue to offer royalty relief for OCS 
oil and gas exploration?
    Answer. I believe that incentives to promote investments are 
appropriate when prices are low, but when prices are high the markets 
themselves provide ample incentive to invest in exploration. I have 
been informed by MMS that all leases issued with royalty relief by this 
Administration since 2001 have included price threshold provisions that 
stop the relief when prices exceed certain thresholds and, with current 
high oil and gas prices, most of these thresholds have been exceeded. 
If confirmed, I will review this issue to ensure that we are not 
providing any unnecessary incentives in light of current high prices.
    Question 128. I understand the DOI contracts from 1998 and 1999 
governing the collection of royalties from offshore oil and gas 
drilling failed to include price thresholds. Is this accurate, and if 
so please explain why this is the case and who specifically made the 
decision that led to this situation?
    Answer. I have been informed by MMS that, in the previous 
Administration, the price threshold provisions associated with deep 
water royalty relief were not included in the leases issued in 1998 and 
1999. Further, MMS has informed me that there was no explicit decision 
to do so. The provision was dropped by mistake during revisions to the 
lease documents for the 1998 sales, and the error was not discovered 
until shortly before the March 2000 lease sale. At that time, MMS 
implemented new review procedures designed to ensure that such an error 
won't happen again. I have been informed by the Department that they 
have asked the Office of the Inspector General to further investigate 
what occurred during that time period.
    Question 129. Has the DOI/MMS taken any action since 2000 that may 
have altered the amount of current or future revenues collected for the 
use of federal lands for energy extraction of any kind? If yes, please 
describe these actions in detail and estimate the impact of revenues 
from these actions.
    Answer. I have been informed by MMS that there have been a number 
of regulatory and policy changes since 2000 designed to ensure receipt 
of a fair return for the public's resources. These include:

  <bullet> Clarifications to rules governing the value of oil and gas 
        for royalty purposes--all of which have increased royalty 
        collections or been revenue neutral; and
  <bullet> Adjustments to royalty relief policies, including 
        significant reductions in the amount of relief offered deep 
        water leases.

    They also advise that all charges have been in accord with the 
authorizing statutes, as provided by Congress. The 2005 Energy Policy 
Act provided for expanded royalty relief in certain areas. I can assure 
you that, if confirmed, the Department will work to ensure this new 
relief is subject to appropriate thresholds. In addition, MMS informs 
me that, in order to encourage expeditious development of natural gas 
in areas where infrastructure already exists, the Administration 
adopted new relief for gas produced by 2009 from deep wells in shallow 
water on the OCS.
    Question 130. Governor, I can tell you straight out that drilling 
off the coasts of Washington state is an anathema to my constituents 
and I will fiercely resist any attempts to do so. In order to avoid 
that unnecessary confrontation, can you provide me and the citizens of 
Washington state assurances that you will not try and overturn the 1990 
Moratorium on drilling off the Washington coast?
    Answer. It is my understanding that the Administration supports OCS 
leasing moratoria offshore Washington. I am told there is no area 
proposed for leasing offshore Washington in the Draft Proposed Program 
for 2007-2012.

          ESA FUNDING FOR FISH AND WILDLIFE SERVICE ACTIVITIES

    Question 131. Governor Kempthorne, I often hear from my 
constituents in Washington state that the Endangered Species Act permit 
process takes too long because there are not enough Fish and Wildlife 
Service personnel available to process applications in a timely manner. 
I am concerned that many projects are delayed or never completed due to 
this lack of resources. Under Secretary Norton's tenure, DOI has 
consistently failed to ask for sufficient funds to administer the U.S. 
Fish and Wildlife Service's endangered species programs. In fact, the 
request has often cut funds from levels of the previous year, obliging 
Congress to restore them. As Secretary, what specifically will you do 
to ensure that FWS gets the operational funding and staff to meet its 
mandated responsibilities under the Endangered Species Act?
    Answer. I too have found that delay is a common problem under the 
current ESA. I am concerned that the current levels of ESA litigation 
and the associated court-ordered actions that the U.S. Fish and 
Wildlife Service is forced to take as a result are diverting fiscal 
resources away from other important mission areas, such as permit 
processing.
    I believe that if together we examine the processes required by ESA 
we can improve them, thereby speeding up decisions where appropriate 
and, perhaps more importantly, raising the confidence of all concerned 
that the right decisions are being made.
    With regard to adequate funding levels, I will work within the 
Administration and with Congress to address funding needs for 
endangered species within the context of the 2008 budget process and 
our shared deficit reduction goals.
    Question 132. Although I was not yet serving in the Senate, I 
understand that you were instrumental in brokering a compromise with 
then Senator John Chafee and Interior Secretary Bruce Babbitt to 
propose modifications to the Endangered Species Act that even some 
enviros characterized as reasonable and forward-thinking. What did you 
learn from that effort, and how do plan to use those lesson to try and 
move forward on reforming this polarizing, but extremely important, 
environmental law?
    Answer. A great deal of our success was due to the fact that I had 
good partners who were committed to finding solutions. I have fond 
memories of working with Senator Chafee and Secretary Babbitt, and I 
appreciated their willingness, along with so many others, to come to 
the table and work toward consensus. That same willingness by all 
parties is key to moving forward with any improvements to the Act.
    While there are many ideas on how the law might be changed, we can 
use what works in practice to rework what is written in the law--not to 
minimize species protection, but to maximize our combined resources, 
and not to weaken the ESA, but to strengthen our ability to truly 
achieve recovery.
    I believe a functional ESA that focuses on recovery is possible. I 
believe there are key principles that should guide our efforts. We must 
engage people in the problem so that they can help to find the 
solution. Private citizens, business and communities, especially those 
directly affected by conservation decisions, should have a seat at the 
table.
    We must also bring those people together, in a formal setting, to 
enter into agreements so they know where they stand. The process should 
not become a game of ``hide the ball.'' There should be no surprises.

                BUREAU OF INDIAN AFFAIRS MISMANAGEMENT,

    Question 133. Governor Kempthorne, when I meet with Tribal 
representatives from Washington state, I constantly hear how the Bureau 
of Indian Affairs is mismanaging tribal schools, prisons, health 
clinics, fishing access, and numerous other issues important to my 
constituents. Whether from a lack of leadership or bureaucratic 
gridlock, the BIA simply has not lived up to its obligations to Native 
Americans. Do you feel that the BIA currently meets the needs of Native 
Americans?
    Answer. If confirmed, I plan to learn more about the performance of 
BIA programs and will discuss the current status of Indian programs 
with the BIA and with tribal leaders to determine the underlying 
factors influencing relative program performance.
    Question 134. How would you ensure that it does if you were 
Secretary?
    Answer. If confirmed, I will work within the Executive Branch, with 
Congress and Indian tribal leaders to assess the performance of Indian 
programs, both those administered by the Department and those managed 
by tribes and will work to make improvements where needed.
    Question 135. What assurances can you give me, and Indian Country, 
that things will change at BIA?
    Answer. If confirmed, I will consult and work with tribal leaders, 
stakeholders, the BIA, the Executive Branch and other constituents to 
learn more about the performance of Indian Affairs' programs, and will 
work to improve performance where necessary.
    Question 136. As you know, your two predecessors were held in 
contempt of court for their inability to deal with judge's orders 
resulting from the Cobell litigation. How are planning to avoid their 
fate?
    Answer. The responsibility of trustee for tribes and individual 
Indian people is one of the most important responsibilities of the 
Secretary of the Interior. I have been advised that the Court of 
Appeals reversed the lower court's contempt finding against Secretary 
Norton. I plan to be responsive to the Court as the Cobell litigation 
continues. I will comply with all the Court's orders to the best of my 
ability.

                      TRIBAL DETENTION FACILITIES

    Question 137. As you may be aware, the Inspector General in 2004 
issued a report on the BIA Detention Facility Program entitled Neither 
Safe Nor Secure. This report stated that, ``The BIA's detention program 
is riddled with problems and is a national disgrace with many 
facilities having conditions comparable to those found in third world 
conditions.''
    I am particularly troubled by the IG's finding that detention 
program funding is haphazardly managed by the BIA. In my State, we have 
a detention facility on the Nisqually Reservation that is heralded by 
the BIA and DOJ regional offices as being supremely well operated. The 
Tribe operates it pursuant to an ISDA compact with the BIA, and yet for 
the last three years, the BIA has made the decision not to provide any 
staffing or operations funds to Tribe.
    The Tribe has sought an explanation as to why the BIA made this 
decision and to date has not been provided one. The Tribe's attorneys 
met with BIA detention staff and were given verbal assurances that the 
Nisqually facility would be put back on the funding list in FY 2007. I 
hope that I will be able to work with you to see that this will happen. 
But in the mean time I would like to know:
    How many BIA/Tribal detention facilities receive operations and 
staffing funding from the BIA?
    Answer. I am informed that there are 39 BIA-operated or owned 
detention facilities and 34 tribally-operated or owned detention 
facilities.
    Question 138. How is the decision as to which facility will receive 
funding made?
    Answer. It is my understanding that the funding decisions are based 
on staffing and operational requirements and the availability of funds.
    Question 139. How much funding does each facility receive?
    Answer. The BIA has provided a chart with this information.

------------------------------------------------------------------------
                                 Program
           Org. code              class         Agency        Allocated
------------------------------------------------------------------------
                         Direct Service Programs

BIA Central
KOL400/.......................    37730    Detention          $2,055,529
                                            Central Office
                                            Pro. Mgmt..
KOL400/.......................    37740    Detention-         $2,425,898
                                            Juvenile
                                            contracted beds.
KOL400/.......................    37750    Detention-Adult    $2,425,898
                                            contracted beds.
                                                            ------------
                                                              $6,907,325
                                                            ============

BIA
AOL400/.......................    37750    District             $277,404
                                            Corrections
                                            Office (1).
AOL410/.......................    37750    Winnebago             $64,044
                                            Detention.
AOL430/.......................    37750    Standing Rock...     $399,692
AOL440/.......................    37750    Crow Creek......     $278,906
AOL460/.......................    37750    Turtle Mountain.     $318,395
AOL470/.......................    37750    Ft. Totten           $284,185
                                            Detention.
AOL480/.......................    37740    Lower Brule.....     $498,473
AOL480/.......................    37750    Lower Brule.....   $1,072,772
                                                            ------------
                                                              $3,193,871

COL400/.......................    37750    District             $274,306
                                            Corrections
                                            Office (5).
COL410/.......................    37750    Crow Detention       $356,044
                                            Center.
COL420/.......................    37740    Northern           $1,429,306
                                            Cheyenne
                                            Detention
                                            Center.
COL420/.......................    37750    Northern             $366,008
                                            Cheyenne
                                            Detention
                                            Center.
COL430/.......................    37750    Wind River           $397,299
                                            Detention
                                            Facility.
COL450/.......................    37750    Spokane              $352,701
                                            Detention.
COL480/.......................    37750    Blackfeet            $342,830
                                            Detention.
                                                            ------------
                                                              $3,518,494

HOL400/.......................    37750    District             $274,306
                                            Corrections
                                            Office (3).
HOL410/.......................    37740    Eastern Nevada     $1,554,676
                                            Detention.
HOL410/.......................    37750    Eastern Nevada       $238,673
                                            Detention.
HOL420/.......................    37750    Western Nevada        $81,562
                                            Detention.
HOL430/.......................    37750    Uintah & Ouray       $306,868
                                            Detention.
HOL440/.......................    37750    Hopi Detention..     $668,109
HOL490/.......................    37750    Truxton Canon        $499,959
                                            Detention.
                                                            ------------
                                                              $3,624,153

MOL400/.......................    37750    District             $271,208
                                            Corrections
                                            Office (4).
MOL450/.......................    37740    Ute Mountain         $311,531
                                            Juvenile
                                            Detention.
MOL450/.......................    37750    Ute Mountain       $1,042,392
                                            Detention.
MOL460/.......................    37750    Mescalero             $14,791
                                            Detention.
                                                            ------------
                                                              $1,639,922
                                                            ------------
                                                             $11,976,440
                                                            ============

                          638 Contract Programs

KLA002/.......................    37750    Cheyenne River     $1,238,973
                                            Detention.
KLA003/.......................    37740    Oglala Sioux         $635,272
                                            Detention
                                            Juvenile.
KLA003/.......................    37750    Oglala Sioux       $2,380,617
                                            Detention Adult.
KLA004/.......................    37750    Rosebud            $1,942,977
                                            Detention.
KLA005/.......................    37750    Omaha Tribe of       $183,954
                                            Nebraska
                                            Detention.
KLA015/.......................    37750    Menominee            $363,292
                                            Detention.
KLA022/.......................    37750    Three Affiliated   $2,620,564
                                            Detention.
KLA024/.......................    37750    Sisseton-             $95,399
                                            Wahpeton.
                                                            ------------
                                                              $9,461,048

KLC001/.......................    37740    Blackfeet Tribal     $243,437
                                            Juvenile
                                            Detention.
KLC002/.......................    37750    Ft. Belknap           $77,724
                                            Community
                                            Council Deten..
KLC003/.......................    37750    Assiboine and      $1,700,579
                                            Sioux Tribe
                                            Detention
                                            (Fort).
KLC004/.......................    37740    Confederate           $98,759
                                            Tribes -
                                            Colville.
KLC004/.......................    37750    Confederated       $2,346,994
                                            Tribes -
                                            Colville Deten..
KLC006/.......................    37750    Chehalis               $7,967
                                            Business
                                            Council
                                            Detention.
KLC010/.......................    37750    Warm Springs         $201,432
                                            Detention.
KLC018/.......................    37750    Yakima Tribal        $404,092
                                            Council
                                            Detention.
KLC021/.......................    37750    Shoshone Bannock     $357,323
                                            Detention.
                                                            ------------
                                                               $5,438307

KLH001/.......................    37750    Colorado River       $273,903
                                            Indian Tribe
                                            Detention.
KLH002/.......................    37750    Ft. Mohave            $44,498
                                            Detention.
KLH003/.......................    37750    White Mountain       $630,260
                                            Apache
                                            Detention.
KLH004/.......................    37740    Tohono O'dham        $307,713
                                            Nation
                                            (Juvenile).
KLH004/.......................    37750    Tohono O'dham      $1,963,622
                                            Nation
                                            (detention).
KLH008/.......................    37750    San Carlos         $2,662,376
                                            Apache
                                            Detention.
                                                            ------------
                                                              $5,882,372

KLM005/.......................    37750    Laguna Detention     $236,997
KLM011/.......................    37750    Taos Detention..      $29,450
KLM014/.......................    37750    Zuni Detention..     $729,867
KLM016/.......................    37740    Navajo Nation      $2,623,511
                                            Juvenile
                                            Detention.
                                                            ------------
                                                              $3,619,825

KLS016/.......................    37750    MS Band of         $2,300,050
                                            Choctaw Indians
                                            Detention.
                                                            ------------
                                                             $26,701,602
                                                            ============

                        Self Governance Programs

                                           Red Lake........   $1,555,000
                                           Sault Ste. Marie   $1,151,588
                                            Chippewa.
                                           Gila River......   $1,526,538
                                           Salt River......   $1,755,791
                                           Chippewa Cree
                                            (Rocky Boy).
                                           Metlakatla......
                                           Salish &
                                            Kootenai
                                            (Flathead).
                                           Makah...........
                                           Quinault........
                                           Nisqually.......
                                             Total.........   $5,988,917
                                                            ------------
                                                             $51,574,284
------------------------------------------------------------------------

    Question 140. What is the funding distribution formula?
    Answer. I have been informed that there is no specific funding 
distribution formula used with the Indian detention program. The 
funding decisions are based on staffing and operational requirements 
and the availability of funds.
    Question 141. How many other facilities that received staffing and 
operations in the past six years do not receive funding now?
    Answer. I have been informed that the BIA has closed 7 facilities; 
four of these facilities continue to receive funding to contract for 
detention beds at other facilities, and three no longer receive 
staffing and operational funds.
    Question 142. If there are any changes, what is the reason for 
these changes?
    Answer. I have been informed that BIA decisions to close facilities 
were generally based on deteriorating physical condition, the 
availability of qualified personnel to operate the facility, or the 
availability of other cost effective alternate confinement facilities 
(i.e., contracted private facilities).

                           ALTERNATIVE ENERGY

    Question 143. Governor Kempthorne, do you support the Cape wind 
offshore wind farm project off the coast of Massachusetts? Please 
describe how the MMS plans to incorporate the EIS developed by the Army 
Corps of Engineers into its decision making under Section 388 of the 
Energy Policy Act of 2005? What is the timeline for this?
    Answer. Concerning the Cape wind project, I believe it is not 
appropriate to pre-judge the merits of the proposal before the NEPA and 
consultative processes are complete. I have been informed that MMS will 
soon commence a new NEPA process which will require about 18 months to 
complete. This new work will be in addition to and will incorporate the 
work done previously by the Corps. The tentative timeline for 
completion of the process provides for a decision in December 2007.

       ADMINISTRATIONS MISUSE OF SCIENCE TO SUPPORT THEIR ACTIONS

    Question 144. Governor Kempthorne, as I'm sure you know, the 
politicization of science has been in the news of late, with the Bush 
Administration accused of suppressing or cherry picking agency science 
in to cast doubt and uncertainty on the contribution of human causes to 
global warming. Leading scientific organizations, such as the Union of 
Concerned Scientists, have charged that the Administration has used, or 
misused, science to advocate for a whole host of other policy decisions 
including the decision to drill in ANWR. In your mind, what is the role 
of science in informing policy? When making policy decisions, does it 
make sense to ignore the scientific consensus on issues as important as 
global warming or wildlife conservation?
    Answer. If confirmed, I am committed to using the best available, 
peer-reviewed science in all natural resource management decision 
making processes.
    Question 145. If confirmed, could you please tell me how you would 
ensure that the DOI uses science in a clear, transparent way to inform 
decision making on important natural resource issues?
    Answer. If confirmed, I am committed to using the best available, 
peer-reviewed science in all natural resource management decision-
making processes.
    Question 146. Would you advocate use of the precautionary principle 
in making science-based natural resource decisions? Can you please 
explain to me what it means to take a precautionary approach? How has 
this principle been used in the past by the DOI and how will it be used 
in the future?
    Answer. The concept of ``precaution'' can be deceiving as we all 
have learned in the issue of wildfire, for example. After years of 
being ``careful'' to put out all forest fires, thinking it would 
benefit the health of the forest, we ironically increased the risk of 
catastrophic wildfire. I think the lesson is that precaution is best 
applied in being careful of what we assume. If confirmed, I am 
committed to using the best available, peer-reviewed science in all 
natural resource management decision-making processes.

                            DRILLING IN ANWR

    Question 147. Governor Kempthorne, as a Senator you were a 
proponent for drilling in ANWR. Do you believe that drilling in our few 
remaining pristine National Wildlife Refuges represents good land 
management policy?
    Answer. I believe that opening a small portion of ANWR to 
development of oil and gas is an important component of a comprehensive 
energy policy. Any development of this area should be conducted with 
state of the art technology and stringent environmental standards. 
Congress set aside this area of the Coastal Plain of ANWR for the study 
of its potential for oil and gas and possible development.
    Question 148. What distinction do you make between drilling in ANWR 
and other Wildlife Refuges? How about National Parks? Where, and how, 
do you draw the line on drilling in our most fragile of Public Lands?
    Answer. I am generally opposed to any new drilling activities on 
National Wildlife Refuges or units of the National Park System where 
the Federal Government owns the minerals. In ANWR, Congress 
specifically set this area of the Coastal Plain aside for the study of 
its potential for oil and gas development, and it turns out that the 
potential is extremely high.
    Question 149. What effect do you think drilling in the Arctic 
National Wildlife Refuge will have on today's gasoline prices?
    Answer. Knowing that the market often reacts to events, it is 
difficult to speculate at this time what impact the signal that America 
is willing to increase its domestic oil supply would have on today's 
prices.
    Question 150. If drilling were to begin today, would it have any 
affect on prices when it finally reaches the market sometime around 
2015?
    Answer. I am confident that production from ANWR will have an 
important and beneficial impact on supply and prices. The lesson of the 
current spike in energy prices is that we must develop additional 
reliable supplies of domestic energy from both renewable and non-
renewable sources.

                                  BOR

    Question 151. As Interior Secretary, the Bureau of Reclamation 
would come under your purview. In Washington State, the Bureau of 
Reclamation is undertaking studies to explore new off-stream storage 
and additional irrigation infrastructure in the Yakima and Columbia 
Basin Projects in the State of Washington. If confirmed, do you pledge 
to support the continuation and completion of the Yakima Basin Storage 
Feasibility Study and the Odessa Subarea Special Study?
    Answer. I am informed that Reclamation is presently conducting a 
feasibility study of options for additional water storage in the Yakima 
River Basin in Washington, and has initiated a special study for the 
Odessa subaquifer. If confirmed, I look forward to working 
cooperatively with you and the local sponsor to continue work on the 
studies, subject to available funding.

                        PAYMENT IN LIEU OF TAXES

    Question 152. The fiscal year 2007 administration request includes 
a request $198 million for the Payment in Lieu of Taxes Program 
(PILT)--a cut of 15% over last year's enacted level. If confirmed as 
Interior Secretary, will you support efforts to restore cuts to PILT 
funding?
    Answer. Recognizing that PILT payments compensate local governments 
for lost tax revenue and enhance their ability to partner with the 
Federal government, I am committed to working within the Administration 
and with Congress to fund the PILT program at appropriate levels within 
the overall context of our common goal of deficit reduction.

   Responses of Governor Kempthorne to Questions From Senator Salazar

                        PARK MANAGEMENT POLICIES

    Question 153. Neither Secretary Norton nor Director Mainella has 
persuaded me of the need, at this time, for the sweeping changes to the 
National Park Service management policies that were proposed by the 
Department late last year. The proposed management policies would 
replace the long-standing conservation mandate of the Park System with 
a more permissive and less protective approach to park management. And 
the new policies have not been properly vetted with the public.
    What can you say to reassure us that, if you are confirmed, this 
costly and unnecessary rewrite of the Park Service management policies 
will not continue?
    Answer. As I mentioned during the hearing, I do feel that periodic 
evaluations of an agency's policies and practices can be a healthy and 
productive undertaking. It is my understanding that the last policy 
rewrite was done prior to September 11, 2001, and that these new 
proposed policies reflect changes such as security measures for icons, 
border security, and management efficiencies. Nonetheless, while I am 
not familiar with all of the details of the management policies, if 
confirmed, I look forward to learning more about this very important 
matter.
    Question 154. Will you agree in any event to submit any new DOI 
proposal to revise the NPS management policies to the public for 
comment?
    Answer. As I mentioned during the hearing, I do feel that periodic 
evaluations of an agency's policies and practices can be a healthy and 
productive undertaking. I have learned that the Park Service received 
more than 45,000 comments on the draft that underwent public review for 
more than four months. If confirmed, I look forward to working with you 
and other members of the Committee as we move forward in this process.
    Question 155. The 1916 Organic Act and the existing management 
policies unambiguously provide that conservation of park resources is 
the National Park Service's primary purpose. The existing management 
policies state that ``when there is a conflict between conserving 
resources and values and providing for the enjoyment of them, 
conservation is to be predominant.'' Do you agree with the principle 
expressed in this statement?
    Answer. I have been made aware of correspondence on the NPS 
Management Policies from Secretary Norton in which she stated her 
position that, ``when there is a conflict between protection of 
resources and use, conservation will be predominant,'' and I agree with 
that position.

                           PUBLIC LAND SALES

    Question 156. The President's FY07 budget recommends raising $350 
million over ten years by selling off Bureau of Land Management (BLM) 
lands. This represents a fundamental shift from BLM's current policy of 
using receipts from land sales to acquire inholdings within existing 
federal land conservation systems (National Parks, National Forests, 
BLM National Monuments, etc). And, in my judgment and that of many of 
my colleagues on this committee--Republicans and Democrats alike--it is 
a particularly short-sighted change in policy.
    Most westerners treasure recreational and other opportunities on 
federal lands. The sale of a significant portion of this land would 
prohibit many of the constituents in my state of Colorado and tourists 
from other states from enjoying these special places on federal lands 
in the future.
    Do you agree that selling off BLM lands for ``deficit reduction'' 
is a good idea?
    Answer. As I stated during the hearing, I do not support the 
concept of selling public lands purely for the purpose of covering 
operational expenses or for deficit reduction. However, I believe there 
are times when the disposal of certain Federal lands, such as widely 
scattered tracts that do not have resource value and are uneconomic to 
manage, fulfills worthwhile land management objectives. Turning these 
lands back to communities can be a benefit to all Americans. If 
confirmed, I look forward to working with you on this and other land 
management issues.
    Question 157. Should the Federal Land Transaction and Facilitation 
Act be utilized to provide funds for the acquisition of private lands 
from willing sellers, to include in national parks, national forests, 
and BLM conservation areas?
    Answer. It is my understanding that your question accurately 
described the provisions of the Federal Land Transaction Facilitation 
Act, which authorizes the use of the proceeds of sales of BLM lands to 
purchase inholdings from willing sellers whose lands are surrounded by 
lands managed by BLM, the National Park Service, the Fish and Wildlife 
Service, or the Forest Service. I do believe this is the appropriate 
use of this Act. If confirmed, I will familiarize myself with the 
details and requirements of the Act and would be pleased to discuss 
this matter with you.

                       COMMUNITY FIRE ASSISTANCE

    Question 158. Secretary Norton ``4 Cs'' philosophy--advancing 
conservation through cooperation, communication and consultation--
emphasized working collaboratively with non-federal partners. The 
National Fire Plan and Community Wildfire Protection Planning have been 
cited as models for cooperative conservation. Yet, the President's FY07 
budget request would reduce funding for community fire assistance 
programs by 25% and would eliminate BLM's Rural Fire Assistance Program 
(also known as State and Local Fire Assistance).
    If confirmed, will you work with me to help rural communities in 
the West reduce the risk of wildfires?
    Answer. Yes. As Governor of Idaho, I formed a very effective 
partnership with both the Department of the Interior and the U.S. 
Forest Service, and I experienced first-hand the benefits of the 
National Fire Plan. It is my intention, if confirmed as Secretary, to 
continue working with the Forest Service, the states, and the local 
communities to implement the National Fire Plan and ensure the risk of 
wildland fire is reduced.
    Question 159. Will you commit to advocating for increased funding 
for--rather than elimination of--BLM's Rural Fire Assistance Program?
    Answer. I am informed that the Department is seeking to build on 
the successes of the Rural Fire Assistance program through a Ready 
Reserve program. If I am confirmed, I will support efforts to improve 
the wildland fire response capabilities of local fire departments.

                              AIR TANKERS

    Question 160. In 2002 during the Big Elk fire near Estes Park, 
Colorado witnessed the loss of a slurry bomber and its two crew members 
when it broke apart and crashed. Twelve days later a helicopter working 
the fire crashed killing its single pilot. Wildfire aviation is an 
important component to the response to fires that endanger local 
communities, and I am interested in seeing a capable and safe fleet in 
service. In that regard, a blue ribbon panel was convened to make 
recommendations. Members of that panel recently testified before this 
committee, and I would like to share with you their answer to a 
question that asked.
    Would you please review this Q&A and give this committee your views 
on what the Department can do to improve the wildfire aviation program?
    Answer. It is my understanding that the Departments of the Interior 
and Agriculture (Forest Service) are currently preparing a long-term 
aviation strategy to meet the aviation needs of the federal fire 
community for the next 15 to 20 years. If confirmed, I look forward to 
providing the necessary leadership to complete and implement this 
strategy.

                                  PILT

    Question 161. When I travel around the State of Colorado and meet 
with county commissioners, the Payment in Lieu of Taxes Program 
consistently ranks as their number one concern. Despite Congress' 
strong support for this program, the Department of Interior and the 
administration consistently would have us fund it not only below its 
authorized levels but at lower amount each year. Many members here 
today would like to see that program fully funded.
    Will you, as part of the FY 2008 budget process, advocate full 
funding of the PILT Program?
    Answer. I am committed to working within the Administration and 
with Congress in the 2008 budget process to fund the PILT program 
within the overall context of our common goal of deficit reduction.
    Question 162. If not, then will you complete and submit to Congress 
a plan on how the Department of Interior and the Administration plan to 
proceed toward full funding of the PILT Program within a reasonable 
period of time, without selling public lands to finance it?
    Answer. I cannot commit the Administration with regard to future 
budgets and therefore cannot submit a funding plan prior to release of 
the 2008 budget. However, if confirmed, I do plan to maintain an open 
dialogue with the Congress, states, and counties about PILT. I do not 
plan to propose the use of public lands sales revenue for this purpose.

                                  LWCF

    Question 163. During the 2000 Presidential campaign, then Governor 
George W. Bush committed to ``full funding'' for the Land and Water 
Conservation Fund at the authorized level of $900 million annually. You 
publicly endorsed that commitment in 2001. Since then, Secretary Norton 
has presided over its virtual demise. I am working hard to revitalize 
the stateside grant program of the LWCF.
    Since its inception in 1964, the LWCF stateside grants program has 
helped create thousands of parks and open space opportunities for 
Americans, using revenues from offshore oil and gas drilling. Colorado 
has benefited greatly from Congress's outstanding vision, as has Idaho, 
which has received over $37 million to fund 410 of these parks and 
recreation projects.
    Would you agree with me that the LWCF stateside grants program 
remains vital to states like ours that are growing rapidly and where 
there is a great demand for additional open space and recreation 
opportunities?
    Answer. States like Idaho have benefited greatly from the Land and 
Water Conservation Fund. In my home state, we have used those funds to 
purchase and develop parks, promote wildlife and wetlands conservation 
and protect species. It is my understanding that nearly $3.9 billion 
has been appropriated through 2006 for the LWCF State Assistance Grant 
program, providing many significant resources to States to develop 
recreation programs and acquire land. It also is my understanding that 
the 2007 President's Budget reflects the judgment made within the 
context of the shared goal of deficit reduction, with priority given to 
the core operating programs for parks, refuges, and other public lands.
    Question 164. If confirmed, can I count on you to help me restore 
this vital component of America's land conservation agenda?
    Answer. If confirmed, I will consider the Stateside Grants budget 
needs within the context of the annual budget.

                          BLM LEASING POLICIES

    Question 165. I am concerned that the administration's rush to 
lease as much acreage as possible for oil and gas exploration and 
development will have long-term negative impacts on our nation's energy 
policy. For example, the City of Grand Junction, Colorado--a pro-
business, pro-development, pro-energy town that is reaping many of the 
benefits of Colorado's natural gas industry--recently asked the BLM to 
defer a gas lease sale in the City's watershed area, to address their 
concerns about possible contamination of drinking water. Despite my 
objections and those of Congressman John Salazar, BLM proceeded with 
the lease sale without regard to the City's concerns and has yet to 
address them in a meaningful way.
    Another example is the May 11th lease sale, which includes 5,200 
acres of BLM land that was set aside in the management plan for 
mountain biking near Fruita, Colorado. Mountain biking is a major 
tourist draw to this area of Colorado, and the local communities have 
concerns about this lease sale.
    It is this type of rush to lease, despite the real concerns of a 
pro-development community, that leads me to believe that there is a 
fundamental problem with how the BLM is doing business in Colorado. 
Moreover, by making oil and gas exploration and development the number 
one priority on all BLM land, over all other uses, will permanently and 
irrevocably affect the natural heritage of the Rocky Mountain West.
    Will you commit to work with local communities and to listen to 
their legitimate concerns regarding the primacy of energy development 
over other uses of public lands?
    Answer. Working with local communities and government agencies will 
continue to be a high priority for the Department if I am confirmed as 
Secretary. It is important that local community concerns about energy 
development on DOI managed lands be considered in all land use 
management and permitting decisions and that the right decision is made 
for the right reasons.
    Question 166. In 1993, the BLM signed off on the Grand Mesa Slopes 
Management Plan with the City of Grand Junction and the Town of 
Palisade, among others, which states that BLM would recommend mineral 
withdrawals ``where municipal water facilities exist or are to be 
developed or where surface protection is deemed desirable'' only after 
consultation with the Grand Mesa Slopes advisory committee.
    Nevertheless, earlier this year BLM announced a lease sale on 
thousands of acres of land adjacent to and within the City and Town's 
watershed area without having done the required consultation. BLM is in 
the process of finalizing that lease sale now, over the City and Town's 
strong objections and in violation of the Grand Mesa Slopes Planning 
document.
    If confirmed, will you request that this lease sale be withdrawn 
until the City of Grand Junction and the Town of Palisade's concerns 
are adequately addressed and this agreement can be implemented, 
including the withdrawal of the minerals?
    Answer. I am not familiar with the details of this lease sale. 
However, if confirmed as Secretary, reviewing concerns of local 
communities regarding energy development will be a priority for me, and 
I can assure you that I will give those concerns due consideration.

                              ROAN PLATEAU

    Question 167. Current BLM oil and gas leasing and development 
policies have resulted in the BLM opening to leasing millions of acres 
of sensitive lands, including lands that many members of Congress have 
proposed for wilderness, or that have previously been protected for 
their wildlife or cultural values. In Colorado, the Roan Plateau is an 
example of one of those special places. Tens of thousands of acres of 
public lands administered by the BLM are prime wildlife habitat, home 
to rare species of plants and animals, and a refuge for Colorado 
citizens who seek solitude and renewal through hiking, hunting, fishing 
and camping. I have publicly stated that the Roan Plateau is a unique 
resource that should be preserved for future generations and should be 
``off limits'' to oil and gas development.
    In November 2004, the BLM's draft environmental impact statement of 
the results of leasing federal lands on the Roan Plateau for oil and 
gas exploration and development studied four alternatives for energy 
development, in addition to a no action alternative. The public 
submitted 74,000 comments in response to the draft EIS, overwhelmingly 
opposed to the leasing of these lands. Today, by all appearances, BLM 
is preparing to issue a final EIS and Record of Decision that would 
pursue a leasing program fundamentally different from the four 
alternatives included in the draft EIS.
    Do you agree that the public should have an opportunity to review 
and comment on the specifics of a leasing program proposed for lands 
with unique wilderness, wildlife and recreational characteristics 
before the BLM makes a final administrative decision?
    Answer. Yes. I support full public participation in programs 
managed by the Department as prescribed in the laws that govern the 
Department's activities.
    Question 168. If confirmed, can I count on you to reverse BLM 
policies that encourage the leasing of lands identified by citizens and 
the BLM itself as harboring wilderness values, and important wildlife 
and recreational values?
    Answer. If confirmed, I will support policies to ensure the public 
has the fullest possible opportunity to review and comment on leasing 
proposals, including the opportunity to identify potential wilderness, 
wildlife, and recreational values as spelled out in regulations and 
law.

                               OIL SHALE

    Question 169. Last year the Senate and the members of this 
committee worked very hard on the Energy Policy Act of 2005, (PL 109-
58). An important section of that bill (section 369) deals with the 
potential development of oil shale in the western United States. A 
bipartisan effort laid out a deliberate, thoughtful process for the 
potential development of oil shale in Colorado, Utah and Wyoming. As 
the Chairman indicated, we are pleased with the BLM's diligence in 
issuing the research and development leases.
    Will you commit to continuing the deliberate and thoughtful 
process, that Congress set forth in that legislation, regarding oil 
shale development in the West--including the completion of the 
programmatic EIS as required by Section 369(d) of the Energy Policy Act 
prior to moving forward with a commercial leasing program?
    Answer. I agree that the development of oil shale represents an 
important part of the nation's energy portfolio. I am generally aware 
of the BLM's efforts so far in issuing oil shale research and 
development leases. If confirmed, I pledge that I will support the 
deliberative public process and the oil shale programmatic 
environmental impact study, as required by the Energy Policy Act of 
2005, as the Department of the Interior moves forward with a commercial 
leasing program.
    Question 170. Will you continue to work with local communities in a 
way that considers their input, experience, and concerns with potential 
oil shale development?
    Answer. As Governor, I appreciate and value local community 
involvement. If confirmed, I will ensure that the Department of the 
Interior includes communities, local officials, interested citizens, 
and other stakeholders as the Department moves forward. I look forward 
to working with you and other Members of Congress to ensure that oil 
shale leasing in Colorado proceeds in an appropriate manner.
    Question 171. Section 369(d) of the Energy Policy Act (PL 109-58) 
requires the Secretary to develop a programmatic environmental impact 
statement on a potential commercial oil shale leasing program. 
Subsection (e) of the statutes provides:

          (e) COMMENCEMENT OF COMMERCIAL LEASING OF OIL SHALE AND TAR 
        SANDS.--Not later than 180 days after publication of the final 
        regulation required by subsection (d), the Secretary shall 
        consult with the Governors of States with significant oil shale 
        and tar sands resources on public lands, representatives of 
        local governments in such States, interested Indian tribes, and 
        other interested persons, to determine the level of support and 
        interest in the States in the development of tar sands and oil 
        shale resources. If the Secretary finds sufficient support and 
        interest exists in a State, the Secretary may conduct a lease 
        sale in that State under the commercial leasing program 
        regulations. Evidence of interest in a lease sale under this 
        subsection shall include, but not be limited to, appropriate 
        areas nominated for leasing by potential lessees and other 
        interested parties. (Emphasis added.)

    It was certainly my intention--and I believe the statutory language 
reflects this--to provide the Secretary with discretion to develop and 
execute a commercial oil shale leasing program based on the findings of 
the programmatic EIS and based on the results of the consultation with 
state and local governments and other stakeholders mandated in that 
subsection. Do you agree? If not, please explain your answer.
    Answer. Yes, I agree that the Energy Policy Act provides the 
Secretary with discretion to develop and execute a commercial oil shale 
leasing program based on the findings of the programmatic EIS and based 
on the results of consultation with state and local governments. It is 
my understanding that the FY 2007 budget requests funds for the 
programmatic EIS. If confirmed, I will work to ensure that the 
requested funds are applied to move the program forward in an 
expeditious manner.

ROAD CLAIMS ON NATIONAL PARKS, NATIONAL WILDLIFE REFUGES AND BLM LANDS 
                               (RS 2477)

    Question 172. In one of her last official acts, Secretary Norton 
authorized the Department of the Interior to enter into road 
maintenance agreements with states and local governments that will 
affect National Parks, National Monuments, National Wildlife Refuges, 
wilderness areas and public lands across the West. I have serious 
concerns about Secretary Norton's March 22 Secretarial Order. Although 
these maintenance agreements are not supposed to recognize legal rights 
to use roads under the repealed Revised Statute 2477, the public 
perception will be very different. Local governments and residents will 
inevitably see these maintenance agreements as recognition of local 
rights to use roads, trails and paths that crisscross current and 
former public land, even though many of these claims are of doubtful 
merit. Whatever the Department's intention, the public perception that 
these roads and trails are open to public use will lead to increased 
and unregulated use of these roads and trails, uses that can have very 
damaging and sometimes irreversible impacts on these special public 
lands.
    Do you agree that the 10th Circuit Court of Appeals decision in 
Southern Utah Wilderness Alliance v. BLM does not require the BLM to 
enter into road maintenance agreements with local and state governments 
for roads subject to non-adjudicated RS 2477 claims?
    Answer. It is my understanding that the 10th Circuit decision does 
not require this, but BLM has the authority to enter into agreements 
and already has many in place.
    Question 173. Do you agree that it is entirely within the 
discretion of the Department of the Interior to enter into or not to 
enter into such road maintenance agreements?
    Answer. As I stated, I am aware that the Department, through the 
Bureau of Land Management, has used road maintenance agreements for a 
number of years. I am not, however, fully versed in the details of this 
policy. If confirmed I will have the opportunity to become more 
familiar with these issues, including how the policy is being 
implemented. I will be happy to discuss the matter with you at that 
time.
    Question 174. If confirmed, will you refrain from authorizing any 
road maintenance agreements or construction projects under this policy?
    Answer. Again, if confirmed I will have the opportunity to become 
more familiar with the details of this policy, including how the policy 
is being implemented with regard to road maintenance agreements and 
construction projects. I will be happy to discuss the matter with you 
at that time.

                 NATIONAL LANDSCAPE CONSERVATION SYSTEM

    Question 175. The National Landscape Conservation System, 
established in 2000 and encompassing 26 million acres of the BLM's 
``Crown Jewel'' landscapes, has suffered from neglect during the past 
five years.
    If confirmed, will you work with me to institutionalize the NLCS 
and provide it with the financial resources it needs to fulfill its 
mission of keeping NLCS lands ``healthy, wild and open.''
    Answer. If confirmed, I will review the budget for this program and 
work to ensure the agency is able to carry out its functions as 
Congress has directed. I would look forward to visiting with you about 
this at that time.

 ARKANSAS VALLEY CONDUIT AND ANIMAS-LA PLATA (BUREAU OF RECLAMATION): 
                        ARKANSAS VALLEY CONDUIT

    Question 176. I am a cosponsor with my colleague Senator Allard of 
S. 1106. Our bill would authorize the Bureau (with a local cost-share) 
to construct a pipeline to deliver drinking water to communities south 
of Pueblo, Colorado all the way to the Kansas border. The construction 
of this pipeline is critical for these rural communities; numerous 
entities are already facing some inquiry or notice from the Colorado 
Department of Health and Environment that their drinking water does not 
meet current standards. These very small towns and water providers on 
their own cannot possibly all build facilities to meet standards, and 
so the Arkansas Valley Conduit is a regional approach to addressing 
this issue.
    Our bill is a stand alone authorization for a rural water supply 
project and would not change the statute authorizing the Fryingpan-
Arkansas Project. Nevertheless, the Bureau has informed my constituents 
as recently as a month ago that it would oppose this bill because there 
is an 80-20 federal/non-federal cost share provision.
    The Bureau's stated reason for its opposition is that this would 
set a precedent. Has the Bureau supported and implemented rural water 
supply projects that did not involve a 100 percent local cost-share 
obligation?
    Answer. I do not know whether or not the Bureau has supported the 
rural water supply projects that did not involve 100 percent local cost 
share. I understand the importance of this project to you and I look 
forward to learning more about it and working with you and Senator 
Allard on this project in the future.

                            ANIMAS-LA PLATA

    Question 177. I have been involved in the Colorado Ute Indian Water 
Rights Settlement Act and the related Animas-La Plata Project for many 
years. Like many others, I am excited that this project is well 
underway. However, I share the concerns of the project sponsors that 
not requesting funding up to the spending capability of the Bureau will 
delay the settlement implementation and increase project costs.
    Would you agree that it would be' in the best interest of all 
parties, including the taxpayers, to provide adequate funding in the 
coming three years of primary construction so that it is possible to 
complete this project in a timely and cost-effective fashion, which 
would also make room in the Bureau's budget in years ahead for other 
projects?
    Answer. I understand that the $57.4 million included in the 
President's FY 2007 budget request for Animas-La Plata Project 
(Project). Provides funding to move forward at a reasonable pace and is 
by far the single largest ongoing construction project within the 
Bureau of Reclamation. While I did not participate in the development 
of the Department's budget for FY 07, if confirmed, I will work to 
ensure the project continues to move along expeditiously within the 
context of the FY 08 budget development.

  Responses of Governor Kempthorne to Questions From Senator Menendez

    Question 178. Governor, do you think the Interior Department is 
striking the appropriate balance between conservation and resource use 
on our public lands? If not, which direction do you think the 
Department needs to move in? How do you think that balance has shifted 
since President Bush has taken office?
    Answer. The National Park Service is in the extremely challenging 
position of trying to conserve park resources while providing for the 
enjoyment of those resources in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations. If 
confirmed, I look forward to working with the National Park Service to 
meet this important challenge.
    Question 179. Do you support the administration's proposal to 
nearly eliminate the stateside grant program from the Land and Water 
Conservation Fund?
    Answer. States like Idaho have benefited greatly from the Land and 
Water Conservation Fund. In my home state, we have used those funds to 
purchase and develop parks, promote wildlife and wetlands conservation 
and protect species. It is my understanding that nearly $3.9 billion 
has been appropriated through 2006 for the LWCF State Assistance Grant 
program, providing many significant resources to States to develop 
recreation programs and acquire land. It also is my understanding that 
the 2007 President's Budget reflects a judgment made to advance the 
shared goal of deficit reduction by giving priority to the core 
operating programs for parks, refuges, and other public lands. If 
confirmed, I will work to explore alternative sources of funding.
    Question 180. The Land and Water Conservation Fund is authorized at 
$900 million annually, and is meant to be spent on land acquisition. 
But in the FY07 budget, only $83 million is proposed for land 
acquisition, while $440 million is proposed for other programs. Do you 
believe that the Land and Water Conservation Fund should be used for 
purposes other than land acquisition?
    Answer. I am informed that the Congress over the past decade has 
appropriated nearly $1.5 billion from the Land and Water Conservation 
Fund for programs other than Federal land acquisition and State 
recreation grants, including nearly $550 million in appropriations over 
the three years prior to the 2000 election. I believe this reflects 
Congress' view that a number of programs contribute to meeting 
America's conservation and recreation needs. If confirmed, as I begin 
to work on the 2008 budget, I will evaluate this approach and work 
within the Administration to develop a balanced package of conservation 
funding within the overall context of our common goal of deficit 
reduction.
    Question 181. Do you believe that the FY07 proposed budget, where 
only 16% of the LWCF money would be used for land acquisition, is the 
proper balance for the use of these funds?
    Answer. It is my understanding that the budget proposal is 
consistent with prior congressional action. If confirmed, as I begin 
work on the 2008 budget proposal I will evaluate the programs funded 
from the LWCF and work within the Administration to develop a balanced 
package of conservation funding within the overall context of our 
common goal of deficit reduction.
    Question 182. What is your position on the rewrite of the National 
Park Service Management Policies?
    Answer. As I mentioned during the hearing, I do feel that periodic 
evaluations of an agency's policies and practices can be a healthy and 
productive undertaking. It is my understanding that the last policy 
rewrite was done prior to September 11, 2001, and that these new 
proposed policies reflect changes such as security measures for icons, 
border security, and management efficiencies. Nonetheless, while I am 
not familiar with all of the details of the management policies, if 
confirmed, I look forward to learning more about this very important 
matter.
    Question 183. Do you believe that the National Park Service is 
currently striking the appropriate balance between conservation and 
recreational use?
    Answer. The National Park Service is in the extremely challenging 
position of trying to conserve park resources while providing for the 
enjoyment of those resources in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations. If 
confirmed, I look forward to working with the National Park Service to 
meet this important challenge.
    Question 184. What direction do you think the Park Service needs to 
move towards?
    Answer. I have been advised that visitor satisfaction of the 
National Parks remains high. Many challenges face our National Parks, 
and if confirmed, I look forward to working to ensure that the National 
Park Service has the tools to meet those challenges.
    Question 185. The National Park Service went through a reductive 
reorganization this past year, and has been evaluating the 
administration of the federal historic rehabilitation tax credit 
program. National Heritage Areas were moved out of the NPS general 
budget, cut in half and added to the Historic Preservation Fund as a 
competitive grant program; this will have a significant, negative 
impact on the pending Crossroads of the American Revolution Heritage 
Area in New Jersey. The budget for Preservation and Recreation Programs 
within the NPS has been cut. These recent changes suggest a rethinking 
about historic preservation's relevance within the NPS in general.
    What do you see as the future of historic preservation--and the 
federal government's responsibility to maintain our shared heritage for 
this and future generations--within the National Park Service?
    Answer. The National Park Service plays a critical role in 
preserving and interpreting America's historic heritage through its 
management of parks established to protect historic and cultural 
resources. The National Park Service also has an important role in 
administering the Historic Preservation Act, including grants to state 
historic preservation officers. I have been advised that the 
President's budget proposes a new initiative, the America's Heritage 
and Preservation Partnership Program, to provide educational, 
recreational, and conservation benefits for the American public through 
partnerships with other Federal, State, and local agencies, and non-
profit organizations. The National Park Service's mission should 
continue to be the protection of our nation's natural, cultural, and 
heritage resources designated as National Parks.
    Question 186. Are you familiar with the proposal to place a WalMart 
in Pennsville, New Jersey, within the congressionally approved 
acquisition area of the Supawna Wildlife Refuge? What are your opinions 
of this proposal?
    Answer. I am not familiar with the proposal to build a WalMart in 
this location or what role the Interior Department may have in that 
decision. If I am confirmed, I will look into this matter.
    Question 187. The National Wildlife Refuge System, established by 
Teddy Roosevelt, celebrated its centennial in 2003. The administration 
celebrated the refuge centennial by requesting a significant increase 
in refuge operations and maintenance funding. Since then, however, the 
administration's requests for refuge funding have not kept pace with 
escalating costs. The Fish and Wildlife Service now has to consolidate 
refuge management, reducing on-site staff, removing staff entirely from 
some refuges. They now have to cut biological monitoring, habitat 
management, and visitor use programs. Patuxent Research Refuge, just a 
few miles from here has cut its public use hours down to the point most 
people cannot enjoy the refuge after work or on Holidays. Refuges 
provide habitat for hundreds of endangered species, and if they cannot 
manage habitat and populations decline, that affects private landowners 
as well. As Secretary, what will you do to ensure that the Refuge 
System is adequately funded?
    Answer. I have been fortunate in my life to enjoy some wonderful 
experiences with wildlife, and I have a particular appreciation for 
bald eagles, peregrine falcons, and the other magnificent birds of 
prey. Many National Wildlife Refuges were established to provide 
habitat for these great birds, as well as for hundreds of other 
species. If confirmed, I would consider the funding needs of the Refuge 
System within the overall context of the President's FY 08 budget 
request.
    Question 188. Do you support banning ATVs from the Delaware Water 
Gap, coastal National Wildlife Refuges, and other federally-managed 
properties in New Jersey?
    Answer. From my experience as Governor of Idaho, I know there are 
many concerns that could come to bear on the use of ATV's on Federally-
managed lands. I am not aware of the details of this issue.
    However, just as with different categories of State lands in Idaho, 
I understand there are many types of Federally-managed lands, such as 
National Parks and National Wildlife Refuges, each of which can have 
unique restrictions or allowances regarding their use by the public. If 
confirmed, I will work with Congress and the public to ensure our 
policies regarding use of ATV's are appropriate for lands under the 
jurisdiction of the Department of the Interior.
    Question 189. Would you be supportive of obtaining money for the 
Highlands Conservation Act?
    Answer. I am not familiar with the Highlands Conservation Act, but 
if confirmed I look forward to learning more about it.
    Question 190. Would you encourage the participation of Federal Land 
Managers in land use decisions to protect federal lands and other 
federal resources from the effects of local and state land use and 
environmental decisions?
    Answer. I believe it is important that Federal land managers work 
cooperatively with state and local governments to reach consensus on 
issues that involve the wise use and conservation of Federal lands. In 
this way, we can avoid costly legal battles. In many areas, Congress 
has provided clear authority to protect certain land characteristics 
and values. I am committed to carrying out that clear Congressional 
direction and to the good stewardship of the Federal lands.
    Question 191. Would you support additional Wild and Scenic River 
designations in New Jersey?
    Answer. I have been advised that there is a bill pending in 
Congress, supported by the Department, to designate the Musconetcong 
River in New Jersey. If confirmed, I look forward to continuing to 
support this legislation and reviewing any other future proposed 
designations.
    Question 192. Would you support regulations that would strengthen 
protections for rivers that are already designated as Wild and Scenic, 
particularly from local and state land use and environmental decisions?
    Answer. I believe Wild and Scenic Rivers are a tremendous asset. In 
my home State of Idaho, we have approximately 350 miles of river 
designated as wild and scenic, including 79 miles of the Salmon River, 
the longest free flowing river within the boundaries of one state in 
the lower 48. While I believe the current Act includes strong language 
ensuring protection against land use and environmental decisions, it is 
always prudent to review current regulations, and I will be pleased to 
do so if confirmed.
    Question 193. Do you intend to use your authority as Secretary of 
the Interior to protect public lands from air pollution emanating from 
sources located on private land? From air pollution emanating from 
sources on other public lands?
    Answer. If confirmed, I will make certain that the Department of 
the Interior works to address issues of this nature in accordance with 
relevant law and in consultation with states and the Environmental 
Protection Agency.
    Question 194. Would DOI ever consider taking legal action against 
facilities that emit acid rain-causing pollutants into the air where 
those pollutants cause harm to federal lands and streams on those 
lands? If not, how do you intend to protect the federal lands from this 
assault?
    Answer. If confirmed, I would ensure that the Department of the 
Interior would consider all appropriate actions in cases of this 
nature.
    Question 195. What do you think the current problems are with the 
Endangered Species Act?
    Answer. Primarily, ESA needs more follow through to recover listed 
species. For example, the process of consultation with the action 
agencies has a tendency to get unreasonably delayed, taking money and 
effort away from recovery work. Even the process by which habitat 
conservation planning and conservation permits are provided to private 
parties under Section 10 has proven hugely expensive and time 
consuming, and these programs are intended to help species.
    Finally, rarely do we hear about an endangered species without 
reference to a lawsuit; while that is great for attorneys, litigation 
rarely helps the species. Too often, money that could otherwise be used 
for on-the-ground habitat restoration and recovery projects is siphoned 
away to pay for virtually never-ending legal battles. The sad truth is 
that the ESA too often leads to conflict, when instead, it should lead 
to cooperation, conservation, and ultimately, recovery of the species.
    Question 196. Do you support proposed changes to the ESA that would 
alter the current critical habitat provisions of the act? If so, why? 
If not, why not?
    Answer. I believe we need to take a holistic approach to ESA 
reform. Our ultimate goal should be to support those changes that help 
us recover species. I look forward to working with Congress to update 
and improve the ESA.
    Question 197. What do you think of the endangered species bill that 
passed the House last year? Do you support it?
    Answer. As my record reflects, as both Senator and as Governor of 
Idaho, I am committed to working to improve the Endangered Species Act. 
I am not fully aware of the details of the bill, but I will review the 
bill, and if confirmed, I will work with Congress to improve the 
ability of the ESA to recover species.
    Question 198. What is your position on regulations or changes to 
the Endangered Species Act allowing federal agencies like the Forest 
Service or Corps of Engineers to self-consult under section 7 of the 
Endangered Species Act?
    Answer. Although I am aware of the consulting requirements 
established by section 7 of the ESA, I have not had the opportunity to 
consider this particular issue. If I am confirmed as Secretary, finding 
ways to improve implementation of the ESA that support and promote 
species recovery will be a high priority.
    Question 199. How do you feel about adding new species to the 
endangered list?
    Answer. I believe that adding new species to the list may be 
necessary when all other measures have failed. However, the first 
priority should be focusing on species conservation in partnership with 
States and private landowners so that listing is not necessary.
    Think about this in terms of what happens in a hospital emergency 
room. We would never accept a health care system in which the ambulance 
delivers the patient, the emergency room takes their name and vital 
signs and then moves them to the waiting room where the never see a 
doctor. If I go to the hospital, I expect to be treated and release, 
not admitted and ignored. Unfortunately, under the ESA, that is exactly 
the system we accept.
    Moreover, some contend that the ESA has benefited listed species by 
simply preventing their extinction. Even if we're generous and assume 
this is true for many species, I still have one question: Are we 
satisfied? Listing alone doesn't ensure recovery for a species which is 
the goal of the ESA. If we are going to list a species, we should also 
be committed to its recovery and delisting.
    Question 200. Do you support the waiver of environmental laws 
pursuant to the REAL ID Act, where such waivers would allow the 
construction of border barriers and roads on DOI-administered lands?
    Answer. I believe there is a need to assess these matters on a 
case-by-case basis. If confirmed, I will work with the Department of 
Homeland Security to achieve an appropriate balance between border 
security and environmental protection.
    Question 201. In June of last year, GAO found that because the 
Bureau of Land Management had approved over three times as many oil and 
gas permits in 2004 as it had in 1999, it was having a hard time 
meeting its environmental mitigation responsibilities. As Secretary, 
would you intend to increase the amount of environmental mitigation 
work that BLM performs? Specifically, would you be willing to hire more 
people to cover environmental responsibilities?
    Answer. If confirmed as Secretary, environmental compliance will be 
a priority for me. I understand that the Energy Policy Act of 2005 
provides additional tools and funding to assure environmentally-
responsible energy development, and it is my understanding that the 
President's FY 07 budget proposes a significant increase in funding for 
monitoring. I look forward to working with the Congress to continue to 
ensure environmental compliance while providing responsible energy 
development.
    Question 202. GAO also recommended that BLM begin assessing fees 
for processing oil and gas permits. Interior agreed with the 
recommendation. Do you agree that assessing fees for permit processing 
is a good idea, and do you intend to move expeditiously to implementing 
the recommendation if confirmed?
    Answer. I agree that assessing fees can be a good idea when 
appropriate and in the public interest. If I am confirmed, I will need 
to review this specific matter more thoroughly before offering an 
opinion.
    Question 203. Governor, when it comes to comments on the 5-year-
plan, do you believe that only states adjacent to the planning area 
should be considered?
    Answer. MMS informs me that comments are actively sought from 
Governors of all coastal states during development of the 5-Year OCS 
Program. Additionally, the Department considers all comments from all 
parties submitted during the development of the 5-Year OCS Plan.
    Question 204. Will you instruct MMS to hold a public hearing in New 
Jersey when the Draft EIS comes out?
    Answer. As a governor, I understand how important it is for the 
views of your state to be heard in order to ensure that policy makers 
make more informed decisions. In the event the draft Environmental 
Impact Statement and the proposed plan include any activity on the 
Atlantic seaboard, I will commit that, if confirmed, Departmental 
personnel will work with you to ensure that a meeting is scheduled to 
hear views concerning such activity.
    Question 205. Governor, are you familiar with a bill currently in 
the House, H.R. 4318, which would end all moratoria and withdrawals on 
the outer continental shelf for gas-only leasing? Do you have an 
opinion on that bill? Do you believe that gas-only leasing is feasible?
    Answer. I am not familiar with this bill, and I have not yet had 
the opportunity to learn about the feasibility of gas-only leasing. If 
confirmed, I would be happy to further discuss the issue with you.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                       May 1, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: We strongly support 
the confirmation of Governor Dirk Kempthorne for U.S. Secretary of the 
Interior. As a colleague, we have all worked with him in a bipartisan 
manner and found him to be an individual of great intelligence, 
honesty, and integrity. Furthermore, being a Governor of a western 
state he has a vast understanding of federal lands and the federal-
state relationship in managing those lands and vital natural resources.
    We urge your committee to support Governor Kempthorne's 
confirmation and look forward to a quick vote by the Senate.
            Sincerely,
                    Governor Mike Huckabee, Arkansas; Governor Janet 
                            Napolitano, Arizona; Governor Bob Riley, 
                            Alabama; Governor Frank H. Murkowski, 
                            Alaska; Governor Togiola T.A. Tulafono, 
                            American Samoa; Governor Arnold 
                            Schwarzenegger, California; Governor Bill 
                            Owens, Colorado; Governor Ruth Ann Minner, 
                            Delaware; Governor Jeb Bush, Florida; 
                            Governor Sonny Perdue, Georgia; Governor 
                            Linda Lingle, Hawaii; Governor Mitch 
                            Daniels, Indiana; Governor Thomas J. 
                            Vilsack, Iowa; Governor Kathleen Sebelius, 
                            Kansas; Governor Ernie Fletcher, Kentucky; 
                            Governor John Baldacci, Maine; Governor 
                            Robert L. Ehrlich Jr., Maryland; Governor 
                            Mitt Romney, Massachusetts; Governor Tim 
                            Pawlenty, Minnesota; Governor Matt Blunt, 
                            Missouri; Governor Haley Barbour, 
                            Mississippi; Governor Dave Heineman, 
                            Nebraska; Governor Kenny C. Guinn, Nevada; 
                            Governor Bill Richardson, New Mexico; 
                            Governor George E. Pataki, New York; 
                            Governor John Hoeven, North Dakota; 
                            Governor Bob Taft, Ohio; Governor Brad 
                            Henry, Oklahoma; Governor Theodore 
                            Kulongoski, Oregon; Governor Donald L. 
                            Carcieri, Rhode Island; Governor Mark 
                            Sanford, South Carolina; Governor M. 
                            Michael Rounds, South Dakota; Governor Phil 
                            Bredesen, Tennessee; Governor Rick Perry, 
                            Texas; Governor John Huntsman Jr., Utah; 
                            GovernorJim Douglas, Vermont; Governor 
                            Timothy M. Kaine, Virginia; Governor 
                            Christine O. Gregoire, Washington; Governor 
                            Joe Manchin III, West Virginia; Governor 
                            Dave Freudenthal, Wyoming.
                                 ______
                                 
  Statement of Steve Guerber, State Historic Preservation Officer for 
  Idaho, and Executive Director of the Idaho State Historical Society
    On behalf of the National Conference of State Historic Preservation 
Officers, I offer this testimony in support of the confirmation of 
Governor Dirk Kempthorne as Secretary of the United States Department 
of the Interior.
    I have known Governor Kempthorne since 1986, the year we were both 
elected Mayor of our respective Idaho cities (he the Mayor of Boise and 
I the Mayor of nearby Eagle). Since then I have maintained a 
relationship while serving as CEO of the Idaho Community Foundation 
and, most recently, as Executive Director of the Idaho State Historical 
Society, an agency of state government.
    Throughout the relationship, I found an important attribute of 
Governor Kempthorne to be a desire to build coalitions in dealing with 
issues and solving problems. Although the ultimate outcome of a final 
decision was not always acceptable to all parties involved, there was 
rarely a legitimate complaint that input was not solicited or given 
consideration. (As with Congress, not everyone is likely to be happy 
with the outcome of all his future such decisions and Governor 
Kempthorne would understand that in fulfilling his duties as Secretary 
of the Interior). The ability to listen and seek compromise should 
contribute to his being a good administrator of the U.S. Department of 
the Interior.
    From the standpoint of historic preservation, the National Council 
of State Historic Preservation Officers believes Governor Kempthorne is 
well qualified to assume the responsibilities of the Secretary of the 
Interior and, more specifically, to administer the program created 40 
years ago by the National Historic Preservation Act. The Act gives the 
Secretary the responsibility for the National Register of Historic 
Places, $3 billion a year in rehabilitation programs, and a partnership 
relationship with Certified Local Governments (CLGs) throughout the 
United States. The first Secretary of the Interior chose to carry out 
such preservation program in partnership with the States, and since 
1966 every Governor has appointed a State Historic Preservation Officer 
to implement the Act for the Department.
    During his tenure as Mayor of Boise from 1986 to 1993, Governor 
Kempthorne gained important historic preservation experience from the 
local standpoint. In 1986 Boise became an official partner in the 
National Historic Preservation Program by becoming a Certified Local 
Government with his support. (Added to the Act in 1980, the CLG program 
works through the State Historic Preservation Office to bring the 
national preservation program to the local level). CLGs are eligible 
for Historic Preservation Fund grants (10% of a State's total 
allocation) and responsible for the National Register nominations 
within their jurisdiction.
    The State Historic Preservation Officers have a direct interest in 
such duties as they relate to the Secretary of the Interior. Under the 
National Historic Preservation Act (16 U.S.C. 470), the State Historic 
Preservation Officers ``work'' for the Secretary in carrying out the 
nation's historic preservation program. The Secretary sets the 
standards and policies for historic preservation activity and the State 
Historic Preservation Officers put the standards and policies into 
practice.
    I was appointed State Historic Preservation Officer for Idaho in 
1997 by Governor Kempthorne. In that capacity, I have worked with him 
on several historic preservation projects ranging from preparations 
related to the planned restoration of the Idaho State Capitol and the 
adjacent Ada County Courthouse to the renovation of the Governor 
Alexander House. The Governor led the effort to acquire the historic 
Borah Station Federal Building for use as a State office building. The 
Governor also worked to secure funding for Idaho's state parks that 
included support for preservation of historic sites and restoration of 
buildings of historic significance in them.
    It is clear that Governor Kempthorne knows the National Historic 
Preservation Program from the grass roots side. Work by the Governor's 
Lewis and Clark Trail Committee led to Idaho's important contributions 
to the nation's celebration of that bicentennial. He was also 
instrumental in transfer of the J. Curtis Earl Collection (a world-
class exhibit of arms and military memorabilia) to ownership of the 
Idaho State Historical Society.
    Further, it is apparent to anyone visiting his office in the Idaho 
State Capitol Building that Governor Kempthorne has a personal passion 
for history. In addition to the pieces of historic furniture and 
artifacts on loan from the Idaho State Historical Society that enhance 
the room at his request, his personal collection of Civil War-related 
items may reveal a ``kid in a candy shop'' approach that is likely to 
exist in his relationship with the National Park Service, those 
particular historic sites, and his duties as Secretary of the Interior 
to oversee their operation and protection.
    Governor Kempthorne understands the ``mixed use'' nature of 
historic preservation. Unlike a strict conservation approach that 
treats historic places as museums, the National Historic Preservation 
Program seeks to preserve our nation's historic places by using them in 
our daily lives. Historic places when appropriately restored and 
marketed create a heritage tourism destination that can generate 
important income for the local economy. The related rehabilitation tax 
credit offers a federal income tax incentive that encourages the 
private sector to rehabilitate historic buildings for adaptive reuse 
for commercial and residential purposes that is generating a national 
investment of over $2 billion annually.
    My colleagues from throughout the country in the National 
Conference of State Historic Preservation Officers share my support for 
having an Interior Secretary who knows first hand the benefits of 
historic preservation as accomplished by State Historic Preservation 
Offices. They not only know of the high expectations of the Department 
of the Interior for State activities, but of the disconnect that exists 
between Interior's expectations and Interior's budgetary 
recommendations for the States.
    Finally, the variety of historic preservation experience developed 
by Governor Kempthorne during his career should be useful in fulfilling 
the Department's budget priority of Preserve America. Initiated by 
President George W. Bush and the First Lady, Preserve America is the 
government-wide program that encourages exploration and enjoyment of 
our American heritage. The State Historic Preservation Officers lay the 
foundation for historic preservation in America. We look forward to an 
opportunity to strengthen the State historic preservation role in 
Preserve America and in the Department under the leadership of Governor 
Kempthorne.
    Thus, I personally and on behalf of the National Conference of 
State Historic Preservation Officers urge speedy confirmation of my 
friend Dirk Kempthorne as Secretary of the Interior.
                                 ______
                                 
                                       Coeur D'Alene Tribe,
                                       Plummer, ID, April 13, 2006.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig: On behalf of the Coeur d'Alene Tribe (Tribe), I 
am conveying our support for Governor Dirk Kempthorne to be 
expeditiously and affirmatively confirmed as the next Secretary of the 
Interior. The Tribe believes that Mr. Kempthorne has a proven record of 
public service and has engaged in numerous public policy decisions that 
have given him the experience to serve the United States as the 
Secretary of Interior. As you well know, the state of Idaho has public 
land and natural resources that Mr. Kempthorne exercised stewardship 
over when he was the Governor of Idaho.
    Mr. Kempthorne's immersion in issues related to public lands and 
natural resources in the beautiful western state of Idaho has provided 
him the foundation to be an experienced Secretary of Interior that will 
be accountable for managing a majority of America's public land and 
resources. In addition, Mr. Kempthorne has had to establish and 
maintain effective relationships with the five Indian tribes that have 
always called Idaho home. The Tribe has worked constructively with Mr. 
Kempthorne on a wide range of issues including environmental concerns, 
governmental regulation, education, and gaming. While we may not have 
always agreed on every issue that we addressed with Mr. Kempthorne, we 
have constructed a mutually beneficial relationship marked by open 
dialogue and free exchange of ideas.
    The Tribe would hope that Congress stresses the solemn fiduciary 
duty that Mr. Kempthorne would have to uphold as the Secretary of 
Interior with regard to Indian tribes nationwide. As a part of that 
duty, the Tribe would consider Mr. Kempthorne as an equal partner in 
ensuring that Indian tribes' resources, homelands, and government are 
protected so that the road to true self-determination might be 
enriched. The Tribe sincerely hopes that Mr. Kempthorne's confirmation 
is positively moved forward and stands ready to assist you in any way 
possible. If you need additional information or require assistance, 
please contact my legislative director, Quanah Spencer, by telephone at 
(208) 686-0803 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a4b494a5f54595f487a595e5b4e4853585f17544954145d554c14">[email&#160;protected]</a>
            Sincerely,
                                            Chief J. Allan,
                                                          Chairman.
                                 ______
                                 
       Statement of the National American Indian Housing Council

 INTERIOR SECRETARY NOMINEE NEEDS TO BE CLEAR ON INDIAN ISSUES; SOLID 
           RELATIONSHIP WITH TRIBES IS PROMISING FOR INTERIOR

    WASHINGTON--March 27, 2006--The National American Indian Housing 
Council (NAIHC) congratulates Gov. Dirk Kempthorne on his nomination as 
Interior Secretary and is encouraged by his positive relationship with 
tribes as the governor of Idaho. NAIHC hopes that this will translate 
into a positive government-to-government relationship with tribes 
across the country as they work towards their self-determined goals for 
quality affordable housing and other needs.
    President Bush nominated Kempthorne to the Interior Department 
Secretary position on March 16, to replace current Secretary Gale 
Norton, who announced her resignation March 10 after 5 years in the 
position. The Senate must confirm Kempthorne, however no hearing date 
has been announced. During the Senate confirmation process it is 
important to look at Indian issues, including housing. The Bureau of 
Indian Affairs (BIA) is one of the largest bureaus within Interior and 
impacts the quality of life for more than two million Native Americans, 
say NAIHC leaders.
    ``Overall needs of Native Americans remain unmet, such as basic 
infrastructure in their communities, quality affordable housing, 
education and health care,'' said NAIHC Chairman Chester Carl. ``As 12% 
of Native Americans lack plumbing facilities, 11% lack kitchen 
facilities, 90,000 Native families are homeless or under-housed and 
14.7% of homes are overcrowded, the Interior Department Secretary must 
be ready to take on these challenges.''

BIA Head Should Be Appointed Quickly
    As head of Interior NAIHC hopes Kempthorne would nominate a new 
Deputy Secretary for the BIA quickly. This position has been vacant for 
more than a year. A new BIA head would help to implement the Title 
Status Report (TSR) Policy MOU that is intended to expedite mortgage 
transactions on tribal trust land, producing many benefits for Indian 
housing. The MOU guarantees that a BIA staff person will be able to 
certify TSRs within 30 days.

Kempthorne Has Solid Reputation with Tribes in Idaho
    As governor, Kempthorne has collaborated with tribes on gaming 
compacts, signed agreements to recognize tribal sovereignty, water 
rights and other disputes. NAIHC hopes that this collaboration and 
understanding of tribal sovereignty will continue into the Interior 
position.
    ``If confirmed, Gov. Kempthorne will be responsible for honoring 
tribal sovereignty and respecting the need for consultation and 
collaboration in Indian country on all issues,'' said NAIHC Executive 
Director Gary Gordon. ``This includes collaborating with the Housing 
and Urban Development department and tribes on the sometimes deeply 
disturbing realities of housing and infrastructure needs in Indian 
country.''
    The Coeur d'Alene Tribe in Idaho issued a statement last week 
stating that Gov. Kempthorne is fit to be the Interior Secretary. 
``Coeur d'Alene has constructed a solid foundation working with Gov. 
Kempthorne on a wide range of issues including gaming and environmental 
concerns,'' said Quanah Spencer, Legislative and Public Affairs 
Director. The tribe's chairman, Chief J. Allan, ``mopes to continue 
that relationship, the trustee relationship with tribes firmly at the 
center.''
                                 ______
                                 
                 Statement of The Trust for Public Land

    SAN FRANCISCO--Alan Front, Senior Vice President of The Trust for 
Public Land, today issued the following statement on the nomination of 
Governor Dirk Kempthorne of Idaho to be the next Secretary of the 
Interior:
    ``The Trust for Public Land appreciates Governor Kempthorne's 
abiding commitment to the conservation of wildlife habitat, recreation 
lands and access, natural and scenic landscapes, and other resource 
areas. Throughout his career, he has rightly placed a high priority on 
programs and projects that resolve land-use challenges faced by 
communities and property owners by securing threatened resource 
properties for public use and enjoyment. Among the positive results in 
recent years of Governor Kempthorne's focused personal efforts on 
behalf of conservation is the strong Forest Legacy program he 
established in Idaho, which is helping to ensure that some of the 
state's most treasured landscapes will continue to provide their 
natural, recreation, and economic bounty to the generations to come.''
    ``In the next few years, America's public land resources and the 
communities that depend on them will face unprecedented challenges. We 
hope and expect that Governor Kempthorne, as Secretary of the Interior, 
would bring his considerable conservation perspective, experience, and 
leadership to bear on the key land protection decisions before the 
nation. We look forward to working with him to take full advantage of 
the conservation opportunities that bring the greatest benefits to 
America's resources, communities, and the public at large.''
    The Trust for Public Land, established in 1972, specializes in 
conservation real estate, applying its expertise in negotiations, 
public finance, and law to protect land for people to enjoy as parks, 
greenways, community gardens, urban playgrounds, and wilderness. With 
funding from the Forest Legacy Program, the federal Land & Water 
Conservation Fund, state and local open-space funds, and other public 
and private investments, TPL has helped to protect more than 2 million 
acres across the country. For more information, visit TPL on the web at 
www.tpl.org.
                                 ______
                                 
                      National Water Resources Association,
                                        Arlington, VA, May 1, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Ranking Member Bingaman: On behalf of 
the Board of Directors of the National Water Resources Association, 
NWRA, we would like to express our support for the nomination of 
Governor Dirk Kempthorne as the next Secretary of the Department of 
Interior. As water users in the 17 Western States, the Department of 
the Interior plays an integral role in the communities and livelihoods 
of our members.
    Governor Kempthorne has a deep understanding of the western water 
issues important to our members. As a consensus builder, Governor 
Kempthorne has a history of working with both sides of the isle to 
develop workable solutions to western land and water resource problems.
    As Chairman of the Senate Subcommittee on Drinking Water, 
Fisheries, and Wildlife, Governor Kempthorne worked tirelessly and on a 
successful bipartisan effort to pass the Safe Drinking Water Act. of 
1996. Governor Kempthorne also possesses a wide breadth of knowledge 
and understanding about the importance of working in a positive manner 
to update the Endangered Species Act. His legislation, the Endangered 
Species Recovery Act of 1997, S. 1180, though unsuccessful, made much 
progress in forging bipartisan support for improving the act for 
species and people. Under his leadership, Idaho has become a model for 
developing positive solutions for endangered species protection that 
respect private property and state laws.
    NWRA strongly supports the President's nomination of Governor 
Kempthorne and we urge the Senate to confirm his nomination.
    Thank you for your time and consideration in this matter.
            Sincerely,
                                        Thomas F. Donnelly,
                                                Executive Director.
                                 ______
                                 
                American Public Human Services Association,
                                    Washington, DC, March 28, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici: I am writing on behalf of the American 
Public Human Services Association (APHSA) in support of the nomination 
of Governor Dirk Kempthorne as Secretary of the Interior. Governor 
Kempthorne has dedicated the past two decades to a career in public 
service--first as Mayor of Boise, United States Senator and Governor. 
Through those years, he has attained positions of national leadership--
as President of the Council of State Governments and Chairman of the 
National Governors Association (NGA).
    Governor Kempthorne's efforts to preserve the national resources of 
the West are well-known and he has used his office to work with Western 
Governors to forge consensus strategies to protect those resources. 
APHSA knows Governor Kempthorne best through his initiatives and 
accomplishments in the areas of health and human services for the 
children and elderly of Idaho. It was his vision to launch the 
``Generation of the Child'' to improve health and well-being of Idaho's 
children and his priority to explore the future of long term care 
services in this county when he led the NGA.
    Governor Kempthorne is a man of vision and a leader with the 
passion and intelligence to tackle issues that will confront this 
nation in the future. We urge your support for his nomination as 
Secretary of the Interior.
            Sincerely,
                                         Jerry W. Friedman,
                                                Executive Director.
                                 ______
                                 
    The Foundation for Environmental and Economic Progress,
                                    Washington, DC, April 24, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Re: Support for the Nomination of Idaho Governor Dirk Kempthorne as 
Secretary, Department of the Interior

    Dear Mr. Chairman: I am writing on behalf of the Foundation for 
Environmental and Economic Progress (``the Foundation'' or ``FEEP'') to 
express support for the nomination of Idaho Governor Dirk Kempthorne as 
Secretary of the Interior. As a former mayor and Senator, and as a 
current Governor, Governor Kempthorne is uniquely qualified to work 
effectively with federal, state, and local officials to ensure wise 
stewardship of our nation's resources.
    The Foundation is a national coalition of land-holding companies 
that advances balanced federal environmental law and policy affecting 
private land use. Foundation members have met regularly with 
Administration officials, testified at numerous Congressional hearings, 
and provided input to House and Senate members and their staffs 
regarding various alternative wetlands and endangered species 
proposals. We were pleased to work with then Senator Kempthorne on S. 
1180, the Endangered Species Recovery Act of 1997. With strong 
bipartisan support, Senator Kempthorne drafted, negotiated, and led the 
Senate Committee on Environment and Public Works to report S. 1180. 
Though S. 1180 ultimately was not signed into law, debates in the 
current Congress on Endangered Species Act reform continue to cite S. 
1180 as a favorable starting point for reform and applaud Senator 
Kempthorne's efforts as a model of consensus building.
    Governor Kempthorne's experience at the local, federal, and state 
level will serve him well in his role as Secretary of the Interior. We 
urge the Committee to quickly report his nomination to the full Senate.
            Sincerely,
                                      Virginia S. Albrecht,
                  Director of Government Affairs & General Counsel.
                                 ______
                                 
                            Western Governors' Association,
                                       Washington, DC, May 3, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Minority Member, Committee on Energy and Natural Resources, 
        U.S. Senate, Washington, DC.
    Dear Chairman Domenici and Ranking Member Bingaman: On behalf of 
the membership of the Western Governors' Association, we are writing to 
express our unqualified support for Governor Dirk Kempthorne's 
nomination to be the next Secretary of the Interior. Governor 
Kempthorne was elected Idaho's 30th Governor in 1998 and was re-elected 
in 2002. As Governor, he has put forward initiatives to foster rural 
economic development, improve overseas marketing of Idaho products, and 
promote greater integration of the state's scientific, educational, and 
business communities. Idaho's children have also been his priority. He 
has established a range of programs to ensure that Idaho's children are 
healthy and well educated.
    Governor Kempthorne has actively participated in the Western 
Governors' Association throughout his tenure and served as our Chairman 
in 2001. He is currently or has been a leader on a number of key WGA 
issues including forest health, Endangered Species Act reform, energy 
policy and drug policy.
    He has been particularly active on our forest health efforts. In 
response to the devastating wildfires that struck Idaho and many other 
western states in the summer of 2000, Governor Kempthorne worked 
closely with the Governor of Oregon to develop the 10-Year 
Comprehensive Strategy: A Collaborative Approach for Reducing Wildland 
Fire Risks to Communities and the Environment. He brought together his 
colleagues, the Secretaries of the Interior and Agriculture, local and 
tribal governments and a wide range of stakeholders to fundamentally 
shift our nation's approach to addressing forest health. He has worked 
effectively to implement this Strategy both through WGA and as the sole 
representative of all the Governors on the Wildland Fire Leadership 
Council.
    The Western Governors believe Governor Kempthorne possesses 
extraordinary leadership skills and a keen understanding of public 
lands issues. He is highly qualified to become the 491 Secretary of the 
Department of the Interior. We urge the Senate to confirm him 
expeditiously and look forward to working closely with him thereafter.
    Thank you for your consideration of our views.
            Sincerely,
                                   Janet Napolitano,
                                           Governor of Arizona.

                                   M. Michael Rounds,
                                           Governor of South Dakota.
                                 ______
                                 
       Pennsylvania Department of Environmental Protection,
                                    Harrisburg, PA, March 22, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici: I am writing to express my personal regard 
for Governor Dirk Kempthorne.
    I want to make clear at the outset that I consider the policies of 
the Bush Administration with respect to public land management, 
environmental protection and conservation to be terribly misguided. The 
President has purpled a radical course that compromises our strength 
and security as a nation by squandering our natural capital.
    Dirk Kempthorne, however, in my experience, has been a different 
kind of leader: I have found him open to discussion and inviting of 
varied perspectives I have found him to be measured, judicious and 
sober in his exercise of authority.
    When I was before the U.S. Senate for confirmation as Chairman of 
the White House Council on Environmental Quality in 1994, then-Senator 
Kempthorne supported my nomination and worked to secure the support of 
his colleagues. He was clear at the time that he did not agree with all 
of the policies I had helped to formulate on behalf of President Bill 
Clinton with respect to resource and species conservation. In fact, on 
some policies he was strongly and publicly in disagreement with me. 
Nonetheless, he took a tough stand on my behalf because he felt that I 
had acted honestly, openly and with consideration of solid ecological 
science. In other words, in my mind he acted with integrity instead of 
just on the basis of political expediency.
    Later, then-Senator Kempthorne reached out to me and my colleagues 
In the Administration in an effort to forge a compromise concerning the 
Endangered Species Act. Other Republican leaders then, as unfortunately 
continues today, were promoting legislation that essentially 
eviscerated the Act. Dirk Kempthorne, however, was willing to 
acknowledge that the Clinton Administration already had implemented 
important reforms to the program that we were both more protective of 
species and more sensitive to private property concerns. Dirk 
Kempthorne then acted to build his legislative proposal on those 
Clinton Administration innovations and invited us to the table to 
fashion a proposal that could actually gain support and work.
    In summary, it is my experience that Dirk Kempthorne is a man of 
principle and not just of politics. And it is my hope that, if 
confirmed by the U.S. Senate, Governor Kempthorne will work to restore 
balance, respect for science and genuine commitment to the responsible 
protection of our natural resources--all now sorely and sadly lacking 
at the U.S. Department of the Interior.
    In closing and at his express request, I would like to note that 
Pennsylvania Governor Edward G. Rendell extends his best regards to 
Governor Kempthorne as well. Governor Rendell holds Governor Kempthorne 
in the highest personal esteem and considers him a person of strong 
character and integrity.
            Sincerely,
                                       Kathleen A. McGinty,
                                                         Secretary.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
